<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 116-66]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2021 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                       REQUEST FOR THE DEPARTMENT

                              OF THE NAVY

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2020


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-283                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
              Phil MacNaughton, Professional Staff Member
               David Sienicki, Professional Staff Member
                          Emma Morrison, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     2

                               WITNESSES

Berger, Gen David H., USMC, Commandant, U.S. Marine Corps........     5
Gilday, ADM Michael M., USN, Chief of Naval Operations, U.S. Navy     4
Modly, Hon. Thomas B., Acting Secretary of the Navy..............     3

                                APPENDIX

Prepared Statements:

    Modly, Hon. Thomas B., joint with ADM Michael M. Gilday and 
      Gen David H. Berger........................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Banks....................................................   111
    Mr. Bergman..................................................   111
    Mr. Brown....................................................   109
    Mr. Cook.....................................................   109
    Mr. Courtney.................................................   107
    Mrs. Hartzler................................................   107
    Ms. Houlahan.................................................   110
    Mr. Larsen...................................................   107
    Mr. Moulton..................................................   108
    Ms. Speier...................................................   107
    Mr. Waltz....................................................   112

Questions Submitted by Members Post Hearing:

    Mr. Bergman..................................................   127
    Mr. Bishop...................................................   130
    Mr. Brindisi.................................................   129
    Mr. Brooks...................................................   121
    Mr. Byrne....................................................   121
    Mr. Cisneros.................................................   124
    Mr. Gallagher................................................   123
    Mr. Golden...................................................   128
    Mr. Graves...................................................   129
    Mr. Scott....................................................   117
    Ms. Sherrill.................................................   126
    Ms. Speier...................................................   116
    Ms. Trahan...................................................   128
    Mr. Turner...................................................   115
    Mr. Vela.....................................................   122
    Mr. Waltz....................................................   127
                 
                 
                 THE FISCAL YEAR 2021 NATIONAL DEFENSE

      AUTHORIZATION BUDGET REQUEST FOR THE DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 27, 2020.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118 Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. We are going to go ahead and get started. We 
have a full committee hearing this morning to discuss the 
fiscal year 2021 national defense authorizing budget request 
for the Department of the Navy.
    And we are joined by three witnesses this morning: the 
Honorable Thomas Modly, Acting Secretary of the Navy; Admiral 
Michael Gilday, Chief of Naval Operations; and General David 
Berger, the Commandant for the U.S. Marine Corps.
    Gentlemen, thank you all for being here. Appreciate your 
willingness to testify, and also your service to our country, 
all the work that you do to help make sure that we have the 
strongest military we possibly can and meet our national 
security objectives.
    We kicked off our posture hearing season yesterday with the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff, and I think got a pretty good overview of the overall 
budget, and now we are going to work our way through piece by 
piece.
    And I think the most interesting thing is what the 
Department of Defense has undertaken--that I know you all are 
participating in as well--that has come to be called the blank-
slate review; basically, an effort to look at everything that 
we are doing within the military and reassess, figure out where 
we could potentially save money, where we should spend more, 
and how we need to realign our priorities to make sure that 
they match up with the National Security Strategy that was put 
in place over a year ago now, I believe.
    The overarching theme of that is the notion of great power 
competition and the re-emergence of that, which re-emerged a 
while ago, but dealing with Russia and China and how that 
enabled--how we should realign our forces and realign our 
defense priorities to meet that challenge. And I think that is 
the most difficult question and one that we definitely want to 
hear from all of you today in terms of how it specifically 
impacts the Navy and the Marine Corps.
    What do you need to do differently? Where are you short 
assets? Where can assets be transferred from? And how do we 
balance all of those complex needs? And the great challenge 
here of course is we do not have infinite resources. The budget 
is what the budget is. So if we come to you and say, ``We want 
you to do more here,'' logically, you are going to have to do 
less somewhere else.
    I do realize that efficiencies are part of that. We 
discussed a little bit yesterday the move towards an audit, 
trying to make sure that we create greater efficiency in the 
acquisition and procurement process.
    I know Ranking Member Thornberry has done an enormous 
amount of work on that. All of that done, we still have to make 
choices within the budget. And you gentlemen are in the 
position to best understand those choices and why you have made 
the ones you have. So hearing from you how you prioritize where 
you want the money spent is going to be enormously important.
    We are specifically concerned--and I know Congressman 
Courtney will express these concerns better than I can--about 
some of the reductions in the shipbuilding accounts and money 
that apparently was transferred around in the President's 
budget at the last minute that, among other things, required 
the reduction of one attack submarine and how we are going to 
meet those needs.
    And overall, in that area, I am interested in--we have been 
talking about a 355-ship Navy I think for the entire time that 
I have been in Congress. I think they had a different number 
when I started, but I forget what that number was.
    It is almost meaningless at this point. Since it is like 
20, 30 years out, we are going to try to get to that number. 
What I am more interested in is, what do we have now? What are 
we likely to have in the next 5 years? How does it meet our 
needs, and how do we plan for the future? It is great to have 
goals, I suppose, and we can aspire towards that number.
    But at the point--at this point, it seems like just that: 
an aspiration. It doesn't translate necessarily into a 
strategy, so we are more interested in how the short-term 
strategy works on that front. So we look forward to your 
testimony, and we have many questions, and it will help inform 
us as we get ready to produce the National Defense Authorizing 
Act this year.
    And with that, I turn it over to the ranking member, Mr. 
Thornberry, for any opening comments he has.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                             FORCES

    Mr. Thornberry. Thank you, Mr. Chairman. And I join you in 
welcoming our witnesses today, and also thanking each of them 
for their service and their many contributions to the country's 
defense.
    As chairman referenced, there was considerable conversation 
yesterday with the Secretary and the Chairman about Navy 
shipbuilding. It was interesting to me, one of the benefits the 
chairman and I have is we get to be here from the front until--
the beginning until the end of these hearings. And while there 
was a lot of concern about this year's budget, as the 
conversation evolved, there seemed to be more questions about, 
okay, where is the Navy headed in a longer term sense? Not just 
numbers of ships, but characteristics of ships and 
capabilities, and so forth.
    And so I do think members are interested to get that sort 
of where we are headed, and that will enable us to do a better 
job not only this year but in the future. And, similarly, a 
reference was made to potential changes coming to the Marine 
Corps.
    And so I think while we will focus, of course, on this 
year's budget, as the chairman referenced, changes in warfare, 
moving from as much emphasis on counterterrorism toward great 
power competition, means that all of the services will have to 
make some changes, maybe your two as much as any.
    So we look forward to hearing from you, and, again, thanks 
for being here.
    The Chairman. Thank you.
    Mr. Modly.

STATEMENT OF HON. THOMAS B. MODLY, ACTING SECRETARY OF THE NAVY

    Mr. Modly. Chairman Smith, Ranking Member Thornberry, 
distinguished members of this committee, thank you for your 
bipartisan efforts on behalf of our sailors, Marines, and 
civilians in the Department of the Navy. It is a true honor for 
me to be here today with Admiral Gilday and General Berger, 
both of whom have demonstrated great commitment to each other 
and to each other's respective naval service as they have 
worked collaboratively to lead our integrated American naval 
force.
    Consistent with that spirit, we have taken a different 
approach to the written testimony this year, as you have 
received--we have submitted one unified document instead of 
three separate statements. And staying ahead in today's rapidly 
changing global strategic environment demands that our naval 
forces commit to unified planning, clear-eyed assessments, and 
sometimes some very, very hard choices.
    In this process, we must harmonize competing priorities, 
sustain our critical industrial base, and not allow our 
maritime competitive advantage to erode relative to global 
competitors and, more accurately stated, aggressive adversaries 
who wish to hasten our decline as a global force for liberty 
and decency around the world.
    In the end, this budget submission is a manifestation of 
the hard choices we had to make this year. But it is centrally 
about our sailors and Marines, their safety and their security 
and their well-being and their families.
    Ultimately, I ask that you recognize that in this 
submission we could not make trades that put our sailors and 
Marines on platforms and with equipment that are not ready for 
a fight if that fight is what is required of them. While this 
budget does slow our trajectory to a force of 355 ships or 
more, it does not arrest it.
    You have my personal assurance that we are still deeply 
committed to building that larger, more capable, more 
distributed, naval force within what I consider a strategically 
relevant timeframe of no more than 10 years. I look forward to 
working with this committee and the entire Congress in the 
coming months as we develop realistic plans to do so.
    Our budget also demonstrates a clear commitment to the 
education of our people as we implement the recommendations of 
the Education for Seapower study that I led while serving as 
the Under Secretary of the Navy for the last 2 years. We are 
establishing a naval community college for our enlisted 
personnel as part of a bold and unified naval education 
strategy that recognizes that the intellectual and ethical 
development of our people is going to be the most critical 
element of our success as a naval force.
    We are also stepping up our efforts to meet our solemn 
commitment to our military families through significantly more 
engaged oversight and accountability of our public-private 
venture housing program.
    Finally, I would like this committee to understand that as 
leaders of the Department of the Navy, we are both vocal and 
united in our determination to prevent sexual assault and 
sexual harassment throughout our force. Every sailor, every 
Marine, and every Navy civilian deserves individual dignity, 
respect, and protection from this great naval institution that 
we have the honor to lead.
    We have a lot of work to do in this regard, but you have my 
personal commitment that we take it very, very seriously, and 
we are going after it every day. We are grateful to the 
committee for passing this year's NDAA [National Defense 
Authorization Act], which enables many of the priorities 
identified within this document. In passing this legislation, 
you sent a strong signal of support to our people and a stern 
warning to our adversaries around the world.
    We also appreciate the funding stability and predictability 
of the last several years. This has saved a lot of money for 
the American taxpayers and given our force the agility and 
flexibility to address emerging threats while investing in our 
integrated force.
    We urge this committee to do what it can to continue this 
stability in the future, so that we can implement the reforms 
and investments required to meet the great power challenges we 
face, protect the maritime commons, and defend the United 
States of America.
    Thank you for your time, and we look forward to your 
questions. Thank you.
    [The joint prepared statement of Mr. Modly, Admiral Gilday, 
and General Berger can be found in the Appendix on page 59.]
    The Chairman. Thank you.
    Admiral Gilday, are you going to make a statement? We are--
--
    Admiral Gilday. Yes, sir. I can.
    The Chairman. Okay. Go ahead.

    STATEMENT OF ADM MICHAEL M. GILDAY, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Gilday. Chairman Smith----
    The Chairman. If you could be sure and pull the microphone 
down in front of you there.
    Admiral Gilday. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, good morning, and thank 
you for the opportunity to appear today with Secretary Modly 
and General Berger, and for your enduring support of the Navy-
Marine Corps team.
    I would also like to point out that my wife Linda joins me 
this morning.
    I will be brief, sir. I would like to address some of the 
points that both of you made in your opening statements, and 
this really gets down to priorities. So in our budget 
submission for this year, the Navy has four priorities. The 
first is to fully fund the Columbia-class submarine. So that 
nuclear seaborne deterrent that this Nation depends upon is 
aging out. By the time we replace the Ohio hull, it will have 
42 years in the water, and so we need to deliver Columbia on 
time for its first patrol in 2031.
    Numbers two and three are readiness and lethality. We are 
catching up and closing gaps that we have created over the past 
15 to 20 years. And so in order to come to this committee and 
ask for more money for a larger fleet, we need to make sure 
that we can maintain and sustain the fleet that we have. And so 
those are two priorities for us, and our budget reflects that.
    In terms of lethality, we are closing gaps against near-
peer competitors by investing in capabilities that have range 
and that have speed. Twenty-one percent of our budget is 
invested in closing those gaps against our near-peer 
competitor. While we are doing those top three priorities, we 
are still investing in capacity. The size of the fleet is 
growing; it is just not growing at the pace that some would 
prefer.
    And to meet those priorities, we have had to make some hard 
choices inside the Navy, and that includes decommissioning some 
legacy platforms that don't bring lethality to the fight.
    So with those comments, sir, I thank you again for your 
time this morning.
    The Chairman. Thank you.
    General Berger.

STATEMENT OF GEN DAVID H. BERGER, USMC, COMMANDANT, U.S. MARINE 
                             CORPS

    General Berger. Chairman Smith, Ranking Member Thornberry, 
distinguished members of this committee, I appreciate the 
opportunity to testify on the posture of your Marine Corps and 
the priorities for our future.
    And I will start by echoing Secretary Modly and Admiral 
Gilday's thanks for timely funding, as well as your enduring 
commitment to Marines, sailors, and their families through 
efforts like the hurricane recovery effort and funding that you 
provided last year, and the revision to the public-private 
venture housing program. Your bipartisan support is critical to 
ensure that we continue to prioritize people as our greatest 
resource.
    Thanks to predictable funding over the past few years, the 
Marine Corps has made significant progress in restoring both 
availability and readiness. We are now at an inflection point. 
We have to pivot now toward modernization, while sustaining the 
readiness that this committee has resourced.
    This pivot, in my opinion, cannot wait until next year or 
the following. We must move now or risk overmatch in the future 
by an adversary, and that is a risk we will not take.
    As the National Defense Strategy directs, and as Secretary 
Modly recently emphasized in his first Vector to all hands, we 
must pursue urgent change at a significant scale. Marines have 
always sensed when it is time to move out smartly. We don't 
hesitate. This is that time.
    Realizing the bold direction of our strategic guidance 
requires acknowledging fundamental changes in the operating 
environment, and that means how we must train, organize, and 
equip the force. I believe most leaders recognize that 
significant changes are required, yet the scope and pace of 
necessary change is seemingly at odds with some historical 
resource allocations and major acquisition programs which 
predate the National Defense Strategy.
    This budget submission marks the beginning for the Marine 
Corps of a focused effort to better align resources with 
strategic objectives. Our future budget submissions will build 
on these investment decisions with informed recommendations for 
force design modifications and adjustment to our programs of 
record.
    Together, in partnership with Admiral Gilday and under the 
direction of Secretary Modly, we are committed to delivering 
the integrated naval and Marine forces that our Nation 
requires.
    As always, I welcome the opportunity to discuss our 
findings along the way, and keep each of you and your staffs 
informed as we progress. We will be frugal with the resources 
we are given. We will ask for no more than we need. With 
Congress' commitment and support, we will ensure your Marines 
continue to have every advantage when we send them into harm's 
way.
    And I look forward to your questions.
    The Chairman. Thank you, General. Could you, as a starting 
point, quantify for us the readiness gains, where we were at, 
where we've come to, how much further we need to go, taking 
your point on the procurement needs now that are paramount. 
Explain to us where you are at on readiness, where you were, 
where you are at, where you think you need to be.
    General Berger. Chairman, I will probably just use a couple 
of examples. First of all, TACAIR [tactical air], fixed-wing 
aviation. Three years ago, if memory serves me right, we were 
in the mid to upper 50s across the F-18 and Harrier community, 
and we were just introducing the F-35. And 50 percent is not 
the readiness that you all expect.
    Last year, the goal that the Secretary outlined, and we 
both strove towards, was 80 percent, and we in fact achieved 
that. We would never have made that without the resources that 
Congress provided.
    Ground side, similar picture. Because of Iraq and 
Afghanistan, we had rode our forces, our equipment, pretty 
hard, and we had postponed maintenance. The last 2 or 3 years 
we have recovered that.
    The Chairman. Terrific. Thank you.
    Admiral, could you help me out with the 355-ship thing? I 
think it is really important, as the ranking member pointed 
out, what are the capabilities we need? What are the types of 
ships? How do you sort of balance that focus in terms of what 
types of ship you are building, what capabilities you need, 
with the oft-stated goal of having 355 ships? And when is it--I 
forget the date when we are supposed to achieve that number. 
How do those two things mesh in terms of your plans?
    Admiral Gilday. To your point, it is about capabilities. 
And so when we take a look at what we need--what we need in the 
Navy as part of the joint force, we are taking a look at what 
unique capabilities the Navy can bring to the fight that other 
services can't.
    And so it is an analytical approach within the Pentagon to 
try and make the best investments now to close capability gaps 
against both the Chinese and the Russians.
    So a couple of examples of the Navy in terms of the air 
wings that are embarked on aircraft carriers. So no other place 
in the military do we have an airfield that I can move 700 
miles a day, and at the same time provide the integrated 
capability of early warning, electronic attack, anti-submarine 
warfare, air-to-ground, air-to-air, and logistics; all the 
while you have a self-sustaining platform that, again, is 
mobile.
    At the same time, we bring unique capabilities with respect 
to ballistic missile defense and anti-submarine warfare on the 
destroyers, and with our submarines as well. And so those fold 
into that joint mix in terms of what the Navy can contribute to 
the joint fight, and that translates into platforms.
    And so, simply, that is kind of the quadratic equation that 
yields the number of ships, but it also takes into account 
attrition models in a fight. It also takes into account what 
other missions we need to conduct around the globe in 
accordance with the National Defense Strategy. So that would 
include deterring another near-peer competitor conventionally, 
strategically, being able to respond to additional threats, 
assuring allies and partners.
    Those also fold into the equation, as well as a strategic 
reserve bench in case we do get into----
    The Chairman. What is the point of the 355 goal? Mr. Modly, 
if you want to take----
    Mr. Modly. Mr. Chairman, do you mind if I address this 
question? So it is not a random number. It is a number that was 
basically benchmarked off of a study that was done in 2016, the 
force structure assessment.
    The Chairman. But when is it that we are saying that we are 
going to need the 355 ships?
    Mr. Modly. I am sorry, sir? I didn't----
    The Chairman. When? When are we planning on----
    Mr. Modly. Well, it is my objective to try to get us there 
within 10 years. That is the strategy I am trying to drive 
through, and it is not just a random number. It is driven by 
strategy. It is driven by the capabilities we think we need.
    I will also say it is improper for us to be benchmarking 
against a static number. What we are trying to develop in the 
Department of the Navy is more of an iterative process to look 
at that number, so that we can understand how we might adjust 
certain ship categories based on how we perceive the security 
environment evolving.
    The security environment is not static. We have to develop 
a force that is agile, that we can quickly adjust certain ship 
categories as we see that we need them.
    We just completed an integrated force structure assessment 
that was led by the Commandant and the CNO [Chief of Naval 
Operations] for the first time together, trying to determine as 
we look at that future security environment and the 10-year 
horizon--and we have to take it with some reality here because 
it takes a long time to get ships designed and built and into 
an industrial base that can support it. But in the 10-year 
horizon, as we looked at those numbers again, they actually 
ended up increasing, but the mix is different.
    So what I am trying to emphasize is that it is--the 355 was 
pegged to a force structure assessment that was done 4 years 
ago. We are trying to develop a process in the Navy where we 
constantly look at this, constantly iterate this, give good 
signals to industry so they can adjust with it.
    The Chairman. Understood. One last question on that. So 
looking at that 10-year goal, how does the money that was taken 
out of shipbuilding that cost us that submarine, number one, in 
this budget--which was not in the original President's budget 
that was taken out, as I understand it, to fund the NNSA 
[National Nuclear Security Administration] at a higher level--
how does that, plus the cuts that you are now facing from the 
money being reprogrammed for the wall and the programs that are 
cut, how do those things impact your ability to meet those 
goals?
    Mr. Modly. Well, to be frank, it is not helpful, because it 
takes a ship out of a plan that we are driving towards. It 
particularly is harmful in the sense that it takes a ship out 
of a category of ship for which we are going to have a hard 
time getting to anyway. We feel like we need to have at least 
66 attack submarines.
    Even on a 10-year trajectory, based on industrial base 
capacity, we think we can get to about 49 or 50. So it takes 
out one. If we can get to 48 instead of 49, that impacts that 
number. But that is--so, of course, any ship that comes out of 
the process of--in any given year is going to impact our 
ability to get there as quickly as I would like to.
    The Chairman. Understood. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. As I look at the numbers, the shipbuilding 
account is down, what, about $4 billion from last year? And the 
readiness--O&M [operations and maintenance] account for the 
Navy is up about $3.6 billion from last year. Basically, the 
same, the cuts and the increases.
    So could either of you, Mr. Secretary or Admiral, give me a 
little deeper explanation for why the emphasis needs to be, in 
your view, on the O&M part this year?
    Mr. Modly. I will take it initially, and then I will turn 
it over to the CNO. But I think what I tried to basically say 
in my opening statement was we did make that trade.
    It was an intentional trade because our decision was that 
at this particular time, because of the readiness hole that we 
had fallen into over many, many years, we needed to address 
that first and foremost, because that immediately impacts the 
safety and security of the sailors and Marines that we put out 
on these platforms.
    We could not, in good conscience, trade that money for more 
ships that could not operate properly with the right equipment 
and with the right readiness. And so that is the trade we made.
    We have to look now, as we look from 2022 forward, how do 
we afford this larger Navy and maintain the readiness? And 
those are the challenges, and that is being pressurized by a 
lot of things, such as the Columbia recapitalization, which is 
a necessary part of our national security. But we are looking 
internally to see what we can do, to look at our own budget 
first to see what we can do to find additional funds to drive 
that.
    Mr. Thornberry. Admiral, as you describe this, can you give 
us--you have got, what, ships that are not deployable? Kind of, 
what is this readiness priority in a practical, concrete way?
    Admiral Gilday. Yes, sir. So big picture, I believe that we 
need a Navy that is ready, that is capable, and lethal, more 
than we need a bigger Navy that is less ready, less capable, 
less lethal. And so the money that we are putting into the 
readiness accounts, right, specifically, if we talk about 
manpower--so when I commanded a destroyer, we had over 300 
sailors on the destroyer. We went down to 245. We had 
collisions in the Pacific. We learned a lot, lessons learned in 
blood.
    We are now buying that manpower back. We will be at 265 
this year. We will come out to 285 in those destroyers in 2023, 
as an example.
    We have gaps at sea. Those gaps need to be filled so our 
ships are fully manned for all the reasons that you well know. 
So we are buying back those people. There are years when the 
Navy has shedded people faster than we have shedded ships, and 
the size of the Navy has declined since I have been in uniform 
in 1985.
    But the people piece is where you can get money fast, and 
it is a really attractive place to go after money, and we are 
saying we are not going to do that. We are going to buy back 
that manpower that we know that we need on our ships.
    In terms of training for that manpower, what we also 
learned from those collisions, we need to do a much better job 
at training our sailors at sea. We have put significant 
investments in live virtual training as an example--simulators 
that are world-class--and we have those at all of our fleet 
concentration areas.
    In terms of modernization, so we are modernizing our ships. 
We have taken a holiday for a while, and keeping up with--70 
percent of the fleet that we have today we are going to have in 
2030. And so we have to take care of that fleet.
    So in terms of modernization, we are putting new systems on 
there to make our ships more lethal, and we are filling the 
magazines with weapons. And the investments we are making in 
weapons are those that have range and speed. So for years, we 
have invested in defensive systems because we haven't had a hot 
breath down the back of our neck. Now that hot breath is China, 
so we are closing those gaps.
    That essentially, sir, I hope answered your question on why 
that is where the focus is at the expense of growing a Navy at 
a precipitous pace. And so----
    Mr. Thornberry. Okay. Let me just ask one other question. 
Lots of flack yesterday about not having a 30-year shipbuilding 
plan come with a budget. Any idea when we might see such a 
thing?
    Mr. Modly. Representative Thornberry, the issue with a 30-
year shipbuilding plan is that we developed this integrated 
force structure assessment, and we presented it to the 
Secretary of Defense. He wanted some time and some space to 
look at that, analyze it, and understand how that would impact 
a 30-year shipbuilding plan.
    So, unfortunately, it was a confluence of events this year 
that we did not--we submitted our budget, the force structure 
assessment was delivered, and we didn't have time to really 
iterate that, talk to him about it, test it, before we 
submitted a 30-year shipbuilding plan. But we will work with 
them. Hopefully by--in a couple of months we will be able to 
submit that.
    Mr. Thornberry. Okay. Thank you.
    The Chairman. So two quick things before we go to the rest 
of the questioning. First of all, we have a 5-minute clock for 
everyone, and the witnesses need to be helpful to me. Once you 
get down close to that 5 minutes, if you could try to wrap up, 
so that I don't have to interrupt you, that would be great.
    Second, Mr. Garamendi has an introduction he wants to do 
quickly.
    Mr. Garamendi. If I might--thank you, Mr. Chairman--very 
quickly. The 75th anniversary of Iwo Jima is upon us. Wandering 
into my office today is a 98-year-old veteran of Iwo Jima, a 
Purple Heart. Clinton Trefethen is down here in the front row. 
His unit was the first on the beach, an engineering unit. He 
was wounded in that battle, and I would like to welcome him.
    General, Commandant, he has got a few things he can tell 
you about how to do it right.
    [Applause.]
    The Chairman. Thank you very much, sir.
    Thank you, John.
    Mr. Garamendi. He was just recently given his new license 
from the California Department of Vehicles. Highway Patrol 
caught him a couple of days after that traveling at over 100 
miles an hour. And when the Highway Patrolman said, ``Do you 
know how fast you were going?'' he said, ``Yes, 2 miles an hour 
over my age.''
    [Laughter.]
    The Chairman. Thank you. On that note, Ms. Davis is 
recognized.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for your service to our country and certainly for being 
with us today.
    I wanted to go back to the issue that we began talking 
about yesterday. And as you may know, I had asked General 
Milley about the cut to the Virginia-class submarine--we have 
referenced that already today--to increase nuclear weapons 
programs. And he said that while he supported fully funding the 
nuclear arsenal, the last-minute change was not supported by 
his best military advice, and I know that has been mentioned 
again.
    Could you share your thoughts about that, so we have a 
better understanding about how that occurred? I was addressing 
that to the Admiral, but, Mr. Secretary, do you want to----
    Admiral Gilday. Ma'am, I was not directly involved in those 
discussions. It happened at budget end-game very quickly, and 
we were informed after the decision was made.
    Mrs. Davis. Okay. And, Mr. Secretary, I think you addressed 
it already.
    Mr. Modly. That is exactly the way I would--thank you.
    Mrs. Davis. Okay. Thank you. Thank you very much. That is 
helpful, and maybe further discussions about how, again, 
Congress can play a stronger role in that as well.
    In this budget, shipbuilding has also seen cuts in 
logistics and support vessels like oilers. And I wonder if you 
could talk about the way forward with those programs as well. 
Where are we? Where should we be going?
    Admiral Gilday. Yes, ma'am. Thanks. As you probably know, 
we have a new class of oiler that we are building and will 
reach its initial operating capability in just a couple of 
years, so replacing an aging fleet of oilers. We are also 
beginning to make investments in strategic sealift. And so that 
is another area of the budget, just like the Columbia-class 
submarine, just like our infrastructure ashore, where we 
haven't made significant investments in a while.
    So the Congress has given us the authorities to buy used 
vessels, and so we are buying two used vessels in 2021, and the 
authority is to buy up to seven of those. At the same time, we 
are doing R&D [research and development] in a new class of 
affordable sealift platform.
    At the same time, we did service life extension on six of 
our older ships last year. We are going to double that this 
year, and we are going to triple that next year in 2021 with 
this request.
    I hope that answers your question, ma'am, in terms of----
    Mrs. Davis. Sure. And you feel that that is going to get us 
where we need to be.
    Admiral Gilday. No, ma'am.
    Mrs. Davis. Oh, okay.
    Admiral Gilday. And so----
    Mrs. Davis. Where do we need to be?
    Admiral Gilday [continuing]. We take a look at pressure 
points within our top line, and that is among them. We are 
giving it attention, but it is just a long time to catch up 
with that aging fleet, given its size.
    Mrs. Davis. Thank you. The Navy, as you know, has been 
offering unmanned systems and has developed multiple programs 
of record on systems that were never fielded. In fiscal year 
2021, the Navy proposed a serial production of the large 
unmanned surface vessel before prototyping and testing are 
complete.
    Considering the history, is it prudent to continue serial 
production of large unmanned surface vessels before the 
prototyping and testing are complete? Mr. Secretary, you want 
to answer?
    Mr. Modly. Yes, absolutely. Well, we have to really 
accelerate our investment in unmanned platforms. And that is 
what we are trying to do, and we are trying to do it at a 
reasonable pace, so that we can understand how these 
technologies might work, and, more importantly, how they might 
operate together.
    So without having the platforms, it is very difficult for 
us to do that type of testing, that type of integrated testing 
that we would need to do.
    So we are proceeding, we think, in a somewhat cautious pace 
to do this. But it is absolutely going to be part of whatever 
future force structure we have, and so we need to start 
experimenting with concepts, understanding how the technology 
will work.
    Mrs. Davis. Thank you. You know that the Navy struggles to 
forecast ship depot maintenance--that is a big, tough issue for 
everybody--and has recently requested congressional approval to 
cover approximately $1 billion of shortfalls in this account. 
This creates unpredictability, of course, for industry and 
diminishes Congress' confidence that the Navy is effectively 
managing this huge and critical enterprise.
    What are you doing to better predict the schedule and costs 
of ships and submarine maintenance availabilities?
    Admiral Gilday. Ma'am--I am mindful of the time, Mr. 
Chairman--but so as you point out, we have had challenges with 
depot-level maintenance on our ships. Most recently, we have 
only been able to get about 30 to 35 percent of our ships out 
of the shipyards on time. That has been a priority of the Navy, 
to turn that around.
    We want to reduce 80 percent of our delay days this year. 
Right now, 63 percent of our ships are coming out of 
maintenance on time through 2020, and we want to eliminate all 
of those delays by the end of 2021. So it is very aggressively. 
We have done a lot of analytical work. We found out, as an 
example, that most of the--many of the delays, about 25 
percent, could be attributed to poor forecasting and planning 
up front. That is our fault in the Navy, and so we took a round 
turn on that.
    Additionally, we are taking a look at bundling contracts 
for private----
    The Chairman. And we will have to leave it at that.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And thank each of you 
for being here, and I particularly appreciate you being here. I 
am a grateful Navy dad, and I have a son who has been an 
orthopedic surgeon and serving today, has previously served in 
Iraq with the SEALs [Sea, Air, and Land teams] and the Rangers. 
So we just so appreciate our family being part of the Navy 
family.
    Additionally, Secretary Modly, the National Defense 
Strategy lays out the rebuilding military readiness as we face 
a more lethal joint force as a distinct line of effort. The 
Navy's fiscal year 2021 request for F-35 Joint Strike Fighters 
include five less than last year, and six less than fiscal year 
2019.
    Topping the Navy's unfunded priorities list, however, is 
$525.5 million for five F-35C carrier variants. How is the 
naval readiness, and ultimately military readiness, impacted by 
these aircraft not being funded? And what is the Navy's plan to 
compensate for the shortfall?
    Mr. Modly. Well, as you know, sir, we did put that in. It 
is the number two item on our unfunded priorities list. We 
would, obviously, love to have those aircraft. But, again, if 
the--when we got into the final budget deliberations, we felt 
that we could trade that without severely impacting our 
readiness over the long term and try to pick it up in future 
years.
    Mr. Wilson. Thank you.
    And, General Berger, I previously represented Marine Corps 
Air Station Beaufort. And one of the great achievements was for 
that community that just really loves the Marine Corps Air 
Station, they love the sound of freedom, all right, when it 
flies over. They do not complain. And so that is why they help 
recruit and support F-35s to be located there.
    By replacing the fourth-generation planes at Beaufort with 
fifth-generation aircraft, what is the current process, and 
what challenges do you foresee?
    General Berger. Well, sir, 2\1/2\ years ago we sent the 
first squadron to Iwakuni. Last year they went on ship. A year 
and a half ago, they went on ship. We are moving fast.
    In our view, comparing the Harrier against the F-35, it is 
pretty striking. And all you need to do is listen to the media 
in Indo-Pacific on the other side to find out what the impact 
of the squadron of F-35s on board an amphibious ship floating 
around out there is no difference or no--there is no 
comparison.
    In Beaufort, on the east and west coasts, moving as fast as 
we can to get out of F-18s and Harriers and into F-35s. That is 
our goal.
    Mr. Wilson. Well, we appreciate it. And they are--if ever 
there is a community that will welcome it, it is Beaufort, 
South Carolina, and the State of South Carolina.
    And, Admiral Gilday, I am grateful that the Navy is 
fielding W76-2 low-yield warheads earlier this month. The 
nuclear posture review identifies a requirement to modify a 
small number of submarine-launched ballistic missile warheads 
to combat potential adversaries with low-yield nuclear weapons 
for peace through strength.
    However, the W76-2 is one of two variants of the W76 which 
just completed its service life extension program. These 
systems will require modernization in the coming years as their 
cores are increasingly older. Which steps is the Navy taking to 
ensure the seamless modernization of these systems and to 
ensure that the naval readiness is not impacting by giving--by 
the growing nuclear threat?
    Mr. Modly. Yes, sir. Thanks for the question about low-
yield nuclear weapons. We are making investments right now in 
modernizing our nuclear weapons inventory, and so that is 
included in that plan. It will take a number of years in order 
to close, but it is included.
    Mr. Wilson. Well, I particularly appreciate it, because I 
know the Savannah River nuclear laboratory is very vital and 
very, again, enthusiastic to work with you.
    Sadly, in 2017, I visited the Fitzgerald in Japan, which so 
many American sailors were tragically, and to me just 
shockingly, killed. What lessons have we learned? What steps 
have we taken to avoid any further accidents such as the 
Fitzgerald and the McCain?
    Admiral Gilday. Yes, sir. I know you are aware of the 
comprehensive review we have done and the phases we have gone 
through in order to institutionalize what we learned from both 
of those collisions. I will actually be traveling to 
Pascagoula, Mississippi, tomorrow, and I will be aboard the 
Fitzgerald and we are going to talk about many of those issues.
    Mr. Wilson. And I hope every effort is made for an early 
warning advance system for the best for our sailors. And I am 
grateful to be here and yield the balance of my time.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank 
Secretary Modly, Admiral Gilday, and General Berger for being 
here today, for your testimony, and all that you do on behalf 
of our Nation.
    I want to begin by applauding your efforts with the recent 
Education for Seapower study to enhance professional military 
education and increase opportunities for our enlisted sailors 
and Marines to earn accredited technical degrees. I think it is 
absolutely essential that we continue to educate all of our 
service members wherever possible and provide them these 
opportunities.
    It was a big priority for a former chairman of this 
committee, Ike Skelton, who believed greatly in professional 
military education and something that has stuck with me during 
my time here on the committee.
    On another topic, I appreciate both the chairman and my 
colleague, Ms. Davis, for raising the concern about the cut to 
the Virginia-class submarine in this year's Presidential 
budget. I don't think this is a time that we should be cutting 
it, and it does concern me, Admiral, that that decision was 
made after the fact and not, it seems, with your input. That 
does not inspire confidence here that we are making decisions 
based on our military needs versus what someone may be doing 
with playing around with budget numbers.
    But that being said, Secretary Modly, in your recent Vector 
12, you emphasized the importance of continued increased 
undersea dominance for the long run. The most, obviously, 
survivable leg of nuclear triad, the Columbia-class submarine, 
is essential to that mission.
    My question, Secretary Modly, or Admiral Gilday, is the 
Columbia-class submarine vital for our success in great power 
competition? And would you agree that the Columbia-class 
submarine is a strategic asset that will benefit more than just 
the Navy?
    Mr. Modly. Sir, I absolutely agree that it is probably the 
most vital part of our strategic nuclear deterrent. The current 
force is aging and has to be modernized, so that is why it is 
number one on our priority in terms of as we looked at this 
budget and how we intended to roll it out.
    It is going to be even more relevant in a more complicated 
world with powers who have greater ability to project power 
both under the sea and in other areas. And so it is absolutely 
vital to our future, and that is why it is such a priority for 
us in our budget.
    Mr. Langevin. So this asset will carry 70 percent of the 
nuclear arsenal, and yet the Navy seems to be the only one 
covering the bill. Secretary Modly, or Admiral Gilday, do you 
believe that the Navy is shouldering a disproportionate share 
for this asset?
    Mr. Modly. Well, we work under the top line that we are 
given to work under, sir. And so that is how we are managing 
it. We prioritize it. I think there are a lot of discussions 
being held both in the halls here and other places about how we 
might come up with more creative ways to fund that program, 
because, frankly, it is putting a huge pressure on our 
shipbuilding budget. It is 25 percent now. It is going to 
escalate to 31 percent. And if we also have this goal of 
growing a fleet to 355, or I like to say 355-plus, we are not 
going to be able to do all of those things.
    So we are looking, we are digging hard inside our own 
budget to see where we can free up dollars for this. There may 
be some creative ways to look at unexpired or unused or 
unobligated funds to try and fund that. But we are looking at 
every possible way to do that, but we can't abandon it, so----
    Mr. Langevin. I would agree. I think you would find support 
here on the committee. We need to get creative because this is 
a national strategic asset. I don't think we should be taking 
it just out of the shipbuilding budget.
    But to this point, what steps are you and OSD [Office of 
the Secretary of Defense] taking to ensure the Columbia-class 
submarines procurement timeline remains less volatile than our 
current experience with Virginia class.
    Admiral Gilday, I am glad to hear you talk about how we are 
committed to fully funding Columbia, but what are the steps we 
are taking to make sure that procurement timeline----
    Admiral Gilday. Probably the best example I can give you, 
Congressman, is the fact that when we begin building that 
submarine later this year, 83 percent of that submarine will be 
designed. If I compare that against Ohio, 2 percent of that 
submarine was designed when we started building it. Virginia 
class, less than half of that submarine was completed design by 
the time we started building it.
    So it is vitally important, for the reasons stated 
previously, to stay in the timeline to begin its first patrol 
in 2031, that we absolutely remain focused on it. And the 
teamwork with the shipyards is absolutely critical here in 
order to stay in that timeline as well.
    Mr. Langevin. Thank you, gentlemen.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you all for 
your service and for your availability today.
    Admiral Gilday, to address a gap in the homeland defense 
due to program cancellations, Missile Defense Agency is looking 
at a regional defense system to serve as an underlayer to the 
GMD [Ground-based Midcourse Defense] system. Specifically, they 
are looking at the Aegis destroyer using the SM-3 Block IIA 
missiles. How would that impact your BMD [ballistic missile 
defense] mission?
    Admiral Gilday. Sir, it would allow us to use BMD-capable 
ships for other missions besides defending the homeland. And so 
it would give--I think it would give more flexibility to senior 
decision-makers in terms of how they would use those assets if 
that gap were covered with a land-based Aegis system, with 
essentially the same capability as the ships.
    Mr. Rogers. Well, I am glad you mentioned the land-based 
system. Has there been discussion about moving the Aegis Ashore 
from the Navy to the Army, given that there is talk about 
expanding that capability?
    Admiral Gilday. Sir, not that I am aware of.
    Mr. Rogers. Great. Over the last decade, we have seen 
significant growth in the Chinese battle fleet, and they have 
surpassed the United States now as the largest navy. We are 
seeing significant investments by both Russia and North Korea 
in their submarine technologies and capacity. How do you 
compete with that?
    Admiral Gilday. Sir, so I go back to the priorities, right? 
In terms of making sure that the fleet we have today, 70 
percent of which we are going to have in 2030, is ready and 
capable of flight, that 21 percent of our budget is focused on 
lethality and modernization, so that we have weapons that can 
actually outstick our adversaries with great speed.
    And that includes doubling our investment in hypersonics, 
and so we are working very closely with the Army and the Air 
Force as we develop not only the airframe that we should begin 
doing testing here together very soon, but also the warheads.
    Mr. Rogers. Thank you.
    General Berger, you talked in your opening statement about 
this being an inflection point, and that we can't waste time. 
We have to start acting now. But when I look at your PB21 
[Presidential budget for fiscal year 2021] numbers, I don't see 
much difference between PB20. What am I missing? If we have 
really got to do something now, why is it not reflected in 
larger numbers in the PB21?
    General Berger. This year is the pivot. This budget was 
largely built in July and August based on our annual fiscal 
cycle. So I could fit some things, I could change some things, 
but not the significant ones that we need to make.
    In 2022 and 2023, it will be significantly more. But even 
in this one--even in this one--there is investments in things 
like ground-based anti-ship missiles that you wouldn't have 
seen a couple years ago at all. But this is the direction the 
integrated force must go.
    Mr. Rogers. Great. In your written testimony, you also 
talked about an acquisition review of legacy programs. You 
talked about F-35, the Joint Light Tactical Vehicle, and the 
Amphibious Combat Vehicle, and others. And like you said, we 
may have to turn loose of some legacy programs. When do you 
think that review is going to be complete and ready for you to 
take action?
    General Berger. I think much like the integrated force 
structure assessment in terms of ships, it is not going to be 
ever over, because we have an adversary that is moving. So we 
have completed the first round of it. We know the size of the 
Marine Corps that we are going to need, we think, in 10 years 
from now, and much of the capabilities and capacities are 
driven by the size of your force.
    We will need to make adjustments to the programs of record 
based on a couple of things. First, the size of the Marine 
Corps. We don't--we are not going to waste the resources you 
give us. Second, the threat. We have to match--we have to 
maintain an overmatch all along.
    So as long as we are in great power competition, we are 
going to gauge off of a pacing threat, which means we are going 
to increase/decrease.
    Mr. Rogers. From our previous conversations, I very much 
like the aggressive approach that you are taking. I am just 
wondering when we are going to start seeing you take the knife 
out and start taking some action. Will that be in the 2022 
budget, or what?
    General Berger. This year, in this budget, we reduced the 
manpower equivalent of a couple thousand Marines. That probably 
won't be the largest one or the last. Why? I think every 
service chief would love to have a bigger force, but you need 
us to be lethal, you need us to be mobile, you need us to be 
integrated with the Navy.
    So we are going to reduce the size of the Marine Corps some 
this year, more next year. You will see the impacts to programs 
I think later this summer and into the spring of next year. 
But, again, it will be--it is not a snapshot in time where we 
freeze, or else an evolving threat, we will stare at a signpost 
and it will be moving.
    Mr. Rogers. Well, I like your leadership on this. Thank 
you.
    I yield back.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you. Secretary Modly and Admiral Gilday, 
the fiscal year 2020 NDAA included a provision that required 
the SECNAV [Secretary of the Navy] to conduct real-time sound 
monitoring at no fewer than two Navy installations, and their 
associated outlying landing fields [OLFs]. And so we have a 
very peripheral interest. They are trying to deal with some 
issues around NAS [Naval Air Station] Whidbey Island and OLF.
    But I think this is a good compromise step moving away from 
the traditional model that we have used and move to real-time 
noise monitoring. The plan, though, for additional monitoring 
is due to Congress by March 20 according to the language in the 
law. So is the Navy planning to submit that plan to Congress on 
time?
    Mr. Modly. Sir, my understanding, that they are wrapping up 
that study, and that it is on track to be delivered on time.
    Mr. Larsen. So the plan for the study is due on March 20, 
and then the implementation then would----
    Mr. Modly. That is right.
    Mr. Larsen [continuing]. Occur. So you are saying by March 
20 we will see--we will have the plan?
    Mr. Modly. I have not heard anything otherwise in terms of 
our ability. I will check into that for sure and get back to 
you, sir.
    Mr. Larsen. Earlier is better, certainly. So, then, with 
that plan, I then assume the Navy is prepared to begin 
implementing the real-time monitoring soon after.
    Mr. Modly. Sir, I will get back to you on that one, sir. I 
was just reading about that this morning, that they were 
preparing this plan--preparing to deliver this plan, but I have 
not seen it yet. So once I know more of the details, I will get 
back to you on that, sir.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mr. Larsen. Great. Thank you very much. We will be in 
touch. Appreciate that.
    And then, second, for the Secretary or Admiral--you can 
choose, really--the EPA [Environmental Protection Agency] 
signed interim guidance in December providing recommendations 
to address groundwater contaminated with PFAS [per- and 
polyfluoroalkyl substances] and PFOS [perfluorooctane 
sulfonate], and we have had this debate here. And, of course, 
again we have an issue on Whidbey Island.
    And I will note the Navy's commitment to Whidbey Island has 
been great in helping the city of Coupeville deal with their 
well situation, but we still have groundwater issues there. Is 
the Navy following the EPA guidance, continuing to follow the 
EPA guidance?
    Admiral Gilday. Sir, so we finished our investigations. And 
in areas like Coupeville, where we found contamination, we have 
taken steps, for example, to provide suitable drinking water 
from other sources. We have money in the budget this year--
about $60 million--to address cleanup. And so we are moving 
through cleanup in 2020 and 2021.
    So, in both 2020 and 2021, we have money towards cleanup. 
In the last report that I saw, we were on track to conduct that 
cleanup on time.
    Mr. Larsen. Excellent. We will follow up with you on that, 
too. There may be some--I think every community is unique, and 
we have some unique issues there at NAS Whidbey Island and 
Coupeville as well, so we will follow up with you on that. 
Appreciate that.
    Third question I have has to do with the readiness 
question, especially as it applies to the F-18s; specifically, 
the Gs, the Growlers, at NAS Whidbey Island, and it is a 
Growler question. But what is the--given the percentages you 
have outlined with the Es and Fs, do you know the readiness 
level of the Gs?
    Admiral Gilday. Yes, sir. It is over 60 percent right now. 
We have learned a lot from what we have done with the Super 
Hornets, right, the Es and the Fs. And so we were at 50--we 
could not break 55 percent mission-capable aircraft for a 
decade. And so we took a deep look at our processes, and we are 
applying those same to our ships maintenance.
    So we have now been sustaining above 80 percent for 4 or 5 
months. So we are applying those same processes to every type, 
model, series aircraft in the inventory. So I expect that the 
Growler numbers will come up. They are headed in the right 
direction.
    Mr. Larsen. Excellent. So if--I apologize, this is kind of 
a leading question, because if we can get to 80 percent-plus on 
the Gs, does that change the number of Growlers that the Navy 
will need?
    Admiral Gilday. No, sir. It won't change the requirement. 
We just have a more ready fleet.
    Mr. Larsen. Okay. I think that is it. I yield back. Thank 
you.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you, all, for your service, for your contribution, 
and, Admiral, for your wife as well and what she contributes.
    I would like to ask you about conventional prompt-strike, 
presumably with a hypersonic glide vehicle. What is the need 
for such a submarine-launched capability? Admiral or Acting 
Secretary?
    Mr. Modly. Well, one of the great challenges we have right 
now is that our adversaries have developed long-range 
hypersonic missiles that hold our forces at bay, make us have 
to operate farther and farther away from the first and second 
island chains. And so we have to develop some type of 
capability to be able to meet that.
    And so that is why we are developing this conventional 
prompt-strike weapon, and we are working with the Army and the 
Air Force on this collaboratively. We are looking at all kinds 
of different options for how we might base that, some of which 
I can't discuss in an open forum, but would be happy to come in 
in a closed forum and talk to you about that.
    Mr. Lamborn. And we are talking about a conventional 
capability, not strategic or nuclear but conventional. Would 
that affect strategic stability? Would it make the environment 
more unstable with our near peers?
    Mr. Modly. Well, sir, I think the goal of everything that 
we are doing is to try and increase strategic stability, to 
maintain strong enough deterrent force to keep our adversaries 
guessing and uncertain about their capabilities.
    So everything that we do is with that objective in mind. We 
have--there is nothing that we do to try to create a more 
unstable security environment.
    Mr. Lamborn. And does having such a submarine-based 
capability put our submarines under an unacceptable risk of 
detection, and so forth?
    Mr. Modly. I will yield over to Admiral Gilday on that in 
terms of the actual operational elements of the attack 
submarine force.
    Admiral Gilday. Sir, I think any time you fire a weapon you 
face that kind of risk in terms of--particularly if you are 
firing from a concealed position like a submarine. But it is 
not just what you are firing; it is how you are going to 
actually maneuver to conduct the fight, right?
    So it is how we are going to fight, our concepts of 
operations, and so that will be taken into account, and each 
situation where we would employ those weapons will be a little 
bit different. So it will be based on the fighting environment 
as well.
    Mr. Lamborn. So are you confident that even if there is a 
risk it would be an acceptable risk?
    Admiral Gilday. Sir, we would maneuver to make that risk 
accessible. I want to create--we want to create a dilemma for 
the Chinese fleet commanders, so that they don't know what 
vectors they have to protect themselves from.
    Mr. Lamborn. Okay. Thank you. And how would not having this 
capability affect your ability to operate in a contested 
environment with a near-peer competitor?
    Admiral Gilday. So I think the ability to have a long-range 
weapon at speed like hypersonics, it allows you to get in 
closer sooner. So it allows you to create a dilemma for the 
enemy where you actually outstick them with mass volumes of 
fire to put yourself in a position of advantage early.
    Mr. Lamborn. Okay. Thank you. I appreciate those answers.
    Changing gears, I would like to ask you about the four 
public shipyards. And I know that the current budget includes 
funding to continue the virtual mapping of the public shipyards 
and some military construction funding for dry docks. When do 
you expect that the Navy will complete this mapping and begin 
increasing annual investments in the shipyard infrastructure 
optimization plan, SIOP, in line with about $1 billion annually 
that it is going to need?
    Mr. Modly. Just at a high level, sir, this is about a 20-
year program that we have that we absolutely must do with these 
public shipyards to modernize them, not just modernize the 
facilities but modernize the way in which work flows through 
them more efficiently and more effectively.
    So we are starting already on this process of investing in 
this long-term plan. I don't know if the CNO has any more to 
say about that.
    Admiral Gilday. Yes. So the mapping should take a couple of 
years in terms of doing the virtual mapping of all of the 
shipyards, and really taking a look at processes and how they 
can become more efficient. But at the same time, we are 
investing in infrastructure like dry docks. We just began work 
less than a month ago down in Norfolk on a dry dock that is 101 
years old. We just did a ribbon-cutting up at Portsmouth, New 
Hampshire, on a deep basin up there.
    And so at the same time, sir, we are taking a look at where 
we want to make deliberate investments. We know some things now 
that we have to fix. We have to replace cranes, we have to 
rebuild dry docks, as examples.
    Mr. Lamborn. Okay. Thank you so much.
    I yield back. Thank you.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses for being here today.
    I have had a chance to meet with you all over the last few 
months or so, and, again, just really impressive, serious 
people, and appreciate your testimony here today.
    Just real quick, on the 30-year shipbuilding plan issue and 
the integrated force structure assessment, you know, the reason 
why that is in statute on the 30-year, it is just that 
shipbuilding takes a long time. You know, I mean, a sub is 
about 65 months for Virginia class. Columbia will be longer. 
Carriers, I think it is year 12 for the Ford carrier.
    So we need to have that longer sort of perspective because 
these investment decisions, again, just have--they have just 
years-long impact in terms of how Congress operates.
    The integrated force structure assessment--again, we look 
forward to seeing it. But, I mean, without trying to quibble 
here, these are two separate endeavors. I mean, the 30-year 
shipbuilding plan is a budget requirement in law. And the 
integrated force structure assessment, just like the last one 
in 2016, I mean, that was a separate process, a good process.
    And the reason isn't necessarily to find out what is the 
top line, what is the--how many do we need. It is also about 
the fleet architecture. What is the composition of the fleet? 
Because when we talk about lethality, it matters, you know, in 
terms of being able to see, you know, where we are going over 
just a 1-year budget period.
    So, for example, in this year's submission, you have got 
two salvage ships. We need them. They are important. But let's 
face it, you know, the OPLANs [operations plans] for our near-
peer competitors--China and Russia--you know, attack submarines 
are really the tip of the sphere in terms of, you know, what we 
need out there.
    And cutting, you know, that Virginia-class sub, I mean, 
again, I just think is at odds with the National Defense 
Strategy when you sort of drill down in terms of what real 
lethality is.
    So last year, Admiral Richardson, Admiral Gilday's 
predecessor, when he was testifying about boosting attack sub 
production to above the program of record of two a year, stated 
that with respect to our greatest gap between the warfighting 
requirement and current inventory, there is no greater need 
than the attack submarine fleet. It is a wide gap, and it is 
getting wider.
    So every single submarine counts against closing that gap. 
Again, at that point, we were talking about going above the 
program of record. Now we are in a situation where we are below 
the program of record of two a year.
    Again, I want to just salute the fact that in your unfunded 
priorities you put at the top of the list restoring that 
submarine. Again, Admiral Gilday, we were up in Groton on 
Monday, and a couple of months ago up in Quonset. You got a 
real first-hand look in terms of the workforce, the design 
completion, which you mentioned for both the VPM [Virginia 
Payload Module] and Columbia.
    What is the Navy's position about execution in terms of 
adhering to the two-a-year program? In terms of just, is that a 
factor in the decision, or was it resources?
    Admiral Gilday. Sir, it was definitely affordability in 
terms of that submarine being cut. If I could make a point 
about the force structure assessment. And so that work is done, 
and I think the reason you would benefit from having that 
inform the 30-year shipbuilding plan is because if we didn't 
use it to inform this plan, you would go back to the 2016 
assessment.
    And as you said yesterday, that 30-year shipbuilding plan 
is the headlights that we provide, so that you know where we 
need to go. So I think if we can have those discussions with 
the Secretary of Defense, and once he is comfortable with that, 
I think that that is all packaged and ready to come up to the 
Hill.
    Mr. Modly. And, Mr. Courtney, if you don't mind me 
commenting on this as well.
    Mr. Courtney. I have one more question.
    Mr. Modly. Yes. Just quickly about 30-year shipbuilding 
plan. We agree with you. We understand the congressional 
requirements, a requirement for the Secretary of Defense to 
deliver. He wants a little bit more time to understand it, and 
we are going to help him with that. And it is not going to be a 
long delay. It will--as you think about 2021 budget, you will 
have plenty of information and enough time to be able to do 
that. You have my commitment on that.
    Mr. Courtney. Okay. The chairman's plan is to get this to 
the floor, as you know, on a very aggressive schedule this 
year.
    Mr. Modly. Yes, sir.
    Mr. Courtney. Which I support. Regarding Columbia, we 
talked, again, up in Groton about the fact that the NSBDF 
[National Sea-Based Deterrence Fund], which at least created 
authorities for incremental funding and multiyear, is a way of 
reducing costs. And just if there is--maybe you could just 
comment in terms of whether the Navy is coming to us with more 
requests in that regard.
    Admiral Gilday. Yes, sir. So to your previous question, you 
asked about, you know, numbers per year. Yes, in terms of two a 
year, to close the gap of where we need to be, that is how we 
need to build. And if you ask me, you know, if I could give you 
another ship today, what would it be, it would be a Virginia-
class submarine.
    And your question was about the----
    Mr. Courtney. Incremental authorities?
    Admiral Gilday. Yeah. It----
    Mr. Courtney. And maybe you want to take that for the 
record because I don't want to----
    Admiral Gilday. It is not the fund. It is the funding. That 
is--the issue is the funding that needs to go in that bin. I 
personally don't care what bin it is in as long as we can use 
it to build more submarines, but that is the issue is fencing 
that money off. The authorities are terrific and help us 
tremendously.
    Mr. Courtney. Thank you.
    [The information referred to can be found in the Appendix 
on page 107.]
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
the witnesses for joining us.
    Secretary Modly, I want to begin with you. You have heard 
my colleagues talk at length about the underinvestment the Navy 
is making in shipbuilding. When you put that in contrast to our 
adversaries and the increased investments that they are making, 
the pace that they are building their navies, it is pretty 
concerning; 355 ships is the law.
    And we look today, as the Navy's budget--only about 10 
percent of the Navy's budget is devoted towards building ships. 
And if you look at the current path that you are on, we are 
only going to have a net increase of eight ships in the next 5 
years.
    You talked about getting to 355 by 2030. That is an 
impossible task based on the current pace.
    You heard my colleague, Mr. Courtney, talk about the 
incredible importance of our attack submarines. We are going to 
be down to 42 submarines, attack submarines, by 2028.
    All of those things lead me to this question. What is the 
Navy going to do in looking at reallocating resources to the 
shipbuilding account over the period in the near future through 
the 5-year defense plan, better known as the FYDP [Future Years 
Defense Program]. Give me your perspective on how we do that, 
because you talked about 2030 being the focus on getting to 
355. Tell me what you are going to do immediately to get us on 
that path.
    Mr. Modly. Well, sir, thanks very much for that question. 
As you know, I have been a pretty vocal supporter of the 355-
ship Navy since I have been back in the Department of the Navy, 
and I would just take issue with your point about it being 
impossible.
    I don't think it is impossible. I think there are two 
things that have to happen for it to be possible. One is a 
reasonable plan that demonstrates how we can get there on an 
accelerated path, and political will. That is it. If those two 
things come together, then I think we can do it.
    My job is to develop that plan in a reasonable way, and 
also demonstrate that the answer isn't, ``Oh, we need more top 
line to do this.'' Because I know that in our $207 billion a 
year budget there is a lot of money in there that we could 
probably use a lot more efficiently.
    So I chartered about 2 weeks ago something called a stem-
to-stern review, and we are looking internally to see what we 
can stop doing that doesn't make sense for this future force. 
And that is what we are doing. So we are going to go through 
this process.
    I gave them--I was very aggressive on the timeline. I said 
45 days we need some answers on this. What we need to get on 
this path from preliminary analysis that we have done is about 
$5-$8 billion more a year. Relative to the overall DOD 
[Department of Defense] budget, it is a very, very small 
amount. But I am not in the business of making trades on the 
overall DOD budget. I am just in the business of trying to 
present a plan, advocate for the Navy, for the reasons that are 
important for the Nation, and sell that plan as something that 
is reasonable and that can be done, and then the political will 
has to align around it and then we can go do it.
    Mr. Wittman. Got you. Well, listen, thank you so much for 
being focused on getting us to 355. Thanks for saying it is not 
impossible. I put that out there just to get your thoughts on 
what the path may be going forward. I am glad to hear from you 
that it is possible and that we are going to get on the path to 
do that.
    Admiral Gilday, I want to go to some of the comments that 
you have made. You talked about not just the ship component of 
the Navy, but the manning component of the Navy, and we see 
some of the things that have happened because of manning 
issues, the risk that the Navy has taken on; in many instances, 
unacceptable risk.
    You know, you talked about the shortfall of sailors being 
at about 6,000. It now looks like some of the new projections 
are closer to maybe 9,000 sailors. Can you give me your 
perspective on what the Navy can do to reverse this alarming 
trend? And what are we going to do to make sure as ships go to 
sea we have both proper manning and training to make sure that 
our sailors have exactly what they need to do the difficult job 
we ask of them?
    Admiral Gilday. So, sir, thanks. So the answer is retaining 
them, right? Retaining that talent. And so that begins with 
their families, and all of those programs that we have, 
including child care, including housing, and the focus--and the 
budget reflects it--that we are putting on that.
    Right now, our retention numbers over the past year are at 
75 percent. So we have exceeded at every paygrade our 
expectations in terms of the numbers we retain. A lot of that 
has to do with the good work that the Navy has done over the 
past few years to digitize many of the applications that we use 
for sailors.
    So to give you an example, we have a detailing marketplace 
now where, on an app, they can compete for jobs, and they can 
do this a year out, so that their family has the understanding 
of where they are going to move next. It allows the family to 
actually, through these apps, take care of child care and 
housing reservations months out before they even report to the 
duty station.
    They seem like small things, but we are taking, you know, 
systems that are maybe 75 different websites and we are 
collapsing it down to a single entry point through a 
microprocessing app like on your phone. That just makes a world 
of difference for people.
    So it is really--sir, a long answer to your question, it is 
really putting a focus on people and families.
    Mr. Wittman. Thank you.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    I think we need to really deal with the fundamental thing 
that is going on here. It is a sea change. The 355-ship Navy is 
yesterday's plan. If I am at all perceptive of what is going on 
here, it is that the Navy is rethinking the way it will 
operate, and the equipment, ships, and other things that they 
need to operate, and that that is underway. The Marine Corps, 
you are very clear that you are in the process of doing that.
    I sense myself that this is happening, and, therefore, a 
frustration about let's share about what you are thinking. This 
may not be the forum in which that takes place, but underlying 
all of the questions that have come thus far and my own is, 
wait a minute, everything that we have been building and 
planning for, and suddenly, wait a minute, a sea change is 
occurring, and you are rethinking this. Good.
    To the extent that you can, share with us soon the general 
outline of that rethinking. Commandant Berger, you said that 
you are not able, given today's budget, to make that shift 
today. I understand that. Nevertheless, we need to change our 
thinking, and we need to put in place in this NDAA and the 
appropriations the elements that allow you to continue that 
process.
    Right now, we are very much in the dark. We really don't 
have that. And, therefore, we are kind of--not kind of. We are 
clearly--I am frustrated. I think my colleagues are also. The 
information we are hearing doesn't line up, or the information 
we are giving doesn't line up to what you are saying, or at 
least indicating.
    So having said that in 2\1/2\ minutes, let me get to one of 
my favorite subjects, which I think all of you are aware of, 
and it is sealift capacity, my new flag that I keep waving in 
front of you folks. Whatever that future holds, the current 
sealift capacity, which is inadequate for at least the next 
decade, we need to think about how to bring into reality a 
sealift capacity for whatever you plan out there. Big power 
competition, the Pacific is a long, big ocean, and we simply 
are not capable of sustaining the fight. I mean, it is very 
clear.
    I want to work with you on developing a national fleet. The 
bow wave of the Columbia and rockets and nuclear, and other 
things, is going to make it very, very difficult to provide the 
logistical sealift support from the Navy budget. You were just 
talking about that.
    Is there another way to do it? I think there is. I think if 
we are to rebuild our merchant marine capacity in a way that 
builds that capacity in a militarily useful, Navy useful 
manner, for both the transport of weapons, material, men, 
equipment, as well as fuel, I think we can do it without 
significant impact on the Navy budget. And the Navy budget, 
insofar as non-combat ships, would be for the specialty ships 
that are not now available but would absolutely be necessary.
    So the Navy does that, and then the merchant marines over 
here. We have available to us programs that have not been used 
for a couple of decades.
    So I want to just put that on the table, pursue that with 
you, and, obviously, we don't have 38 seconds to answer all the 
questions here. But be aware, we are going to have this with 
MARAD [United States Maritime Administration], Admiral Buzby, 
and the like. And so I will let it go at that.
    I yield back.
    The Chairman. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you very much, Mr. Chairman. Thank you 
for your support, and thank you as well for your support as 
well, Mrs. Gilday.
    You have mentioned several times about the improvements 
with the F-18s and their readiness levels, and we, too, 
celebrate that. This has been a focus of this committee for 
several years, to get that up, and so we celebrate the 80 
percent readiness milestone.
    I really think that we continue to build on that with this 
year's budget that you put forth, an additional 24 new mission-
capable aircraft. And as you know, the new aircraft have the 
most immediate and profound impact on the tactical aviation 
inventory and fleet readiness, which is why I am concerned that 
the budget request proposes to eliminate 36 Super Hornets for 
future year defense budget.
    So would you please speak to how this will impact the 
tactical aviation inventory, since that is three squadrons' 
worth of aircraft that the Navy is no longer investing in?
    And it is my understanding the Navy has an existing strike 
fighter shortfall of approximately 48 aircraft. So could you 
please speak to the impact and the potential operational risk 
that this will bring to our readiness?
    Admiral Gilday. Ma'am, thanks for the question. The cuts 
this year were due to affordability. And so we made what we 
thought were balanced risk discussions based on what we could 
afford given the current top line.
    The mission-capable jets, the path that we are on right now 
to get the most we can out of the fleet that we have, including 
modernizing our existing Super Hornets to Block IIIs, puts us 
on a good path. As you know, the numbers of our F-18 Super 
Hornets are above 650. The fleet that we really need when we 
have our fourth- or fifth-gen mix is around 785. And so we are 
trying to maintain that path through the FYDP and beyond.
    Mrs. Hartzler. Will you be able to maintain the 80 percent 
target for mission-capable aircraft by cutting these aircraft 
out?
    Admiral Gilday. We think we will. So that--so the fact that 
we have reduced the buy doesn't necessarily affect our ability 
to reach 80 percent mission capability.
    Mrs. Hartzler. Okay.
    Admiral Gilday. Mission-capable aircraft, excuse me.
    Mrs. Hartzler. I am still concerned about this decision and 
the cost that it could bring to the aircraft, because you have 
current production lines that help bring the parts and the 
service to the modernization effort. And if you cut out that 
new line, then that could jeopardize the ability to get your 
parts and for the modernization.
    So could you please elaborate on whether the Navy has 
assessed what additional cost will be incurred should the Super 
Hornet production line be shuttered? And can you provide this 
cost analysis to the committee?
    Admiral Gilday. Ma'am, if we could, I would like to get 
back to you with some more detailed information on that, so 
that we can lay it all out for you in a way that makes sense 
and gets to the details that you are asking for.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mrs. Hartzler. And you said that the cuts were due to the 
lower top line. Are you saying that if we were to add 
additional funds you would support reinstating those new 
aircraft and pushing that out?
    Admiral Gilday. I think it would go into the prioritization 
mix as we took a look at what we really need, you know, based 
on the timeframe that we are given.
    Mrs. Hartzler. Okay. Very good. Switching gears, talking 
about munitions, certainly we have a lot of challenges with 
that. Our stockpiles of high-demand preferred or precision-
guided munitions have been significantly reduced, as we all 
know, over the last 15 years.
    So in order to meet the objectives of the National Defense 
Strategy to support globally and integrated defense planning 
for contingencies, we need to procure sufficient inventories of 
munitions by a healthy industrial base.
    So what is your assessment of risk in the Navy's precision-
guided and preferred munitions request? And what specific 
actions are you taking to manage stability, capability, and 
capacity risk in the U.S. munitions industrial base, to include 
reducing critical supply chain dependency sourced from outside 
the United States?
    Admiral Gilday. Ma'am, in terms of--in terms of our budget 
this year--and I talked about a focus on both readiness and 
lethality, and 21 percent of our budget is dedicated to that. 
So a large portion of that is dedicated not only to modernizing 
our ships and aircraft, but filling our magazines with weapons. 
So that is not only our ships, but also our air wings.
    And to get to your last point in the supply chain, ma'am, I 
would have to get back to you on that with more details.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mrs. Hartzler. All right. Thank you very much.
    I yield back.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Admiral Gilday, I understand the P-8A Poseidon maritime 
patrol aircrafts are the best submarine-hunting aircraft in the 
world. Would you agree with that assessment?
    Admiral Gilday. Yes.
    Mr. Gallego. Thank you. Can you just--can you please 
describe to us and me, in an unclassified way, how we use our 
Poseidon aircraft specifically with respect to Russia and 
China?
    Admiral Gilday. So it is the most effective platform that 
we have for not only wide area search but also localization, 
and so that we can actually find, fix, and if we are in a 
position to, finish a Russian submarine. And so the 
capabilities of those P-8s, I think the best testimony is the 
fact that all of our allies and partners are lining up to buy 
the P-8. Tremendous capability.
    Mr. Gallego. Sir, knowing that, were you surprised to see 
the Department--see in one of the cuts a P-8 cut from last 
year's budget to help afford this border wall?
    Admiral Gilday. Yes, sir. Before my time. I can't speak to 
the decisions that were made in the last budget.
    Mr. Gallego. Okay. I think, Secretary Modly, the recent 
reprogramming notice says that the items above last year's 
budget request were what was stolen from, but the Navy says 
that we need 138 P-8As, and we only have funding for 120. How 
is this--how is the reprogramming anything other than arbitrary 
and capricious if the Navy is disagreeing with the Department's 
rationale for completing this theft of its budget?
    Mr. Modly. Well, sir, those decisions are made by the 
Secretary of Defense. We support them as he makes them, but he 
has lots of tradeoffs that he has to make for other competing 
priorities. We would, obviously, love to have more P-8s, 
clearly. It is an incredible weapons platform. We want a lot of 
our allies to have them, too, so we are looking for ways to 
work with our allies to get them involved in the program, so 
that Boeing can continue to produce them out in Washington.
    Mr. Gallego. Were any of you consulted before being 
informed that your budget was being cut by Secretary Esper and 
others in the administration? Did they talk to you? Did they 
ask your preferences, if this was, you know, necessary or not 
necessary?
    Mr. Modly. Well, sir, we go through a continual process on 
budget negotiations and deliberations. So we are consulted all 
along the way. Ultimately, we don't have a veto.
    Mr. Gallego. Well, no, no. And I understand that. 
Definitely understand you guys don't have a veto. But more 
along the lines of, did Secretary Esper or other aspects of the 
administration at least talk to you all before they went and 
did this cut? Because it is--this is not just unfunded money 
like it was last year. This is actual equipment, very necessary 
equipment.
    Mr. Modly. We knew that they were looking at a variety of 
different options, and then at the end those options were 
presented to us.
    Mr. Gallego. Right. Admiral Gilday, again, I understand 
that you didn't have a veto over any of this.
    Admiral Gilday. Sir, I was not consulted before that final 
decision was made and the $3.8 million under the provision 284.
    Mr. Gallego. Okay. So the same thing, General Berger?
    General Berger. That is correct, sir.
    Mr. Gallego. Okay. Moving on, our national posture in Asia 
is mostly naval and highly concentrated in very small and 
specific parts of Japan and Korea. This committee recently 
heard testimony from former East Asia DASD [Deputy Assistant 
Secretary of Defense] Abraham Denmark that the relatively small 
number of large bases that we have in Asia should be 
diversified to a new approach that prioritizes new airfields, 
new prepositioning, and new posture.
    What is your take on the survivability of our naval assets 
in Asia and the supply lines across the Pacific should the 
balloon go up? We will start with you, Admiral Gilday.
    Admiral Gilday. So I think based on the fact that where we 
are located, we have concerns, which is why we are making 
investments in better weapons systems. And it is not just--it 
is not just on the kinetic side; it is the investments that the 
Department is making in space and in cyberspace to put us in a 
much better position against those types of threats.
    Mr. Gallego. And just because I had a little--wanted to get 
one more question in. How does this budget take the necessary 
steps to increase the survivability of our INDOPACOM [U.S. 
Indo-Pacific Command] assets against Chinese threats or 
aggression? Mr. Modly.
    Mr. Modly. Well, as I mentioned before, everything that we 
did was to increase the readiness and lethality of our forces 
that are--particularly the ones that are deployed.
    And so that is really what our primary concern is right 
now. So as we look to the future, we are looking at some of 
these other bigger issues in terms of, how do we distribute our 
force, how do we do more distributed maritime operations, what 
types of ships will we need to do that, to support that, et 
cetera.
    And those are the types of changes and things that you will 
see that will be different in this force structure assessment 
than the one that was done 4 years ago.
    Mr. Gallego. Great. I yield back my time. Thank you.
    The Chairman. Thank you.
    Mr. Kelly. Mr. Kelly? Hello? Mr. Kelly?
    Mr. Kelly. Thank you. Sorry. Thanks, Mr. Mitchell.
    I first want to talk about--I want to be real clear. I 
support our border, and particularly our southern border and 
building the wall. However, during the recent reprogram, $650 
million was diverted from an LHA [landing helicopter assault] 
America class of amphibious ship, which is built by Huntington 
Ingalls, a massive shipbuilder in Mississippi.
    The impact that will be felt will be loss of jobs, and it 
will hurt the industrial shipbuilding base. I think 
consistency, long-term maintained plans, are key to maintaining 
our industrial base. And they, much like an aircraft carrier, 
can't turn on a dime. And so when we destroy that industrial 
base, we don't just get it back when we decide we want to build 
a different ship.
    So what is the plan to get this ship back on track? Either 
Mr. Secretary or Admiral Gilday.
    Mr. Modly. Sir, I can speak to a high level on that. We did 
end up--funding was moved from this year for that. However, it 
did not change the delivery time for that ship. We actually 
pulled that ship forward and plan on starting that in fiscal 
year 2023. In previous plans, it was either 2024 or 2025, so it 
has actually--over the course of the last couple of years, we 
have actually accelerated the delivery of that ship.
    And we understand and we are very sympathetic to the impact 
it might have on employment down there in Mississippi. That is 
a critical shipyard for us. They do fantastic work, and we want 
to make sure that we maintain a healthy shipbuilding capacity 
down there. But this is just a decision that was made here at 
the end game.
    Mr. Kelly. I understand. But what we do is lose long-term 
effects for short-term gains, and you can't buy that back. We 
see that when we make cuts in personnel to the Marine Corps or 
the Navy or the Army. When we make those cuts, and then the 
next year we go, ``Well, that number was a little too low, so 
we will just build it back,'' you can't replace that E-6 with a 
trainee. That is 12 years of experience to get there that we 
can't replace.
    It is the same way with the industrial base. If they are 
geared up and tooled up to build a ship, and we change the 
plans, they can't just next year when we change them back get 
back to the same spot because they have lost that. Those guys 
are working somewhere else. Those guys and girls are doing a 
different job somewhere else, and we can't rebuild it. We just 
have to be real careful about doing that.
    And I am a firm believer in all of our services owe us--
every year we ask you, what are your personnel numbers? What 
are your requirements? And when you give those to us, and then 
we change them the next year, it makes it very difficult for us 
to plan and our industrial base to plan, and we have got to 
adhere to that, because I am kind of a Patton guy. An 80 
percent plan violently executed is better than a 100 percent 
plan 2 days after it mattered. And so I just ask that we keep 
that in mind when we are dealing with the industrial base.
    General Berger, in your planning guidance, you talk about 
the need for a smaller, more maneuverable Marine Corps that 
gets back to its expeditionary roots. I suggest we may need 
different platforms or amphibious ships to do this. Can you 
tell me what you envision in this, General Berger?
    General Berger. Sir, for the last two decades, we did what 
the Nation needed us to do in the Middle East. But that is not 
what you need us to do in the future. You need us as part of an 
integrated naval force, because our view, that is an asymmetric 
advantage that we have, by a wide margin. We need to sustain 
that margin.
    So, in simple terms, we need--instead of a land force that 
could sometimes, if we really tried, and it would be really 
painful--get aboard ship, we need to be a naval force that you 
can send where you need to, the commander can send where they 
need to, can go ashore when they choose to, back aboard ship, 
very dispersed, very distributed. In other words, pose an 
adversary a real challenge, that it makes his day really hard. 
That is what we have got to do.
    Mr. Kelly. Thank you, and I agree. And I think that 98-
year-old Marine would agree also. He is not here anymore, 
Commandant, but I think he would definitely agree.
    And, Secretary Modly, I want to talk a little bit. I just 
visited a DDG [guided-missile destroyer] when I was in Rota and 
visited our great sailors out there. And we had a discussion 
yesterday. But I just want you to talk about your Optimized 
Fleet Response Plan [OFRP] and how personnel figures into that.
    Mr. Modly. Well, one of the things that we are trying to 
do, particularly in this budget, is adjust some of the problems 
we had in previous years with respect to the manning that we 
had on our ships. And I think that the CNO mentioned this 
earlier in terms of what he experienced back when he was on a 
DDG and what that had declined to over the years.
    And we started seeing the results of that in these horrible 
accidents that we had in the Pacific a couple of years ago. So 
we are trying to adjust that to make that better.
    With respect to specifically about OFRP, we are doing a 
deep dive look on that. The Secretary of Defense actually hired 
an outside company, FFRDC [federally funded research and 
development center], to help us look at that and look at better 
options for that. I would----
    The Chairman. I apologize. The gentleman's time has 
expired.
    Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you. Thank you to all of 
you for being here today.
    Secretary Modly, in your opening statement, you indicated 
that you are committed to stamping out sexual harassment in the 
Navy. And yet last February you promoted a man named Ronnie 
Booth to head the Navy's audit agency, even though there had 
been multiple whistleblowers and complainants that had come 
forward documenting his workplace sexual harassment retaliation 
dating back to 2007.
    Alarmingly, many people reported him wanting to offer to 
mentor female subordinates, suggested they meet outside of 
work, arranged travel with them. This man is the person you 
chose to lead a major naval agency. I wrote your office asking 
about these concerns, and then-Secretary Spencer responded by 
saying there was no documented, substantiated evidence of Mr. 
Booth's behavior, yet, following my letter, Mr. Booth was 
reassigned to work as a special assistant and retired shortly 
thereafter.
    Would you please indicate to us how that squares?
    Mr. Modly. Yes, ma'am. I appreciate the question, and I 
remember your letter very clearly. Let me say that that 
situation was part of a broader cultural and climate problem 
that I had at the Naval Audit Service. I had to take action to 
remove somebody and move somebody into a position of authority 
in that organization. I did it very methodically and very 
carefully.
    If I may, I was not aware--when we made that decision, we 
went back and followed all of the rules in terms of what can 
restrict you from putting somebody in a position of that place. 
There was no documented evidence, no IG [inspector general] 
investigations, nothing, about----
    Ms. Speier. There were complaints that had been filed. How 
can you say there was no documented evidence?
    Mr. Modly. There was no documented evidence in his 
individual record that prohibited me from doing that. When I 
found out about this, thanks to your letter and to some emails 
that came to me, we immediately started an internal 
investigation, the DOD started an internal broader 
investigation, and we were told to shut down our investigation 
on that. Okay?
    Ms. Speier. Who told you to shut it down?
    Mr. Modly. The DOD IG, because once they start an 
investigation, we can't have a parallel investigation.
    Ms. Speier. I see. Because they were now investigating.
    Mr. Modly. That is correct.
    Ms. Speier. I guess the real question is, why did it take a 
letter from me that then triggered an inspector general 
evaluation----
    Mr. Modly. Because there was no--there was no evidence 
before I found that----
    Ms. Speier. Well, I find it hard to believe if there are 
complaints that are filed that that is not considered evidence.
    Let me ask you another question.
    Mr. Modly. Ma'am, may I say something?
    Ms. Speier. In your budget proposal----
    Mr. Modly. May I say something else about this?
    Ms. Speier. Well, maybe for the record.
    Mr. Modly. If the suggestion is that I would ever----
    Ms. Speier. For the record.
    Mr. Modly [continuing]. That I would ever----
    Ms. Speier. For the record.
    [The information referred to can be found in the Appendix 
on page 107.]
    The Chairman. Mr. Modly, she controls the time. I am 
sympathetic, but she has the right to ask the questions she 
wants to ask. So let her ask.
    Ms. Speier. In the budget proposal, the Navy has cut the 
SAPRO [Sexual Assault Prevention and Response Office] budget. 
How can you cut that budget when we have an epidemic on our 
hands?
    Mr. Modly. Ma'am, I don't know the specifics in terms of 
how much we cut that budget. But I have been extremely 
committed to fighting sexual assault and harassment in the 
service.
    Ms. Speier. Then why do you cut the budget?
    Mr. Modly. I don't know the----
    Ms. Speier. The numbers are up.
    Mr. Modly. The numbers are up. We take it very seriously. 
The Navy, the Department of the Navy, actually initiated 
actions with other universities around the country to get after 
this problem, to share information and to share data.
    And I will just say, if the suggestion is that I would ever 
put a person in a position of authority knowing full well, with 
documented evidence, that that person was a sexual harasser, 
that would never happen.
    Ms. Speier. Well----
    Mr. Modly. I would never do that, and the suggestion I 
think is----
    Ms. Speier. All right. This is my time. I would like to ask 
another question.
    The LCS [littoral combat ship] turned out to be a debacle. 
Part of the problem was the cost estimates were way 
undervalued. They were first supposed to be $220 million 
apiece. They ended up costing two and a half times that much. 
The GAO [Government Accountability Office] said you should do 
independent cost estimates. As of August of 2019, there has 
never been an independent estimate of the frigate.
    CBO [Congressional Budget Office] thinks that the actual 
costs will probably exceed your estimates by about $300 million 
per ship. Seems like we need the benefit of an independent 
estimate. Are you intending to do that?
    Mr. Modly. We intend to do--the LCS program predates me by 
many, many years. We intend to do independent cost estimates on 
every new platform that we are doing.
    Ms. Speier. So the frigate will be subject to an 
independent cost estimate.
    Mr. Modly. Yes.
    Ms. Speier. All right. I will yield back.
    The Chairman. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I wanted to go off in a 
different direction. We had the NATO [North Atlantic Treaty 
Organization] Parliamentary meeting this last week, and there 
were kind of some things that were said there that were kind of 
scary to me, because some of the concerns in this committee 
were our ability, the number of ships to--if the balloon went 
up in Europe, our air refueling capability, which was a very 
contentious hearing here. Boeing did not have a good day, and I 
won't go into that.
    But the point that was made at this meeting here--and I am 
a big NATO supporter and everything like that--but it broke out 
that the EU [European Union] was invited to speak. And they 
were talking, quite frankly, about taking over some of the 
aspects, the way I understood it, of the strategic forces under 
their cognizance.
    Now, we have had problems with the EU going from some of 
the different exercises. And the RAND study that a few years 
ago we--you know, the Javelin missile and some of the other 
systems, were based on some of these things.
    Now, if this is true, and it might be partly a reaction to 
Brexit, but there were a lot of countries that were alarmed at 
the fact that now the EU is going to make it very, very 
difficult if there--many of these countries, which are NATO 
members but also EU members, are not totally committed to NATO. 
Do you have any reactions, Mr. Secretary, at all? Or have you 
heard any of the repercussions of that conference?
    Mr. Modly. I have not been briefed on any of the 
repercussions of that conference, and on these discussions, so 
I don't have a comment right now. I can find out more 
information on it and get back to you, sir.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Cook. Yeah. And the reason I raise this issue here, 
because we are talking about some of these funding issues. In 
the past, you know, it was the situation in Korea, and it 
changes from day to day where the threat is. And, by the way, I 
want to thank you for coming here. We learn a lot I think. We 
make changes.
    I remember when General Scaparrotti talked about the Air 
Force wanted to get rid of the U-2s. This was in Korea, and he 
said, ``No. The U-2s have more reliability.'' Next thing you 
know they are back in the budget. So some of the things that 
you say here have tremendous repercussions, at least in my 
decision-making, and I think everyone here.
    All I am saying is that some of these other questions, in 
terms of preparing, prepositioning equipment, and everything 
else, if this NATO situation is going to be revisited in terms 
of perhaps conflicts with the EU, I think it might affect some 
of the things--our budget decisions in this committee.
    Admiral or General, do you have any comments on that? I 
think you are familiar with those.
    Admiral Gilday. Sir, I would just say I take your point. 
There are two different political bodies that make different 
decisions that are not always synchronized, and there is a 
potential risk--I think your point is--to NATO.
    I just am not familiar with the context of last week's 
discussions in Brussels.
    Mr. Cook. Yeah. It was UNCLASS [unclassified], and you can 
probably see everything.
    General Berger, I never thought I would be happy about the 
day that, you know, we are not getting new weapons systems or 
anything else. But right now in the President's budget we have 
the sewer plant for Twentynine Palms. This combat Marine, that 
is his greatest accomplishment was to get the sewer plant for 
Twentynine Palms.
    But it really, really is a big deal because of the 
environmental concerns in California. And something like that 
can--I think it is one of the greatest training bases in the 
world. And it is an admin thing, so I am going to try and bring 
that all the way to fruition.
    So thank you very much for being here, and I yield back.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Thank you for your 
testimony here today. You know, I am really proud of the 
efforts in the Department of Defense, our uniformed services, 
in integrating our force and leading this Nation by example, 
started in the 1940s, executive orders that removed racial 
barriers to service, and work that has happened over the years 
in terms--for inclusion of women in now every aspect of the 
military.
    It is hard to believe that it took an act of Congress just 
last year to finally get the Marine Corps to include women in 
basic training platoons. But, you know, sometimes it has come 
easy and sometimes it has been a little bit more of a 
challenge, but I think we can all take pride in the progress 
that we have made.
    Mr. Secretary, I really, really want to thank you for the 
historic decision that you made in naming an aircraft carrier 
after an enlisted soldier, recognizing the important 
contributions that enlisted men and women make to the force, 
and to naming that aircraft carrier after Cook First Class 
Doris Miller. So thank you very much for that.
    Having said what I just said, we have got a problem. We 
have got a problem in both the civilian staffing and in uniform 
staffing in both the Navy and the Marines, and particularly in 
what I call the elite sectors, such as your fighter squadrons.
    Looking at your civilian staffing, you stated in your 
statement on page 17 regarding recruiting, curating, and 
retaining the best talent, that you are leveraging leading 
private sector business practices. But in your human capital 
strategy for 2019 to 2030, there is only one mention of 
diversity in that strategy. Mr. Secretary, what are you doing 
to ensure that you are diversifying the civilian workforce at 
the Department of Navy?
    Mr. Modly. Mr. Brown, first of all, thank you for the 
compliment on the Doris Miller. I really appreciate that, and I 
agree with you in terms of the historical significance of it. 
And I will tell you that as great a day as it was for the 
family of Doris Miller, it was an even greater day for the 
Navy. So just a wonderful moment for us as a country.
    We have challenges with this, sir, and we have talked about 
this in your office before about the challenges that we have, 
particularly on the uniform side. As people progress through 
the service, we don't have a lot of diversity in senior ranks.
    We have pretty good diversity in the civilian ranks. It is 
interesting that you note that. I did not note that when I read 
through the human capital strategy. I will have to look through 
that again.
    But the whole concept of our human capital strategy is to 
try to attract people from a variety of different areas, new 
types of people, new thinking, more diverse thinking, give them 
ways to come in and serve in the government, perhaps go back 
out. So I will look in specific----
    Mr. Brown. Yeah. So let me just suggest, then, if in--as in 
your statement you suggest that you are taking leading private 
sector business practices, I think in this regard the private 
sector is well out in front of your strategy. So I would ask 
you to go back and look.
    Let's turn to the uniform service. Both the Marine Corps 
and the Navy, you have a serious problem in your fighter units, 
your fighter pilots. You have in the Navy 710 Navy fighter 
pilots; 17 or less than 3 percent are African American, and not 
a single woman.
    You have 735 Marine Corps fighter pilots. Less than 1 
percent or 5 are African American; one woman.
    You have got claims of equal opportunity violations, 
inspector general reports. You have flag officers who are 
making inappropriate public comments undermining the integrity 
of the EEO [Equal Employment Opportunity] process and the 
inspector general process, and I have sent a letter to the 
Secretary to that regard.
    You have pilots--an African American pilot who has left the 
service, another whose record is still tarnished and will 
inhibit his promotion, a whistleblower who is still on the edge 
awaiting an outcome of a report, and the concern is that the 
initial EEO complaints substantiated that there were racial 
discrimination against these pilots.
    And then for some unexplained reason it was reversed, and 
now you have three people sitting on pins and needles wondering 
the fate of their future, because you have these outstanding 
complaints. So you take the numbers alone, the lack of 
diversity and conclusion by race and gender, you have got these 
terrible cases in front of you, and you have a pilot shortage 
to boot, you have got a lot of work to do.
    So I will take it for the record what your response will be 
because I did submit a letter to you back in January, and I am 
waiting for the response.
    Thank you, Mr. Chairman. I yield back.
    [The information referred to can be found in the Appendix 
on page 109.]
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Secretary Modly, so in the last 24 hours, we have learned 
that you have delivered the integrated naval force structure 
assessment to the Secretary of Defense. He wants some time to 
evaluate that, potentially compare it against some alternative 
assessments that are out there, whether they are in CAPE [Cost 
Assessment and Program Evaluation], or he alluded to outside 
assessments, and that is why we don't have a 30-year 
shipbuilding plan because it would be informed by the 
integrated naval force structure assessment.
    But over the last 4 years, we have done a lot of outside 
studies. A lot of us have committed to not only rhetorically 
but put it into law that we need a 355-ship fleet. We believe 
that to be a floor, not a ceiling. So could you help us put 
into perspective what the total ownership costs of a 355-ship 
Navy would be in constant dollars over the current fleet of 
about 293 ships?
    Mr. Modly. So as we have looked at this in terms of, as we 
used the integrated naval force structure assessment as our 
benchmark, as sort of our North Star in terms of where we think 
we should go as the Department of the Navy, and understand that 
the Secretary of Defense has not signed off on that or has not 
bought into it yet, in order to get there on an accelerated 
path, which would approximate getting to that ideal force 
structure in 10 years, it is probably--if you assume a flatline 
budget for us, it is probably going to take between 120- and 
$130 billion more total over that 10 years.
    Those are the initial cuts we are looking at, the initial 
numbers that we are looking at. So that is basically what it 
comes down to.
    Mr. Gallagher. So per year, would it be fair to say that 
would be well north of $8 billion?
    Mr. Modly. Yeah. We are looking--and that is the reason why 
I put this benchmark out for our teams to look at, how do we 
get $8 billion out of the top line that we have right now? So 
at least we can start moving down that path.
    Mr. Gallagher. Thank you.
    Admiral Gilday, I couldn't help but notice that the budget 
for the new frigate now reflects one ship per year over the 
first 3 years of production. Can you assure me that the Navy 
remains fully committed to executing this program to achieve 
the 20 ships briefed to this committee previously?
    Admiral Gilday. Yes, sir. We are committed to that number. 
I think that one frigate in the first year is prudent. We need 
to get this right. There have been comments made about LCS and 
other programs. And so we are focused on making sure that that 
first ship puts us in a very good direction for the remainder 
of the class.
    Mr. Gallagher. Secretary Modly, should the Columbia be a 
Navy bill?
    Mr. Modly. Well, Rep. Gallagher, it is a Navy bill, and so 
we are assuming that it is a Navy bill. Obviously, it has 
strategic implications for the whole country, for the whole 
force, but right now it is a Navy bill.
    Mr. Gallagher. Commandant Berger, in your planning 
guidance, you write about the importance of ground-based, long-
range precision fires with no less than 350 nautical mile 
ranges, and you call for potentially even more than that.
    Can you talk a bit about how central these long-range 
precision fires are to your planning guidance and executing the 
overall strategy and what any restrictions on the ranges of 
missiles your Marines could employ would impact your ability to 
execute your vision?
    General Berger. The distributed maritime operations concept 
that we fit within means we do two things in support of the 
fleet commander: sea control and sea denial. The fires that you 
are speaking of, that capability allows us to do that, either 
embarked or ashore.
    What is the value? The value to the fleet commander is he 
is not just hauling around Marines as passengers anymore. They 
are part of his--part of his fighting capability. We need the 
ability to reach out and hold at risk an adversary's naval 
fleet from wherever we are, embarked or ashore.
    Range limitations, you definitely want longer rather than 
shorter if you are going to outstick an opponent. Though any 
restrictions on ranges of weapons systems from our perspective, 
from a warfighting perspective, we are going to push back on 
that. Then it becomes just a function of technology and weight, 
you know, size. We have to be mobile. We have to be 
expeditionary.
    Mr. Gallagher. Let me just follow on your planning--well, 
this is just a comment. Your planning guidance has sparked a 
lot of very useful discussion in forums like War on the Rocks 
among company-grade officers, field-grade officers. I just--I 
know you are bought into this, but I just would continue--
please continue to encourage that. Make sure that those Marines 
who are challenging long-held assumptions aren't being punished 
when it comes time for them to be up for promotion, because I 
think there is a really healthy discussion going on in the Navy 
and the Marine Corps right now among all levels of officers and 
enlisted, and I am really pleased to see that.
    Finally, just to end where we started, you know, we have, 
really, at times a contentious debate about waiting for the 
shipbuilding plan. And, you know, there is a lot of frustration 
here. You know, in 2017, we had three outside studies about the 
force structure and where we needed to go with the fleet. The 
next year the NDS [National Defense Strategy] came out. Two 
months later, in March 2018, the Navy came to this committee 
and testified that a new FSA [force structure assessment] was 
on its way.
    Then, in September, the Navy said, ``Wait. It is not coming 
until 2019.'' N9 said we would have it by now last year, so, 
please, just as soon as you can tell us your vision for the 
future of the Navy and the Marine Corps, in geopolitical terms, 
I think you will find a very receptive audience here, because 
it is hard for us to give you money until we know that vision.
    General Berger. Duly noted.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. And I want to start 
by echoing my colleague and fellow Marine Mike Gallagher's 
comments about how important it is to encourage this 
discussion. And I would say not only should we make sure that 
these Marines aren't punished for being willing to question the 
assumptions, they are exactly the people that we should be 
promoting, and promoting quickly.
    What you are doing is setting an important tone for the 
entire Department of Defense, Commandant. And we need the other 
services to do it, too. We need to do it more. I am the co-
chairman with Representative Jim Banks, a Navy veteran, of the 
Future of Defense Task Force. We are trying to do that here on 
the Armed Services Committee, to really question our 
assumptions, because we are losing the game to Russia and China 
right now. That is the harsh reality. They are outpacing us, 
and that is why they are closing the gap.
    So we have got to keep doing this, and it is incredibly 
important. Of course, one of the challenges is literally 
staring at you on this committee, because about half the 
questions this morning, if my tally is correct, were 
essentially parochial questions about district priorities, not 
strategic questions about what we need for our Navy or Marine 
Corps.
    In other words, are my airplanes going to be okay at my 
local base or my missile capability, is that going to be 
developed? How do you propose that we get around that challenge 
to your changes, and that we support your courageous 
willingness to slay sacred cows in order to make room for new 
and innovative weapons systems?
    General Berger. I think we owe you a couple of things, sir. 
First of all, our assumptions about where the threat is, where 
the adversary will be in the future, which could change because 
it is--there is a series of assumptions that go into that.
    Second is a clear picture at the UNCLASS--more valuable, 
the classified level of how we expect we will fight the joint 
force. Then a subset of that is how we will fight the naval 
force. Armed with that, you should be able to ask us, okay, now 
armed with that, the threat picture is this. I understand now 
how you think you are going to fight. Tell me how these 
capabilities that you are asking for, that are on your shopping 
list, how do they fit into that mix?
    Mr. Moulton. So let me ask you, Commandant, about one 
specific capability, the CH-53. As you are aware, the Marine 
Corps has a proud tradition of generating overwhelming combat 
power with less manpower and less cost. But right now, the per 
aircraft cost is set to exceed $120 million, which is $20 
million more than a fifth-generation fighter, and many more 
orders--and many orders of magnitude, rather, more expensive 
than proven alternatives such as the CH-47F.
    That is a very expensive toilet, for a joke that only the 
Marines will get. What is going on here, and what do we need to 
do to fix it?
    General Berger. The lift requirement to move Marines and 
equipment and the naval force around remains valid. As 
distributed as we are going to be, we are going to need the 
ability to move that force and the sustainment around. So the 
requirement is valid, and it is 200 aircraft.
    The cost--to your point, the cost is the big factor. APUC 
[average procurement unit cost] right now, $107 million. Total 
flyaway cost, we are still a margin away from where it is an 
affordable aircraft, even to buy off the shelf, much less 
sustain over the long term. So we have a valid warfighting 
requirement. We have an affordability challenge.
    Now it is up to us negotiating with Sikorsky and Lockheed 
Martin to try to drive the costs down to where it is affordable 
by the Department, affordable by the Marine Corps.
    Mr. Moulton. Okay. Well, we will certainly support that.
    Mr. Secretary, I want to come back to a question that 
Representative Lamborn asked about whether hypersonics increase 
or decrease strategic stability. And you replied that we always 
want to increase strategic stability, which I heartily agree 
with, but it is sort of like acknowledging that the ocean has 
water in it, which you don't need to be the Secretary of the 
Navy to know.
    Explain to me how having a weapon--and, understand, I am 
supportive of innovative future-focused capabilities. But how 
is having a weapon, especially one that is submarine-launched, 
that you know is launched but you don't know where it is going 
and you don't know if it has a conventional or nuclear weapon 
on it--so, in other words, you have to make a decision on how 
to respond to it, and a timeline similar to with an ICBM 
[intercontinental ballistic missile], except it is more 
compressed, so you don't know where it is going. How does that 
increase strategic stability?
    The Chairman. You need to explain that in 20 seconds, so 
go.
    Mr. Modly. Well, I am sorry you didn't like my previous 
answer. But I think what it does is it does create some--it 
creates more unpredictability, that is true. It does--and that 
is really what we are trying to do. We are trying to create a 
more unpredictable nature of our forces, so that our----
    Mr. Moulton. My time is up. But if we could take this for 
the record, I think that would be valuable, because I agree it 
increases unpredictability. My concern is that it also 
increases strategic instability, and we need to understand that 
more fully before we commit the kinds of funds we are talking 
about.
    Thank you, Mr. Chairman. I yield back.
    [The information referred to can be found in the Appendix 
on page 108.]
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And I will take note of 
my colleague's admonition about parochial questions, and so I 
will ask my parochial question in as strategic a way as I 
possibly can. We are incredibly proud of the cyber warriors 
that we train up at Corry Station that go to serve the Navy. 
And so I was just wanting to give you the opportunity to 
reflect on the nature of the cyber mission and how it fits into 
the strategic paradigm that we are working on building.
    Admiral Gilday. Yeah. So, sir, thanks for the question, and 
thanks for the comments about those cyber warriors down in 
Corry. We think they are the best in the world, or among the 
best in the world.
    So we are not going to fight in one domain, and so we are 
leveraging those cyber warriors in terms of our concept of how 
we are going to fight in the future. We are about to do our 
largest exercise in a generation this summer. And as part of 
that exercise, we are going to include a cyber electronic 
warfare and space cell inside of our fleet commander's 
headquarters, and we are going to assign tactical offensive 
cyber teams to the fight. We haven't done that before.
    And so just two examples of how we are going to try to 
better integrate those capabilities into what we want to do in 
the future.
    Mr. Gaetz. I also wanted to commend the Navy. We have got a 
lot of naval aviation going on in my community, and the TH-57 
is a platform that needs to be retired. Every other day we are 
having one of those helicopters come back on a truck because 
they are having to land them out in a peanut field or soybean 
field somewhere as a result of an alert.
    Folks should not have to train on analog and then go to 
digital. But the Navy has been very innovative in embracing 
off-the-shelf options, and I think that particularly at Whiting 
Field we are going to see a replacement for the TH-57 that will 
be at lower cost and with greater utility for our naval 
aviators.
    My colleague, Mr. Gallagher, had some follow-up questions, 
so I will yield to him the remainder of my time.
    Mr. Gallagher. Thank you, Mr. Gaetz. Very generous.
    Just a quick follow-up for Secretary Modly. So you said 
that it is going to cost about 120- to $130 billion more over 
the next 10 years to get to 355 ships. Was that correct? Is 
that just acquisition costs, or is that the total----
    Mr. Modly. No, that is everything. That is----
    Mr. Gallagher. That is everything. That is total----
    Mr. Modly. Yes, sir.
    Mr. Gallagher [continuing]. Ownership costs. So that is----
    Mr. Modly. Above our--if you assume a current flatline 
budget, this would be the incremental cost of getting to there. 
As you know, sir, we are kind of tapping out at about 305 
ships. That sort of will be----
    Mr. Gallagher. Yeah.
    Mr. Modly. That flatline can sustain that 305 ships. If we 
want to accelerate to 355 within 10 years, based on the 
analysis that we have done, that is the incremental additional 
cost to not only acquire but also to sustain those platforms.
    Mr. Gallagher. Okay. So in order--I mean, in order to build 
a fleet that is about 20 percent bigger than the one we have 
now, it is going to be about--and this is just back of the 
envelope--7.5 percent more each year. But you are saying that 
is----
    Mr. Modly. That is right.
    Mr. Gallagher [continuing]. That is your analysis of the 
total----
    Mr. Modly. Yes, sir. That is----
    Mr. Gallagher [continuing]. Man, train, build, equip, 
maintain, modernize.
    Mr. Modly. Right. And that has a lot to do with the mix, 
because we are not filling it up with--we are not filling that 
gap with 50 aircraft carriers, right? We are looking at some 
smaller, more distributed types of ships that are less 
expensive, and that will help fill the gap over that time.
    Mr. Gallagher. Great. Thank you. And we all look forward to 
the integrated naval force structure assessment when it 
arrives.
    Mr. Gaetz. I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you very much. Gentlemen, thank you so much 
for being with us today. I want to--General Berger, I want to 
address my questions to you talking--when we are speaking about 
the needs and choices that we are going to have to make in 
terms of cost, especially looking forward in our needs for the 
next-generation aircraft and fighters, you have spoken 
repeatedly about the need for a balanced mix of manned and 
unmanned systems that includes manned--excuse me, unmanned 
aerial combat vehicles and low-cost attribal--attritable--I am 
having--aircraft that are disposable, that can be used as 
targets. Let's just--I can't get that word out today--aircraft 
technologies.
    And when you talked about the stated requirements for the 
manned F-35s, while that is well known and is a matter of 
record, we haven't heard articulated requirements for the 
unmanned systems to be paired with the more technologically 
advanced aircraft because we are clearly not going to use the 
F-35s for target practice.
    So do you--my question is, do you intend to pursue a large 
number of lethal unmanned aerial systems per your comments in 
the command's planning guidance and other statements? Or do you 
have another plan? Can you speak to that first?
    General Berger. I don't know today. We don't know today the 
number or the ratio. What we know is we have got to move faster 
than we have in the past 3 or 4 years. Some use a metaphor or 
example of like a quarterback, where the manned platform, a 
ship or a plane, is sort of the quarterback with a whole bunch 
of unmanned--and the Air Force uses the term ``unmanned 
wingmen.''
    We need to move fast. Why? We can cover a lot more ground 
if it is a mix of manned and unmanned. It is also more 
survivable. We have got to complicate the adversary's 
collection and targeting problem. We are making it too simple 
when they are all manned.
    It is not in a trying to reduce casualties mode as much as 
it is try to gain an advantage and maintain that. But our 
processes don't reward going out on the edge and replacing 
something with something you have today, but we have got to 
press the accelerator down now. We have got to move now. 
Initially, some hybrid of manned and unmanned, lightly manned, 
but in the end, it is going to be a hybrid of all of that. And 
if you are sitting on the other side at an adversary's radar 
screen, you can't tell the difference.
    Ms. Horn. Thank you. And to follow up on that, I think we 
are--in terms of strategic capabilities and costs and the 
balance, do you expect to include those needs in the next 
version of the aviation plan? When can we expect the 
requirements for that? Because, as you said, we have got to 
move fast, but what does that look like in terms of needs 
assessment?
    General Berger. You will see it in both 2022 and 2023 
budget. We are in the latter phases now of necking down what we 
are going to procure to put on board a ship, provide the ISR 
[intelligence, surveillance, and reconnaissance], and maybe 
multiple payloads off of a ship.
    The other construct is an unmanned series of vessels that 
launches an unmanned swarm of aerial vehicles. Why would we not 
try to do that? We should never put--if we are going to cross a 
beach, go somewhere, we should send a machine where we can to 
do the reconnaissance, to take a look before we ever send the 
first human.
    Ms. Horn. Cost effective and strategically increasing 
capabilities.
    I yield back the balance of my time. That is all my 
questions. Thank you.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. I want to thank our 
gentlemen here today for your leadership and taking care of the 
world's greatest sailors and Marines.
    Admiral Gilday, my first question is for you. You know, 3 
years ago, we had a serious readiness problem, and the numbers 
we were using is like 50 percent of the aircraft in the Navy 
could fly on any given day. Now, after 3 years where we 
restored roughly 60 percent of the budget from what we had from 
2010 cuts, could you just give us some feedback? How are we 
doing with the aircraft readiness? Are we--do we have a very 
noticeable improvement with the last 3 years' budgets?
    Admiral Gilday. Very noticeable improvement. So we are at 
over 80 percent right now sustained with Super Hornets in terms 
of mission-capable aircraft. And I was just down in Norfolk 
recently at the operations center where they actually bring 
together all of the maintenance officers from the wings, and 
they bring them together to get after constraints or getting 
ready aircraft back on the flight line.
    And so it includes bringing together the folks from DLA 
[Defense Logistics Agency], the folks from the Navy Supply 
System, engineers from NAVAIR [Naval Air Systems Command], and 
so we have really brought the team together, ironed out some 
process issues that we have had, and significantly increased 
readiness.
    Mr. Bacon. Is there a way that we could quantify it? That 
was the F-18s when you say 80 percent. I would like to be able 
to go back to our constituents and say 3 years ago, 50 percent 
across the board; today we are 75 percent, or whatever it may 
be, you know, broader than, say, just the F-18, because I think 
that was important. Readiness is vital.
    Admiral Gilday. Sir, if I hear you, are you talking about 
each type, model, series?
    Mr. Bacon. What was the composite number, the 50 percent or 
a cumulative number of all of the Navy aircraft?
    Admiral Gilday. So I was really talking about the focus 
initially has been Super Hornets. And so we have been at 50, 55 
percent for a decade. Now we are at 80 percent, above 80 
percent sustained. We are bringing those same processes into 
the other type, model, series aircraft to bring them back--to 
bring them over 80 percent sustained as well.
    Mr. Bacon. Okay. Thank you. I want to go to electronic 
warfare [EW], something I have been involved with for about 
three decades. And we have fallen significantly behind as a 
department, and each of our services, so I appreciate the 
Navy's focus on it. Even while I was in the service, I think 
you had your sights on it all along.
    The joint staff has appointed a two-star now to lead their 
EW program. The Air Force has a one-star. They created a panel 
for funding, so it is a separate funding process. What is the 
Navy and the Marines or the Department doing to raise the bar 
here for electronic warfare? Because, to me, it is a physical 
domain that we have to control. We can control the ground, the 
sea, the air. But if we can't talk, can't use the radars, we 
are in trouble. So I appreciate your feedback.
    General Berger. Sir, 2 years ago I think it was, General 
Miller talked with us about the need to move into the 
information environment, electronic warfare, MISO [military 
information support operations], cyber, and military deception 
faster. He traded--intentionally deliberately traded a three-
star billet from a command and created a three-star general, 
Lori Reynolds, who oversees that for us.
    Now, you wish you could go back 2 years and thank him for 
that, because right now she is incredibly far out in front of 
the rest of us, telling us where we need to go, and not just in 
one area, EW, but how do you integrate those domains and make 
it a warfighting capability.
    So on our staff, on our headquarters Marine Corps smaller 
staff, a lieutenant general, Lori.
    Mr. Bacon. Thank you.
    Admiral, or Secretary? However you want to do it.
    Mr. Modly. I will ask the CNO to talk about this as well, 
sir, but I think one of the things that we are emphasizing at 
the department level is to ensure that the Navy and Marine 
Corps are more integrated in this process going forward, as 
well as how we integrate with the overall joint force. And 
there is a lot of emphasis being placed on that at the OSD 
level as well.
    Admiral Gilday. So we stood up the Information Warfare 
Development Command down in Norfolk, and so it brings together 
cyber, electronic maneuver warfare, and space, into a single 
warfare development center. And it actually creates tactics and 
operating procedures for the fleet.
    We are testing that in a big--we are testing a lot of that 
in a big exercise this summer and throughout the deployments 
that we make.
    We have put together an IW [information warfare] commander 
on board our carrier strike groups and our amphibious readiness 
groups, so that, again, brings together space, cyber, and EW. 
We are doing it at the fleet command level based on what we 
learned there, and the Commandant is integrating with his 
expeditionary advanced basing concept, non-kinetic, into the 
fight from the shore.
    Mr. Bacon. Do you have a single bellybutton, if you will, 
in the Navy that does all things EW?
    Admiral Gilday. So we have a three-star in charge of 
programs on my staff. We have the one-star down in Norfolk that 
at the tactical level is bringing those concepts together.
    Mr. Bacon. Thank you, Mr. Chairman. I yield back.
    And thank you, gentlemen.
    The Chairman. Thank you.
    And I would like to yield for just a moment to the ranking 
member, Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. Mr. Chairman, you 
often, rightfully, acknowledge the key contributions to not 
only our committee but to the country's national security by 
the members of the staff of this committee.
    In my experience, working on 26 years, there is no staff 
member who has exhibited greater professionalism, dedication to 
the mission, tolerance and patience with members, and our 
inadequacies, than Pete Villano. He is about to leave the 
committee imminently, and so I think it is appropriate to just 
take a moment to specifically thank and acknowledge his many 
contributions to this committee and our work over the years, 
but also to hold him up as a shining example of the tremendous 
staff that enable us to do what we do.
    I yield back.
    The Chairman. Thank you. And I want to echo those remarks. 
In particular, I think it is noteworthy that Pete has--he has 
worked for both of us. And that is a key part of this 
committee, which by the way is unlike any other committee in 
Congress. We are bipartisan, and the staff is more responsible 
for keeping that in place than anyone, and Pete exemplifies 
that.
    So 26--how many is it? Twenty-four years? I forget. Twenty-
six total years of service. So we want to recognize that 
service and thank you very much.
    [Applause.]
    The Chairman. Thank you very much.
    Resuming the questioning, we will go to Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chairman. And I will also take 
my turn to ask my parochial and provincial question. My 
community is home to the Sikorsky facility that manufactures 
the VH-92, known as Marine One. And you all know that last year 
Sikorsky announced its intention to close that facility and to 
consolidate operations in other locations.
    And I, at that time, was a very vocal opponent, joining 
with other members of our Pennsylvania delegation asking 
Sikorsky to reverse that decision and to have an enduring 
commitment to the city of Coatesville, which is where that 
factory is. And, thankfully, the President also shared this 
view, and Lockheed announced very soon after, in July in 2019, 
that it would keep the plant open, and at least as long as it 
had work on the VH-92 program, it would remain so.
    So I have two questions. I think probably the admiral would 
be most likely the appropriate person to ask the first one. 
Last year, I placed into section 133 of the NDAA a requirement 
for the Navy to report to Congress on its assessment of what 
the facility's closure would mean for the program, and we 
received this response in January. And this much of it is the 
assignment, and this is the answer.
    And I was a program manager in the Air Force, and I was 
also a chemistry teacher in 11th grade, and on both counts I 
think this would merit an F in terms of effort. And I was 
wondering if you could maybe provide a little bit more insight 
onto what the implications would be, because in all likelihood 
the factory at some point will be closed and moved, and was 
hoping you might be able to provide me some more insight than 
this report does.
    Admiral Gilday. Ma'am, I don't think that I signed that 
report. I don't think that I have seen it. And so if I could 
take that for the record, or set up a meeting to come back and, 
a) get schooled in it myself, and then--so I can adequately 
answer your questions.
    [The information referred to can be found in the Appendix 
on page 110.]
    Ms. Houlahan. I would really appreciate that, because I 
really would love to have a more robust answer to a really 
important question.
    And my second question is for General Berger. I understand 
that the Marine Corps aviation plan had originally called for 
two additional CH-92A, which are the trainer aircraft. Having 
dedicated training aircraft obviously helps to relieve the 
burden on the regular fleet, and I noticed that funding for 
this was struck in this budgetary process.
    And I was wondering if there was a plan for that to 
eventually be added, why that was decided to be struck? If you 
could provide some insight into that as well.
    General Berger. The requirement remains, too, ma'am. You 
are accurate. One we have right now down at Quantico, one 
simulator. The requirement is a second one. So that part 
remains valid. We will need to find the funding for it, because 
as we field the 92, we are going to need two simulators, not 
one.
    Ms. Houlahan. And I guess I would just--I appreciate that--
elevate my concern that if this particular facility which is 
charged currently with this manufacturing is in fact at some 
point to be shuttered because of lack of demand, we really need 
to make sure we understand that demand shortly, so that we 
don't end up with a difficult problem.
    That is the bulk of my questions, and I yield back the 
balance of my time. Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. I am concerned about 
reports about the Chinese and Russian militaries investing 
heavily in their submarine fleets, with subs that can deploy 
longer and have more lethal weapons systems. They are 
increasing their activity in the North Atlantic region. And at 
the rate China is building and currently commissioning ships, 
its Navy could have 100 submarines within the next 15 years. 
The Navy has validated warfighting requirements of 138 P-8 
Poseidons, the only long-range aircraft that can detect and 
track deepwater submarines, as previously attested to by the 
Secretary and the admiral this morning.
    My question is, has the Navy performed any risk assessment 
of not reaching the warfighting requirement for P-8s?
    Admiral Gilday. Sir, I would have to get back to you on 
specifically with respect to P-8s. But I think P-8s would be 
part of a broader set of capabilities that we would use against 
that submarine buildup. But I will have to get back to you with 
more specifics.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Banks. Okay. I appreciate that. Furthermore, what does 
the shortfall of P-8 mean for the stockpile of associated 
capabilities that are necessary for anti-submarine warfare 
missions, such as sonobuoys?
    Admiral Gilday. Sir, I lost the connection there between 
sonobuoys and the----
    Mr. Banks. What does the shortfall of P-8s mean for 
sonobuoys?
    Admiral Gilday. So I am concerned about numbers of 
sonobuoys and have added that to my unfunded list. In terms of 
P-8s and the risk there, I think there is a direct risk to 
warfighting capability and capacity based on numbers. And so I 
think I can get back to you as part of that previous question 
and tie it together.
    Mr. Banks. All right. Appreciate that very much.
    You already heard from Representative Moulton a little bit 
about the Future of Defense Task Force that he and I co-chair. 
We are working closely with DOD and members of the national 
security innovation base to identify opportunities to invest in 
our future force structure.
    Mr. Secretary, in your testimony you state, quote, ``There 
is clear agreement that certain new classes of ships that 
currently do not exist today must be designed and built rapidly 
in the next 10 years.'' What role do you see unmanned undersea 
vehicle systems playing in a conflict in Russia and China?
    Mr. Modly. Sir, I think they are going to play a role, and 
I think what we need to do, the work that we need to do now--
and this is largely where there are some disagreements between 
the analysis that we have done, the analysis that CAPE has 
done, the analysis that think tanks like CSBA [Center for 
Strategic and Budgetary Assessments] has done, is how do you 
scale--what is the scale of that unmanned piece of the mission?
    And the numbers vary. From my perspective, right now in 
this point in time, I don't think that that difference in 
numbers is that significant, because we have to get after it 
now anyway, and it is going to take time to get to that size of 
force. But I think we all agree that unmanned platforms are 
going to have a role to play, whether they are undersea 
unmanned platforms, large ones, medium-sized ones, small ones. 
They are going to be part of the future force mix that we are 
going to design.
    Mr. Banks. Can you comment a little bit further on the 
readiness of U.S. citizens studying STEM [science, technology, 
engineering, mathematics] professions and how that impacts your 
ability to prepare the Navy for the future?
    Mr. Modly. I think it is a huge strategic problem for us 
that we don't have enough students, and we are not generating 
enough students out of secondary education to meet those needs. 
I haven't studied it, but I have seen some statistics on it. 
And when you look at what particularly our biggest long-term 
competitor is doing, we have significant challenges there. And 
it limits our--it limits the types of input that we have into 
our force.
    Mr. Banks. Okay. I appreciate that.
    Mr. Secretary, in reference to a subject that Congressman 
Lamborn brought up earlier, what is the Navy's plan to 
proliferate conventional prompt-strike and hypersonic weapons 
across the force in order to prevent them from being solely 
held within our submarine force?
    Mr. Modly. Sir, we have to come back and give you a 
classified briefing on that in terms of how we plan on 
deploying these. There are lots of different options that we 
are looking at, but I really can't discuss that in an open 
forum. But we would be more than happy to come and do that in a 
classified forum.
    Mr. Banks. We look forward to that. With that, I yield 
back.
    The Chairman. Thank you.
    Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    A couple of questions, Admiral Gilday. I have sat here 
throughout this whole hearing just to get to this. Earlier 
today you mentioned that Portsmouth is in New Hampshire. I just 
had to point out that the entrance to Portsmouth Naval Shipyard 
is in Kittery, Maine. And most of that shipyard--you know I 
wouldn't let you get away with that. Most of that shipyard is 
in Maine, and we are proud of it and proud to share it with New 
Hampshire.
    But more seriously, you have sat in front of the Seapower 
Subcommittee in the last year. We have had conversations about 
your excitement about the DDG Flight III and how important 
getting that platform out into the Navy is.
    I also noticed that in a fiscal year 2021 budget request 
there is $46 million for industry studies regarding the next 
large surface combatant, but that is a ways out there. You have 
testified today about how a lot of the platforms we have right 
now are going to be with us for a while. And as a result, you 
are going to be investing in upgrading the systems that you 
have.
    And with that in mind, I wanted to remind you that the 
current multiyear procurement for DDG-51s runs out in fiscal 
year 2022. And, therefore, I wanted to ask both the Secretary 
and yourself what your plans are regarding a fiscal year 2023 
multiyear procurement contract for DDG-51 Flight IIIs.
    Admiral Gilday. Right now, sir, I can't speak to a detailed 
plan for a multiyear procurement of DDG-51 Flight IIIs in 2023. 
I think that would really be dependent upon the integrated 
force structure assessment that we have done, and then 
prioritizing within that in terms of what we need to move 
forward on quickly, given the top line that we have.
    And I don't mean to be evasive. It is just I don't have a 
firm answer to that yet.
    Mr. Modly. If I may just add to that. The multiyear 
procurements give us tremendous flexibility to purchase these 
ships, these long lead time ships, and reduce the cost of them 
over time. And so we are very much in favor of using that 
authority whenever we possibly can. So----
    Mr. Golden. Well, I appreciate that and, you know, would 
love to work with you on that as we plan for the future, 
because I think you have made the point, Mr. Secretary, it 
drives down the cost of the ships. I would be surprised--
obviously, I don't know what the force assessment is going to 
look like, but I have heard an awful lot of good testimony 
about the importance of the DDG destroyer as the Cadillac of 
the Navy, the backbone of the force.
    I would be shocked to see a dramatic shift. Maybe I will be 
proven wrong. But I think that would be an interesting 
conversation.
    General Berger, I want to just ask you, in your planning 
guidance, you made this quote, ``Marines cannot be passive 
passengers en route to the amphibious objective area. As the 
long-range precision standoff weapons improve, and diffuse 
along the world's littorals, Marines must contribute to the 
fight alongside our Navy shipmates from the moment we embark.''
    I also have heard you talk about having a distributed 
force. You have talked about land-based anti-ship weapons and 
being able to reach out and touch the enemy. I also can't 
imagine you envisioning a Marine Corps infantry that is not 
able to go ashore and tangle with the best of them.
    So this is not a got-you question, but during your 
nomination you testified that you would continue the Marine 
Corps support for the Close Combat Lethality Task Force. I also 
wanted to point out that Secretary Esper basically committed 
the same, saying that the cross-functional nature of the CCLTF 
increases coordination of effort department-wide.
    For those people listening that don't know, this is an 
effort to strengthen the lethality, survivability, resiliency, 
and readiness of U.S. squad-level infantry units to ensure 
close combat overmatch against pacing threats, yet there is a 
proposal to just move this into the Army and not keep it--a 
shared joint services effort.
    I can't imagine that much has changed, but I did want to 
ask because it seems like a pretty rapid shift away from where 
we were just 6 months ago.
    General Berger. Sir, we have benefitted from the work they 
have done so far, because we were part of it. And inside this 
budget, plus a very small unfunded priority list for the Marine 
Corps, 44 percent of that unfunded stuff is individual Marine 
stuff, from the individual combat equipment for reservists to 
suppressors and night optics.
    We have been the beneficiary of that. We have to continue 
that. We cannot let that flounder again, not because we are 
going to put 10,000 Marines across a beach, we are not going to 
relive 1944 or 1945, but because the way you describe it, we 
have to first deter, but if that doesn't work, be prepared to 
distribute a force ashore or afloat, either one. And then it is 
going to always boil down to a small unit leader, and we have 
to outfit that small unit leader and his team with the very 
best we can.
    The Chairman. Thank you.
    Mr. Golden. I am out of time. Thank you. I appreciate it.
    The Chairman. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    Secretary Modly, before I get into my broader strategic and 
parochial questions, I just wanted to note that several members 
of the Florida delegation wrote you regarding the awarding of 
Purple Hearts to those wounded during the December terrorist 
attack on Pensacola NAS, and asking you to review whether any 
of those personnel merit valor awards.
    As a combat veteran, I certainly saw valor in the actions 
of many to protect their fellow sailors and civilians. So I 
understand the valor awards are still under review, but I 
wanted to thank you for awarding several Purple Hearts to the 
victims of that horrific attack.
    I just want to echo quickly my colleagues, Representative 
Gallego, Representative Banks, the concerns of the burgeoning 
qualitative and quantitative Chinese and Russian fleets. Lots 
of discussion of the Virginia; lots of discussion of the 
Columbia. Obviously, that is a key part of our deterrent.
    Moscow and Beijing I think feel the same way, so taking a 
look at the P-8s and just following up on Representative Banks, 
we have a Reserve squadron, the P-3s are so old that I guess we 
are retiring those, even without replacements. But what is the 
bottom line on where you need to go on the total numbers of P-
8s? And how and when are we going to get there? And I know that 
is a piece of the ASW [anti-submarine warfare] fight, but I 
think it is a pretty critical one.
    Admiral Gilday. Sir, we are not abandoning P-3s without a 
replacement. So P-8s are coming online and replacing those P-
3s. In the late 2020s, that inventory will be closed, fully 
closed.
    Mr. Waltz. Admiral, my understanding is that this--the 
Reserve squadron in Jacksonville, Florida, is going to 
decommission before they get P-8s, if we could--I would be 
happy to be wrong on that, if you could just follow up for the 
record.
    [The information referred to can be found in the Appendix 
on page 112.]
    Admiral Gilday. I will come back to you on that, sir. But I 
also take a look at whether or not that is being replaced in a 
different area with a different squadron.
    Mr. Waltz. Fair enough.
    Admiral Gilday. But I will get back to you with some----
    Mr. Waltz. Thank you. Thank you. And then, on the sonobuoy 
piece--and, again, you can take this for the record as well if 
you don't have the detail. As we looked at it, you request $49 
million to recapitalize the newest version, the SSQ-125A. Our 
understanding--my understanding, that is not in production yet. 
So we are confused on where, you know, basically, if you could 
come back to us and explain why we are recapping a sonobuoy 
that is not in production versus replenishing the stocks and 
continuing to replenish the stocks, which I think this 
committee has supported you in doing in the last few years, but 
that seems to us to be a disconnect for replenishing something 
that is not in production yet. If you could come back to us on 
that, I would appreciate it, Admiral.
    Admiral Gilday. Yes, sir. I will.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Waltz. And then, you know, I just have a broader 
strategic topline question that I am asking of all of the 
services. I mean, and the Secretary and Chairman. We are 
looking at a flat topline budget. We are looking at increasing 
personnel costs. I still am not clear--and I think this is the 
broader strategic question we are all asking--how are we going 
to modernize? How are we going to recap?
    And how are we going to procure when our personnel costs 
continue in the outyear and the FYDP to eat up more and more of 
a flat top line? It just--I am having trouble kind of circling 
that square. If you could--if you could speak to that, and then 
in the time remaining I have--I completely agree there is a 
quality and quantity. Are you looking at any types--of pulling 
anything out of mothball or modernizing any from the Hazard 
[Oliver Hazard Perry-class] frigates or anything along those 
lines of kind of really getting out of the box to keep up with 
the pace that the Chinese are cranking out ships?
    Mr. Modly. So I think, sir, that the best way to answer 
that first question from my perspective is we have to look 
internally at our own organization. And there are many things 
that we do, the way we operate, the way our business processes 
are set up, the business system structures that we have, that 
inhibit our organization to be as agile as it needs to be. And 
there is cost associated with that.
    There are overhead structures that are associated with that 
that we don't need to have, and we need to funnel that into 
modernization. I think ultimately we can dig very deep to find 
some of that, but at some point there is going to have to be a 
broader discussion about a higher top line for the Navy. And 
that is something that I am trying to queue up, but I can't----
    Mr. Waltz. Thank you. Just in the time--thank you for that 
candor. And the other piece--again, I am on the Future of 
Defense Task Force as well. In my remaining 10 seconds, if we 
are moving long term to more and more lightly manned and 
unmanned systems, but we have the long-term personnel costs 
that are eating up that budget, how--you know, again, if you 
could come back for the record of how--you know, where those 
intersections come, is it 5 years, 10 years, and how we 
accelerate it.
    Mr. Modly. Happy to do so.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Waltz. Thank you. And thank you, Mr. Chairman.
    The Chairman. A number of members have hit upon this point, 
but I think that is a crucial question is making the budget 
work for what we want to do, make sure we don't overextend 
ourselves, so we wind up not doing anything well.
    You know, if we have the money, we have the money. If we 
don't, we have to figure out how to make it work. And I think a 
lot of us--and you as well--are struggling to get the right 
answers on that. And that will inform a lot of what we do in 
this year's defense bill.
    Ms. Luria.
    Mrs. Luria. Secretary Modly, I wanted to start with a 
comment that you made recently, and this is a quote. You said, 
``The service needs to settle on a North Star and begin the 
research and development and construction to get the hulls in 
the water, and then it could refine its vision as needed once 
fleet leaders understand how the new and old ships work 
together to bring naval power to a distributed fight.''
    So, you know, I read this and what do you think it sounds 
like to me? It sounds like the LCS program, the DDG-1000. It 
sounds like the Ford. It sounds like the conversations we are 
having about unmanned surface vessels. So, you know, I just 
wanted to point out the fact that, you know, we have had class 
after class after class of ship procurement and construction 
that has essentially failed, and it has failed us in providing 
national defense, presence, deterrence overseas.
    And it has failed the sailors who are working on those 
ships. They are the ones who are doing the right thing, but we 
are giving them platforms that can't do the job, that are not 
fully developed, that are not mature in design before we start 
building them.
    And so in that discussion I want to discuss the LCS. So, in 
2018, Vice Admiral Brown, Commander, Naval Surface Forces, 
said, ``These ships bring unmatched capability to our surface 
Navy and provide flexibility to our fleet commanders.''
    So in your assessment, do you agree with Vice Admiral Brown 
that these have brought us unmatched flexibility? And would you 
say the LCS is a success or a failure?
    Mr. Modly. Well, ma'am, I think it is too early to say 
whether or not they are a success or a failure. I think right 
now----
    Mrs. Luria. Well, no. It is too early to tell? You want to 
decommission the first four ships in the class, and it is too 
early to tell? We are going to go through, and we are going to 
start decommissioning them when the oldest one is 12 years old. 
And I will quote--Admiral Gilday gave I think a good assessment 
of what they turned out to be at the Shipbuilding Caucus 
breakfast a couple of weeks ago, that they were just 
prototypes, because we built them and then we figured out that 
they didn't work.
    So is this like a ``we will build it and then they will 
come'' mentality that they Navy has? Is this your plan for the 
FFG, the large surface combatant? You know, what is the plan of 
the Navy to develop platforms and ships that actually do the 
mission?
    And I am going to stop there because it is a somewhat 
rhetorical question and could never be possibly answered in 5 
minutes.
    But what I am going to move on to is this entire discussion 
about 355 ships. So since I have been here, what I have been 
talking about is, how did we get to the 355 number? We got to 
it through the OFRP, and the OFRP moved us from deploying 6 out 
of every 24 months, so 25 percent of the time, to 6 out of 
every 36 months, 17 percent of the time.
    I am not that smart with math, but I am a Navy nuke, and I 
can do the math backwards. And 355, if you do the math 
backwards, at 25 percent of the time, it works out you only 
needed 282 ships to do the same thing presence-wise before you 
went down in the amount of time they are deployed.
    So, honestly, a force structure assessment and a 30-year 
shipbuilding plan that are based off of an assumption that we 
are only going to deploy approximately 17 percent of the time, 
or 6 or 7 out of 36 months, you know, it doesn't work. It gets 
us to 355.
    And, you know, I have been struggling to do your math 
because you said we could get to 355 ships by the end of this 
decade. I mean, do you have proof that our industrial base 
could even do that if we threw all of the money that the 
taxpayers had at it? Would it even be physically possible?
    Mr. Modly. I think it is possible, and I mentioned before, 
ma'am, what I think it would take.
    Mrs. Luria. So it is possible in the plan that we haven't 
seen yet. It tells us how to get to 355 in a decade.
    Mr. Modly. I will be able to tell you how we think--how I 
think we can get there. Yes, ma'am. But, you know, many of your 
points are valid, but some aren't. The LCS--the first two LCS 
ships were not designed to be operational ships. They were test 
ships.
    Mrs. Luria. Is that what was testified to Congress? When 
you came and asked us to pay a bill, and the American taxpayer 
to pay for ships, you told us you wanted to build two ships 
that weren't going to be operational, that were never going to 
deploy, and then you send sailors there and expect them to 
operate these and put all of their blood, sweat, and tears into 
operating the ships that are never going to deploy?
    Mr. Modly. The first two were purchased with R&D dollars, 
which meant they were research and development ships. So I 
think--I was not here, but that sounds to me like----
    Mrs. Luria. Okay. So then are they being counted? If they 
are R&D ships and they are just prototype test platforms, are 
you counting them in the 293 of 355 that we have right now?
    Mr. Modly. They are part of the----
    Mrs. Luria. Are they operational fleet ships?
    Mr. Modly. Yes.
    Mrs. Luria. Well, then, I don't buy that answer. If they 
are operational fleet ships, they can't deploy. We were going 
to have warfare modules for them. They were going to bring us a 
whole bunch of capability, but guess what? We didn't even 
develop those, and we are still not operational at this point. 
Is that correct?
    Mr. Modly. Some of them are. Some of them are operating 
right now. Some of them are doing operations out in the South 
China Sea right now. So they are out there, and they are doing 
things.
    Mrs. Luria. So they are out there, and they are doing 
things. So was it the agile, flexible platform that was going 
to solve all of the Navy's problems? When I see this mystery 
30-year shipbuilding plan, is it all LCSs?
    Mr. Modly. No, ma'am. And I don't think anyone ever said 
that it was going to solve all of the Navy's problems. I think 
it was a new capability that would address certain problems in 
certain areas that other more expensive ships--that it was too 
expensive to do with those other ships. That is what it was 
designed to do.
    The Chairman. The gentlelady's time has expired.
    It is an incredibly important point, and a much more 
forceful and articulate way of getting at what I was trying to 
get at in my opening statement is the 355 number kind of 
offends me because it doesn't get into this. And this is what 
matters.
    You know, you could have 355 rowboats, theoretically, and 
you would have 355 ships. So I don't even know why we put that 
number out there. I would much rather see, here are the 
capabilities that we need to have.
    And, you know, yes, I take your point about R&D ships, but 
you can't really count an R&D ship as part of the 355-ship 
fleet if you are being honest about it, if you are not just 
trying to hit an artificial number. It is about the 
capabilities.
    And also, I think what--and you gentlemen have worked very 
hard on this and made it better. It is about, okay, we have it. 
Can we use it? And that is really important, and I know you 
focused on that. You focused on the maintenance. You focused on 
those issues.
    That just seems to me like a lot more important than 
spending all of your time, you know, trying to come up with 
some chart that shows we can get to 355 ships. You know, the 
point is much more the capabilities and the deployability. Just 
my two cents' worth.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman. Am I ``Tail End 
Charlie'' here?
    The Chairman. I beg your pardon?
    Mr. Bergman. Am I the last man standing?
    The Chairman. At the moment. But you never know who is 
going to show up.
    Mr. Bergman. Okay. Well, potentially, then, the only thing 
standing between you all and what you are going to get onto 
next today, I will try to be short, sweet, and to the point, 
but it will take 5 minutes.
    So the point is, historically, we have heard the phrase 
used ``There is no one more adaptable and creative than a 
Marine in a firefight.'' Conversely, personal experience tells 
me there is no one less adaptable than that same Marine within 
a change-resistant bureaucracy.
    As I look at today's DOD and service bureaucracies, I see 
experienced, motivated, digitally savvy, young service members 
held back by analog bureaucrats who are change-resistant. That 
is just a perspective of 40 years in uniform, whether it be 
Active Duty or Reserve.
    There is good news, because we have these service members, 
these young men and women, who they are there to fight. They 
are there to defend our country's interest at all cost. It is 
up to us to do the right thing, to enable them, and not stifle 
them after they have gotten the experience, that they can be 
productive in a changing environment that is always going to be 
changing.
    So, General Berger, I know it was mentioned before I got 
here, you know, you are going to propose some--the Marine Corps 
is proposing cuts of about 2,000 personnel in the fiscal year 
2021 budget request. You have indicated what your goal is.
    I guess my question is, with the proposed cuts to manning, 
is the Marine Corps considering increased use of shared 
services, whether it be on the admin side, the fiscal side, 
where you don't need commands at all levels to have that 
completely filled-out shop; that you can actually streamline 
your outputs for, again, HR [human resources] stuff and fiscal 
stuff by utilizing the shared services.
    And can you--do you want to make a comment? Are you ready 
to--and if you are not, I mean, we can talk about it, take it 
for the record, because I would like to hear what you are 
thinking.
    General Berger. The force design efforts started with the 
warfighting end. So most of the adjustments to how we are built 
had to do with warfighting. And part of that, to your point, 
sir, was where we would best--where we ought to integrate with 
the Navy in a personnel manner.
    In other words, at the numbered fleet, do we have it right? 
Because right now, today, a numbered fleet has one Marine 
colonel. We have got to do a lot different than that going 
forward.
    So it is not for the sake of efficiencies. It is for the 
sake of warfighting. After that, where do we go inside the 
title 10 headquarters, all of the headquarters between us and a 
battalion squadron? We have to look at all of that, yes. Have 
we looked at it through the lens of where we could deliberately 
look for services elsewhere? We have not yet, no.
    Mr. Bergman. Okay. Thank you. And also, for both--and, 
again, not necessarily to be answered right now, but for both 
Admiral Gilday and General Berger, we now use the term 
``operational reserve,'' because since we can go back in the 
history since after Korea, where we didn't--we didn't populate 
the Guard and Reserve with equipment or resources necessary to 
keep them ready to the point where if we needed to use them, 
they were ready to go when we needed them.
    Well, the last 20-plus years, we have seen the value of an 
operational reserve. So having said that, when we think about 
HD/LD assets, high demand, low density, quick turn on the 
deployments, things--now we are talking Active Component 
assets--intel, cyber, IT [information technology], for 
example--we know we are not going to keep those corporals and 
sergeants because the pay is too good and the opportunities too 
great in the outside world. So we train them up; they serve 
their time honorably; they do the job well.
    So I would just encourage you to be looking at, how do you 
take those highly trained, capable assets, and keep their 
viability? It is different in an infantry battalion, but those 
kind of assets we need to keep for as long as possible.
    And there is only one place to keep them, if they leave 
Active Duty, and that is a Reserve capability appropriately led 
by people who understand what it takes to be a reservist who is 
committed to a career after their service.
    And with that, I yield back, Mr. Chairman. Thank you.
    [The information referred to can be found in the Appendix 
on page 111.]
    The Chairman. Thank you. I believe we are done, but thank 
you, gentlemen, very much. Appreciate your service, appreciate 
your testimony, and we will continue to work on this as we 
prepare the bill for this year.
    And with that, we are adjourned.
    [Whereupon, at 12:41 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                            FEBRUARY 27, 2020



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 27, 2020

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Mr. Modly. We are submitting the report to Congress on 19 March and 
will then award the contract. It will take a few weeks to mobilize, but 
anticipate a kick off and logistics coordination meeting in April/May 
with follow on data collection starting this summer.   [See page 17.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY
    Admiral Gilday. The Navy requested the authority to award an 
incrementally funded contract for SSBNs 826 and 827 (Legislative 
Proposal 017). In December 2019, the Navy and Electric Boat reached a 
signed agreement for the Columbia ``Build I'' as an option to the 
existing IPPD contract which will include construction of the first two 
hulls (SSBN 826 and SSBN 827) and associated design and support 
efforts. This will enable the Columbia program to begin construction in 
October 2020, and provide industrial base stability, production 
efficiencies, and cost savings when compared to individual 
procurements. In order to exercise the Build I option on schedule, the 
authority to award the incrementally funded contract is required by 
October 2020. Incremental full funding will allow the Navy to program 
the costs for the first two ships over a five-year period, reducing 
pressure on the Navy's shipbuilding account and risk to other 
shipbuilding programs. The program's approved acquisition strategy and 
budget requests assume incremental full funding in fiscal years 2021 
through 2023 for SSBN 826 and fiscal years 2024 and 2025 for SSBN 827. 
Beginning in FY 2026, the program's budget requests will include full 
funding in the year of authorization for SSBN 828 and follow ships. If 
disapproved, the Navy would be unable to award the option for 
construction of SSBNs 826 and 827; delaying the start of lead ship 
construction and delivery schedules, increasing construction costs due 
to schedule delays and build disruptions, and compromising the ability 
to meet U.S. Strategic Command requirements. Additionally, in the event 
of a FY21 Continuing Resolution, a anomalies will be required, 
including new start language and incremental full funding authority.   
[See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER
    Mr. Modly. In a letter dated July 26, 2019, DOD OIG advised that it 
had opened an investigation into allegations involving Mr. Booth. The 
investigation concerned, in part, allegations that were filed with DOD 
OIG on or before March 1, 2019, allegations that had been undergoing 
review. DON stopped any DON inquiries in order to prevent conflict with 
the DOD OIG investigation. DON had no role in the DOD OIG decision to 
open an investigation nor in the timing of the opening of the 
investigation.   [See page 31.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    Admiral Gilday. The F/A-18 production line shutdown comprises a 
number of elements including line tear down for the F/A-18 and EA-18G 
Airborne Electronic Attack Suite, disposition of government furnished 
equipment (GFE) and the transition of data into a single government 
repository. As programmed in the PB21request, these costs total $319.3M 
across FY22-24. Line tear down includes the inspection, identification 
and classification of inventory, followed by preservation, packing, 
marking and where required disposal. Additional funding is required for 
shutdown management, supplier close out, engineering and management 
planning and analysis as well as contractor liaison. The PB21 request 
programs $89.218M for line tear down in FY22 and $230.165 across FY22-
24 for disposition of GFE and data transition. If the production line 
remains open through domestic or foreign military sales these costs 
would be deferred.   [See page 26.]
    Admiral Gilday. We assess the risk of Navy's precision-guided and 
preferred munitions request as moderate. While we have reprioritized 
weapon/munitions investments priorities based on evolving Red Force 
threats, the Department of the Navy's overall request for weapons/
munitions procurement funding has increased over the last three-years. 
Additionally, the Navy is taking deliberate actions to identify and 
reduce industrial base vulnerabilities to assure maritime and national 
security. The Navy also continues to maintain limited organic 
manufacturing capabilities for ordnance and energetics that will assure 
surge capability and capacity for munitions and ordnance components. 
The Department's FY 2021 weapons/munitions budget request continues to 
improve our capability and capacity position to meet all Defense 
Planning Guidance requirements. Specific efforts to manage stability, 
capability, and capacity risk in the U.S. munitions industrial base 
include: procurement of new capabilities; increasing legacy weapon 
capabilities via major modification programs; increasing capacity by 
making investments to increase repair throughput and reduce turnaround 
times for weapons Maintenance, Repair, and Overhaul; and working with 
the U.S. Defense Industrial Base to address specific industrial base 
issues and concerns such as reliance on offshore suppliers.
    U.S. Defense Industrial Base Initiatives include:
    Lockheed Martin Missiles and Fire Control (LMMFC): Working with the 
U.S. Air Force and Lockheed-Martin, LMMFC is in the process of 
expanding production capacity for Air Force JASSM-ER and Navy LRASM at 
its Troy, Alabama facility.
    Boeing Company (LJDAM): Navy has developed contingency plans with 
Boeing to allow for U.S. production of Laser Joint Direct Attack 
Munition (LJDAM)/Precision Laser Guidance Set (PLGS) detectors in the 
event production operations in allied countries were degraded or 
destroyed.
    Raytheon Missile Systems (RMS): Based on policies to use domestic 
suppliers over foreign entities for critical missile components, Navy 
coordinated with RMS to ensure the program leveraged U.S. based BASF 
Inc. over a foreign manufacturer for the use of Dimeryl-Di-Isocyanate 
(DDI) as a curing agent in the propellant and bond liner in the Rocket 
Motor.
    Department of the Navy Management Initiatives include:
    Weapons/Munitions Production Forecasting: To maintain weapons/
munition production/industrial base stability, Navy program offices are 
sharing 2-5 year forecasts with industry (Congressional Service budget 
support dependent). This forecast sharing facilitates Defense 
Industrial Base production planning and enables an orderly transition 
and adjustment of personnel and resources.
    Counterfeit Parts Mitigation Programs: Use of Trusted Foundries and 
Life-of-Type buy procurements.
    Presidential Determinations (PD): PDs are being used to allow the 
use of funds to build or increase capacity and capability to produce 
chemicals used in munitions, and for rare earth magnets, many of which 
are used in weapons/munitions.
    Other: OSD(MIBP) also funded other weapons/munition production 
risks mitigation efforts benefitting the DON, such as a project to 
establish a U.S. source for chemicals previously procured from China. 
Maintain the DON's organic government owned and government operated R&D 
and limited manufacturing capabilities to aid and augment industrial 
base capability and capacity for munitions and ordnance.
    Procurement: Increases in procurement quantities to include LRASM, 
Tomahawk, and APKWS, including use of multiyear procurement authority 
to buy SM-6 Block I/IA AUR missiles. Increased investment in weapons 
sustainment and repair to increase readiness and reduce Maintenance, 
Repair, and Overhaul turnaround times.
    Risks: Despite the many proactive efforts to fill our weapons 
magazines, risks continue. These risks include: concerns over key 
weapon/munition components/materials (e.g. batteries); single-source 
and/or fragile suppliers; fragile defense markets driven many times by 
the uncertainty of U.S. government spending; gaps in U.S.-based human 
capital (i.e. STEM personnel resources); general declines in U.S. 
manufacturing capabilities and capacity; and industrial policies of 
competitor nations.   [See page 26.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MOULTON
    Mr. Modly. Strategic stability is a two-way street, so the 
capabilities of other states are an important consideration. Russia has 
a large stockpile of non-treaty accountable nuclear weapons, high-end 
conventional weapons and dual use delivery platforms, all in an effort 
to establish an asymmetric advantage. Russian doctrine also suggests a 
limited first use policy, where they may attempt to end a conflict 
through the use, or threatened use, of these systems. To address the 
question of a rapid response, the imperative to launch under attack 
arises if one fears the incoming strike will prevent a retaliatory 
response (e.g., an attack against the nuclear command, control, and 
communications system, or a massive first strike against nuclear 
forces). A single submarine-launched missile, regardless of its payload 
and warhead yield, would not present Russia with an existential threat 
and could not destroy Russia's nuclear retaliatory forces nor its 
redundant command and control networks. To maintain strategic stability 
and reassure allies that depend on our capabilities, the United States 
must challenge the adversary's perception of capability gaps they could 
exploit to achieve a strategic advantage. The current threat 
environment requires credible, flexible, and graduated deterrence 
options, and the United States is pursuing improvements to a range of 
forces to improve our deterrence posture. These improvements will 
continue to deter potential adversaries by credibly holding at risk 
that which their leaders value and therefore increase strategic 
stability. We are not creating asymmetry; both China and Russia have 
fielded hypersonic weapons. We are restoring strategic stability by 
restoring symmetry.   [See page 38.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. COOK
    Mr. Modly. The U.S. and other Allies continue to advocate for 
greater NATO-EU cooperation on defense and security matters. NATO 
Allies and EU Member States have made two major commitments on greater 
cooperation at NATO Summits in 2016 and 2018. At the 2018 Brussels 
Summit, Allies and EU member states highlighted specific areas where 
defense cooperation is critical such as military mobility and 
resilience. To implement the commitment in 2016, Allies and EU member 
states also agreed to pursue 74 specific common proposals across both 
organizations. These proposals also cover areas such as military 
mobility, as well as hybrid threats, cybersecurity, and the EU's better 
aligning its defense planning processes with those of NATO. There has 
been varied success across all these lines of effort, but more work 
needs to be done to better share the burden of our transatlantic 
security. Secretary Esper and DOD continue to advocate that EU efforts 
not duplicate those of NATO and that all activities undertaken by 
Allies, either independently or under multilateral frameworks such as 
the EU, complement those they've committed to through NATO. The 2018 
Joint Declaration between the EU and NATO also focused on better burden 
sharing. All Allies, including those 22 who are also EU Member States, 
have reiterated their commitment to the Wales Defense Investment Pledge 
to spend 2% of GDP on defense and 20% of defense spending on 
modernization by 2024. However, the EU has continued to pursue certain 
defense policies that exclude non-members such as the U.S, which 
needlessly weakens transatlantic security and defense industry and 
innovation as a whole. This is most notable in the European Defense 
Fund and in the EU's Permanent Structured Cooperation. These lines of 
effort each effectively exclude non-EU member states such as the U.S. 
from participating, which not only potentially handicaps all such 
projects by eliminating capable Allies and partner nations from 
contributing their resources or technologies, but also runs counter to 
the NATO-EU joint declarations to work better together toward the 
common end of transatlantic security. DOD and other elements of U.S. 
government continue to make this case to the EU and to Allies who are 
also EU members. When adding up all defense spending from the 30 NATO 
Allies, more than 80% of that funding comes from those who are not EU 
members such as the U.S. and UK. That reality reinforces the need for 
the EU to better cooperate with NATO, including those countries which 
are not members of the Union on Transatlantic security.   [See page 
32.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BROWN
    Mr. Modly. Navy continues to build a more inclusive culture and 
diverse workforce across the Fleet and recognizes the importance of 
inclusion and diversity across all platforms. The Commander Naval Air 
Forces (CNAF) outreach program supports multiple demographic affinity 
groups to address underrepresented groups and has partnerships with the 
Organization of Black Aerospace Professionals, and many others across 
the country to inspire our youth to FLY NAVY. CNAF initiatives, include 
implicit bias training into every major symposium and commander 
training event. We believe change starts from within and are actively 
pursuing cultural progress through the CNO's Culture of Excellence 
initiative, a Navy-wide campaign dedicated to strengthening our mission 
effectiveness by instilling toughness, trust, and connectedness in 
Sailors to achieve warfighting excellence. Our focus encompasses a much 
broader definition of diversity beyond the traditional demographic 
measures of race, gender, and ethnicity. Sailors bring their own 
experiences and personalities to the Fleet and we seek out these future 
Sailors with diverse backgrounds, critical thinking skills, and mental 
agility. By showing young men and women from across the country what 
Navy has to offer, the Navy attracts Sailors with diverse experiences, 
thoughts and perspectives. A few examples are:
    <bullet>  Faces of the Fleet: Documentary series highlighting 
Sailors' stories of their service, family, and life. Of the 15 episodes 
currently live, there are 11 that highlight diverse Sailors.
    <bullet>  Navy Promotional Days: Promote awareness/active 
recruitment efforts at Minority Serving Institutions (Historically 
Black Colleges, Hispanic-serving institutions, Tribal Colleges, Women 
Colleges) to build strategic networks within diverse and under-
represented communities.
    <bullet>  Senior Minority Assistance to Recruiting Program 
(SEMINAR): Navy uses volunteers from the officer and enlisted community 
to participate in SEMINAR--targeted towards African American, Hispanic, 
and Asian/Pacific Islander, but participation is open to other 
minorities who volunteer in pay grades E-6 through O-6.
    Additionally, we partner with influencers in African American 
communities, work with affinity groups who prioritize mentoring, 
coaching and sponsorship and publicize the accomplishments of African 
American exemplars both within and outside the Navy. This provides Navy 
direct access to high-achieving prospects and key influencers with 
multiple touchpoints year-round. Today, Navy's inclusive culture allows 
our leaders to capitalize on Sailors' diversity, leveraging different 
perspectives and ideas to achieve maximum possible performance. By 
including all Sailors' voices and ideas Navy can increase its 
lethality, readiness and ability to solve problems in innovative and 
unique ways, harnessing the exponential creative power of diversity.   
[See page 35.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HOULAHAN
    Admiral Gilday. In June 2019, Lockheed Martin announced the pending 
closure of its helicopter manufacturing plant in Coatesville, 
Pennsylvania. In July 2019, Lockheed Martin reversed their decision and 
announced that the Coatesville manufacturing plant would remain open. 
Language in the FY 2020 NDAA requested an assessment of the impact of 
this decision to the VH-92A program. Based on Lockheed Martin's 
decision to keep the Coatesville facility open, there is no effect on 
the VH-92A program.
    However, on the hypothetical that Lockheed Martin decides to close 
the Coatesville plant and move the S-92 production facility, the 
responses are as follows:
    (1) Estimated effects on the manufacturing readiness level of the 
VH-92 program due to potential changes to the program manufacturing 
base; Response: If Lockheed Martin decides to move its current S-92A 
production facility, the estimated effects would be negligible based 
upon Lockheed Martin's past history and capability of producing S-92As 
in a different location (Stratford, Ct). The current VH-92 contract 
arrangement is Firm Fixed Price (FFP) with set delivery dates.
    (2) The estimated assessment of cost risk to the program due to 
potential changes to the program manufacturing base; Response: If 
Lockheed Martin decides to move its current S-92A production facility, 
the estimated costs and assessment of cost risk to the program would be 
zero. The program has already exercised the FFP options for six Low 
Rate Initial Production (LRIP) Lot I aircraft and six LRIP Lot II 
aircraft.
    (3) Any estimated schedule impacts, including impacts on delivery 
dates for the remaining low-rate initial production lots and full rate 
production, resulting from any changes to the manufacturing base; 
Response: If Lockheed Martin decides to move its current S-92A 
production facility, the estimated schedule impacts to the program 
would be zero. The program has a FFP contract in place for all 
production aircraft that includes set delivery dates.
    (4) An assessment of the effect of changes to the manufacturing 
base on VH-92A sustainment; Response: The VH-92A sustainment strategy 
is not dependent on the Coatesville, Pennsylvania manufacturing and 
production facility, therefore, no impact.
    (5) The impact of such changes on production and sustainment 
capacity for the MH-60 and CH-53K helicopters of the Navy. Response: 
CH-53K and MH-60 helicopter programs do not utilize the Coatesville 
facility, therefore, no impact.   [See page 44.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BANKS
    Admiral Gilday. Due to higher budgetary priorities, the Navy was 
unable to fund P-8As in the President's FY 2021 budget request. The 
validated 138 P-8A aircraft warfighting requirement meets persistent 
deployed presence and surge support requirements for major combat 
operations. The existing program of record of 119 P-8A aircraft is in 
alignment with the National Defense Strategy; however, risk is accepted 
with regard to defense and deterrence capacity.   [See page 45.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. BERGMAN
    Admiral Gilday. As part of the Navy Total Force, Reserve Sailors 
provide operational capabilities, strategic depth, and increased 
lethality. Critical to maintaining a ready Reserve Component (RC), it 
is imperative to maximize the recruitment of trained capable personnel 
who decide to leave active duty, especially in highly valued critical 
skillsets. Navy established a Career Transition Office (CTO) that 
directly supports a rapid and seamless transition for Active Component 
(AC) Sailors to continued service in the RC. Navy Recruiting Command 
partnered with the CTO and launched a Prior Service Directorate that 
assists the CTO, particularly in critical and high demand skillsets. 
Prior Service Detachments assist in increasing AC to RC transitions in 
Norfolk, VA, Jacksonville, FL, San Diego, CA, Seattle, WA, Hawaii, and 
Japan and are staffed with Reserve Benefits Advisors who act as an 
extension of the CTO. These advisors educate separating AC Sailors on 
the benefits of the joining the RC, ensuring they have an opportunity 
to smoothly affiliate with the Reserves without a break in service. 
Additionally, these advisors work directly with AC Command Career 
Counselors and Sailors to expedite the affiliation and transition 
process into the RC. Finally, the Targeted Re-Entry Program (TRP) is a 
talent retention initiative that empowers commanding officers to 
identify and nominate their Sailors, both officer and enlisted who are 
separating from the Navy, for an accelerated return to active duty if 
they choose to do so. The program is designed to benefit both the Navy 
and the Sailor through continued service of sustained superior 
performers in critical designators and ratings who earned specific 
qualifications and possess valuable skill-sets needed in the Navy. 
Through the nomination process, the Sailor is considered for a Golden 
Ticket or a Silver Ticket. Golden ticket recipients are guaranteed a 
return to active duty within one year of release, as long as they 
remain fully qualified. Silver Ticket recipients are provided the 
opportunity to return to active duty within two years of release, 
subject to the needs of the Navy and as long as they remain fully 
qualified.   [See page 53.]
    General Berger. Yes, the Marine Corps' unfunded request for 36 
Naval Strike Missiles will allow the Marine Corps to build required 
capacity for the Ground-Based Anti-Ship Missile (GBASM) capability one 
year earlier than planned, moving this capability from FY23 to FY22. 
The Marine Corps' highest ground modernization priority, the GBASM 
capability, will provide anti-ship fires from land as part of an 
integrated Naval Anti-Surface Warfare campaign. This forward-deployed 
and survivable capability will enhance the lethality of our naval 
forces and will help to deny our adversaries the use of key maritime 
terrain. The Marine Corps' GBASM solution is the Navy Marine 
Expeditionary Ship Interdiction System (NMESIS), consisting of an 
unmanned Joint Light Tactical Vehicle-based mobile launch platform, 
called the Remotely Operated Ground Unit for Expeditionary Fires, and 
Naval Strike Missiles. The Naval Strike Missile is identical to the 
Navy's Over the Horizon Weapon System deployed on the Littoral Combat 
Ship and will provide the Marine Corps with a missile capable of sea-
skimming, high-g maneuverability, and the ability to engage targets 
from the side, rather than top-down. This maximizes lethality and 
missile survivability. The first test of NMESIS took place in December 
2019 and successfully fired an inert round. A second live-fire 
demonstration with a guided Naval Strike Missile is planned for June 
2020. RC in FY19 through lateral move only with (2) Marines currently 
on hand. The Marine Corps began building this MOS (1721) into the Non-
Prior Service pipeline in FY20, and the structure continues to grow in 
FY21. There are two programs available to Prior Service Recruiting and 
career planners to retain/attract Marines to the SMCR. The SMCR 
Enlisted Affiliation Bonus for corporals and sergeants permits Marines 
in the 1721 MOS eligible for a $20k in exchange for a 3 year obligation 
in the SMCR. The SMCR Retention Bonus (SRB-R) for SSgt through MSgt 
permits these Marines to be eligible for the $10K or $15K in exchange 
for a 4 year reenlistment with a 3 year obligation in the SMCR.   [See 
page 53.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Modly. The Navy adjusts our end strength based on force 
structure changes, so as ships and aircraft are added or retired each 
year, we adjust end strength accordingly. Currently, Navy plans to use 
unmanned and lightly manned systems to supplement and increase the 
total capacity and lethality of our force in addition to manned Battle 
Force ships and aircraft. Adding unmanned and lightly manned systems 
would not necessarily cause a direct decrease in end strength or 
personnel costs. Growing to a 355+ ship Navy over the next 10 years 
will require commensurate increases in end strength.   [See page 49.]
    Admiral Gilday. The Navy Reserve squadrons, VP-62 in Jacksonville, 
FL and VP-69 in Whidbey Island, WA, currently operate the P-3C, 
providing strategic depth to the Active Component Maritime Patrol 
forces, while providing P-3C Littoral Surveillance Reconnaissance 
System (LSRS) mission support through the end of FY 2022. In FY20, Navy 
requested 6 P-8As for the Active Component in the budget request and 
also prioritized 2 P-8As on the Unfunded Priorities List (UPL) to 
support recapitalization of the Reserve P-3Cs. In the FY20 Consolidated 
Appropriations Act (Public Law 116-93), Congress funded a total of 9 P-
8As and specified that the funding for the three additional P-8As be 
used to recapitalize the Navy Reserve squadrons. In February, funding 
for one of those three P-8As was reprogrammed into the Drug 
Interdiction and Counter-Drug Activities appropriation to support the 
Department of Homeland Security. The two Congressional additions will 
allow for us to start the transition from the P-3C to P-8A for VP-62 
personnel in FY 2023. To reach the full Reserve requirement for the 2 
squadrons, ten additional P-8A aircraft are needed to fully transition 
VP-62 in FY23 and begin VP-69 in FY24. Exact Reserve composition and 
Primary Assigned Aircraft will be determined based on final P-8A 
deliveries and competing Naval Aviation Force Structure requirements. 
The warfighting requirement for P-8A is 138 aircraft. Additive P-8A 
procurement will continue to compete for prioritization in the Navy 
budget and on future unfunded priorities list. Navy will release a 
report to Congress in the coming weeks, which will provide the updated 
plan for recapitalization.   [See page 48.]
    Admiral Gilday. The SSQ-125A sonobuoy IS currently in production. 
Navy awarded a five-year production contract for the procurement of 
SSQ-125A sonobuoy in July 2019. The Navy continues to use all types of 
sonobuoys in dealing with Out-of-Area deployers. PMA-264 annually 
optimizes the required inventory of sonobuoys across all types, driven 
by Fleet utilization and cost per unit to drive best value to the 
Government. The PB21 UPL requests funding to build inventory of the 
SSQ-125A and to give more flexibility to how we apply the remaining 
base budget to procure the other sonobuoy types. Additionally, the 
program office closely manages the inventory of SSQ-125 sonobuoys to 
ensure no break in capability to the Fleet until the SSQ-125A inventory 
and associated platform operational software update is in place.   [See 
page 49.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. General Berger, you recently published statements about 
how increasing gender integration is one of your top priorities for 
immediate action. You've also made public comments about longer term 
plans of potentially building a new gender integrated recruit training 
facility. Can you tell the committee more about your short-term and 
long-term plans for increasing gender integration and whether or not 
there is anything Congress can do to support these efforts?
    General Berger. Recruiting: As we consider the skills, education, 
and capabilities required of the next generation of Marines, we must be 
able to recruit and sustain a force that draws from 100% of our 
Nation's collective reservoir of talent, innovation, creativity, and 
patriotism. I take it as a personal responsibility to do everything 
within my authority to ensure that the Marine Corps does not create any 
artificial barriers to service or advancement. In FY18 and FY19, more 
than 10% of accessions were females (both officer and enlisted). In 
FY19, 12.7% of officer accessions were female, the highest number since 
beginning of the all-volunteer force, while 10.4% of enlisted 
accessions were female. As of October 2019, our Marine Corps is 8.9% 
female (active component), up from 6.7 percent in 2010. In addition to 
employing more female inclusive messaging, we are better employing data 
analytics to help understand--and eventually predict--why individuals 
decide to join the Marine Corps as well as remain a Marine. These 
efforts include improving current data collection and management; 
longitudinal accession, retention, and exit surveys; and cognitive and 
non-cognitive testing with the objective of identifying and fitting the 
right person, with the right skills, into the right jobs. While I am 
optimistic about our efforts to expand recruitment and retention of 
female Marines, there remains considerable work to be done, and I look 
forward to the continued support of Congress to help us achieve our 
goals.
    Recruit Training: The Marine Corps has taken a proactive approach 
to comply with all relevant laws regarding gender integration at entry-
level training, without compromising our proven standards-based model. 
Our current infrastructure at both San Diego and Parris Island is a 
major limiting factor to further gender integration at recruit 
training. As such, I directed the initiation of a conceptual planning 
effort to better understand the merits of a consolidated recruit 
training facility. As these long-term planning efforts mature, I will 
provide you and Congress with routine updates. In addition to those 
long-term planning efforts, I am pleased to report that the Marine 
Corps trained its first integrated company of entry-level recruits in 
2019, comprised of five male platoons and one female platoon, at Marine 
Corps Recruit Depot (MCRD) Parris Island. This year, MCRD Parris Island 
has already graduated four integrated companies, with four more 
currently in training and set to graduate by end of May 2020. Moving 
forward in the short-term, the Marine Corps is exploring the 
feasibility of making this a standard training model for integrated 
recruit training, and will provide you and the committee with our final 
conclusions and recommendations. The Marine Corps employs female drill 
instructors and officers at the company and battalion level to train 
and supervise both male and female recruits. This female leadership, at 
both MCRD Parris Island and MCRD San Diego, participates in the 
majority of training, to include physical fitness, martial arts, water 
survival, and academics. This provides recruits an important and early 
opportunity to observe Marine leaders of both genders throughout entry 
level training. Graduation requirements are exactly the same for all 
recruits. Platoons train together, conducting the same scheduled events 
on the same training day and in the same location when logistically 
supportable. This includes ``the Crucible'' as the culminating event to 
earn the title `Marine'. Additionally, in November 2017, the Marine 
Corps implemented a fully integrated fourth phase of instruction in 
recruit training at both MCRDs. This training focuses on the ``6 Fs'' 
of the Marine Corps Leadership Development Model: Fidelity, Fighter, 
Fitness, Family, Finances, and Future. The goal is to develop maturity 
and self-discipline in each recruit so that they are better prepared 
for the challenges in follow-on training and the Marine Corps. This 
added phase of integrated training provides both male and female 
instructors additional time to mentor recruits.
    Integration: The integration of female Marines into previously-
restricted jobs and units is progressing without significant issues. 
The number of female Marines in previously-restricted Military 
Occupational Specialties (MOSs) is on the rise, and women are now 
represented in all occupational fields. In 2019, there were 203 women 
serving in previously restricted MOSs. Today that number is 283, 
including our first female F-35 pilot and first female Reconnaissance 
Marine. In 2019, 507 women were in previously restricted active 
component units; that number is now 737. To further expand the 
representation of female Marines in previously restricted MOSs and 
units, we are also: (1) Exploring the feasibility of offering 
incentives to female Marines in our reserve component who may be 
interested in returning to active duty for service in a previously 
restricted MOS or unit; (2) Seeking active-duty female company grade 
officers to volunteer to attend the Infantry Officers Course, with a 
follow-on assignment to an infantry battalion upon successful 
completion; and (3) Creating additional opportunities for qualified 
female Marines to execute a `lateral move' into previously restricted 
MOSs.
    Mr. Turner. The Marine Corps has a well-documented F-35 and MV-22 
pilot shortfall. This is also a well-documented problem within the Air 
Force, which was the subject of a prior hearing and is part of the 
congressional record. The Marine Corps' current program-of-record and 
overall aviation modernization plan include the procurement of over 400 
F-35s. What is the Marine Corps doing to ensure that it will have 
enough pilots to fly all of the F-35s it is procuring?
    General Berger. I am familiar with the hearing in question, during 
which the Air Force identified challenges related to sustaining its 5th 
GEN pilot and UAS operator force, and its statements for the 
congressional record of having a pilot shortfall of approximately 2000, 
despite offering ever larger bonuses. There are lessons to be learned 
from the Air Force, and I welcome your continued oversight and 
assistance with this issue. As you noted, Marine Corps pilot shortfalls 
with the F-35 and MV-22 are well documented, and I have commented on 
these for the record. For FY19, we had a F-35 pilot shortfall of 167 
and a MV-22 pilot shortfall of 274. Based on our FY20 Aviation Bonus, 
we anticipate shortfalls of 177 F-35 pilots and 191 MV-22 pilots; 
however, the increased deficit in F-35 pilots is due to the increase in 
squadrons transitioning to F-35 thus increasing the F-35 pilot 
requirement. Based on that preliminary data, it appears that our 
remedial plans are working. Aviation bonuses totaled $5.1 million in 
FY18, $16.3 million in FY19, and are projected to total $16.5 million 
in FY20. We anticipate funds approximating FY20 totals being necessary 
in support of our pilot retention efforts for the foreseeable future. 
Based on the new bonuses, we have had 209 F-35 and MV-22 pilots take 
the bonus since FY18. To meet our future pilot inventory requirements 
we will need to increase new pilot production; increase transition of 
current pilots; and retain adequate numbers of pilots who will clearly 
see competing opportunities outside the Marine Corps.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. General Berger, the FY20 NDAA included a provision I 
authored that prohibits gender-segregated training at Marine Corps 
Recruit Depots within the next eight years. The text explicitly bans 
gender-separate training, which means the Marines would have to revise 
the current model, which involves limited co-training among single-
gender male and female platoons. Despite being asked by the press and 
in a letter from my office whether you would gender-integrate at the 
platoon level, your service has only stated that they would quote 
``comply with the law.'' General Berger, can you please remove the 
ambiguity and tell us whether you agree that the current law requires 
Marine basic training integrated at the platoon level, in ways that 
mirror the other services' training, and what your plans are to 
implement these changes?
    General Berger. The Marine Corps fully understands the language and 
intent of the current law, established in the FY20 NDAA provision, 
stating that Marine Corps Recruit Depot (MCRD) Parris Island and MCRD 
San Diego shall not be segregated within five and eight years 
respectively. We are taking a proactive approach to comply with the 
FY20 NDAA provision and all relevant laws regarding gender integration 
at entry-level training, without compromising our proven standards-
based model. Our current infrastructure at both San Diego and Parris 
Island is a major limiting factor to further gender integration at 
recruit training. As such, I directed the initiation of a conceptual 
planning effort to better understand the merits of a consolidated 
recruit training facility. As these long-term planning efforts mature, 
I will provide you and Congress with routine updates. Beyond these 
long-term planning efforts, I am pleased to report that the Marine 
Corps trained its first integrated company of entry-level recruits in 
2019, comprised of five male platoons and one female platoon, at Marine 
Corps Recruit Depot (MCRD) Parris Island. This year, MCRD Parris Island 
has already graduated four integrated companies, with four more 
currently in training and set to graduate by end of May 2020. Moving 
forward in the short-term, the Marine Corps is exploring the 
feasibility of making this a standard training model for integrated 
recruit training, and will provide you and the committee with our final 
conclusions and recommendations. The Marine Corps also employs female 
drill instructors and officers at the company and battalion level to 
train and supervise both male and female recruits. This female 
leadership, at both MCRD Parris Island and MCRD San Diego, participates 
in the majority of training, to include physical fitness, martial arts, 
water survival, and academics. This provides recruits an important and 
early opportunity to observe Marine leaders of both genders throughout 
entry level training. Graduation requirements are exactly the same for 
all recruits. Platoons train together, conducting the same scheduled 
events on the same training day and in the same location when 
logistically supportable. This includes ``the Crucible'' as the 
culminating event to earn the title `Marine'. Additionally, in November 
2017, the Marine Corps implemented a fully integrated fourth phase of 
instruction in recruit training at both MCRDs. This training focuses on 
the ``6 Fs'' of the Marine Corps Leadership Development Model: 
Fidelity, Fighter, Fitness, Family, Finances, and Future. The goal is 
to develop maturity and self-discipline in each recruit so that they 
are better prepared for the challenges in follow-on training and the 
Marine Corps. This added phase of integrated training provides both 
male and female instructors additional time to mentor recruits.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Would you support or oppose legislation that would amend 
10 USC 5062(e) to include the U.S. Coast Guard as a matter of joint 
concern to the Navy when developing aircraft, weapons, tactics, 
technique, organization, and equipment of naval combat and service 
elements?
    Mr. Modly and Admiral Gilday. The Navy would support legislation 
that would amend 10 USC 5062(d) to include the U.S. Coast Guard
    Mr. Scott. In the Navy's Stem-to-Stern Capability-Based Strategic 
Review, will you be looking for savings that could be achieved by 
greater partnership with both the U.S. Coast Guard and the Air and 
Marine Operations of the U.S. Customs and Border Protection to achieve 
economy of scale in the purchases of small boats, helicopters, and 
unmanned systems?
    Mr. Modly. The Department of the Navy's (DON) Stem-to-Stern review 
will build on the budget optimization work already done by the Navy and 
Marine Corps, integrating those efforts across the entire Department 
and taking on the more strategic task of structural change in order to 
increase naval capabilities. Nothing is off the table. The Department 
is reviewing policy, structure, and legislation to identify low 
priority, redundant, or legacy capabilities, programs, processes, or 
headquarters functions that can be realigned, eliminated, or reduced to 
meet the DON's resource needs.
    Mr. Scott. What is the timeline for building a new National Museum 
of the U.S. Navy on Tingey Street SE between the Washington Navy Yard 
and Nationals Park and when do you intend to announce it?
    Mr. Modly and Admiral Gilday. The Navy is seeking to acquire land 
on Tingey Street adjacent to the Washington Navy Yard to protect 
critical assets within security requirements. It may take three years 
or more for the Navy to acquire this property due to the land exchange, 
environmental review, zoning, and entitlement processes. The Navy's 
preferred compatible use for the land is to serve as a site for a new 
National Museum of the United States Navy, and the Naval Historical 
Foundation, the 501 C(3) that supports the National Museum of the 
United States Navy, has agreed to lead the fundraising effort. Navy 
leadership is closely monitoring the progress of these efforts and will 
make a formal announcement at the appropriate time.
    Mr. Scott. Is naval aviation's adversary training at risk of 
irrelevance from equipment obsolescence and lack of long-term 
recapitalization? What are the advantages of using third generation and 
fourth generation aircraft in an adversary role to prepare for possible 
combat against Communist China or Russia?
    Mr. Modly and Admiral Gilday. A Western fourth generation aircraft 
with highly targeted upgrades can accurately emulate Chinese and/or 
Russian fifth generation threats in most scenarios and at a lower cost. 
The Fiscal Year (FY) 2021 budget request provides naval aviation with a 
bridge solution for keeping our adversary fleet relevant while we begin 
the process of long-term recapitalization. The FY 2021 budget requests 
funding for upgrades and to extend the service life of our adversary 
fleet of F-16s, and upgrades the Swiss F-5s procured in FY 2020. 
Furthermore, in 2020, the Navy is conducting an Analysis of 
Alternatives for long-term recapitalization to help determine the right 
mix of adversary training capability and capacity to continue to 
prepare our warfighters for combat with a near-peer competitor.
    Mr. Scott. When can we expect you to issue an update of the CNO's 
Professional Reading Program?
    Admiral Gilday. Target release of CNO Professional Reading Program 
5.0 is 4 July 2020. The Naval War College (NWC) developed a matrix of 
book titles aligned with CNO's primary lines of effort and stratified 
by the experience level of the readers. This document is under review 
by key stakeholders within the Naval University System. Accounting for 
COVID-19's impact on normal operations, the projected date for CNO/
MCPON review of the final list is 15 May 2020. Assuming approval, NWC 
will work through June to prepare the website and purchase the e-books 
for delivery to the fleet on 4 July.
    Mr. Scott. The Navy's two hospital ships, Mercy and Comfort, are 
floating goodwill ambassadors with some of the best medical equipment 
in the world. Are there additional ways to partner with the private 
sector and the inter-agency to increase the availability and share the 
costs of operating both of the hospital ships?
    Admiral Gilday. While DOD cannot receive funds to share operating 
costs, it does partner with external stakeholders to leverage talent 
and accept donations of medical equipment. When hospital ships are 
tasked to provide humanitarian or Theater Security Cooperation mission 
support, DOD collaborates with partners from the interagency and 
private sector to provide solutions. To enable these efforts, USAID 
provides a full time liaison officer (LNO) to Military Sealift Command 
(MSC) and the combatant commander (CCDR) headquarters to support 
civilian military coordination. Navy Medicine also provides a military 
medical officer to USAID as an LNO to facilitate discussions that 
include hospital ships. As a result, various non-governmental 
organizations (such as PROJECT HOPE) are able to offer invaluable 
volunteer medical care support that delivers medical diplomacy from 
``pediatrics to geriatrics.'' Further, CCDRs, in coordination with MSC, 
reach out to other non-federal entities to seek volunteers and 
donations, such as wheelchairs for medical missions. DOD appropriated 
funding covers operational costs and medical supplies for combat 
missions.
    Mr. Scott. Marine environmental response is one of the Coast 
Guard's 11 statutory missions. Should the Coast Guard should take over 
all Federal On-Scene Coordinator Representative (FOSCR) requirements 
for the Navy?
    Admiral Gilday. No. Under the National Contingency Plan, the Navy 
is predesignated as the On-Scene Coordinator for response to the 
release of hazardous substances, or oil spill/releases from any 
facility or vessel, under its jurisdiction, custody, or control. In the 
event the Navy cannot appropriately manage a spill event, the Coast 
Guard can provide additional assistance and resources. This current 
construct has proved both very effective and efficient in managing 
spill response incidents for the Navy for the following reasons: The 
Navy has the resources (ships, equipment, personnel, contractors, 
etc.), to commit funds or conduct actions to ensure a timely and 
effective response capability in managing spill events on Navy property 
(both on installations and in port). The Coast Guard does not have the 
authority to directly commit Navy funds and assets. The Coast Guard 
does not have the personnel or sufficient amount of spill response 
equipment to respond to spill incidents outside U.S. jurisdictional 
waters, where the Navy has facilities and vessels. The current 
construct for spill response is a tested and proven response leadership 
structure that has been highly successful for decades. It is strongly 
recommended that it not be changed or altered.
    Mr. Scott. Are you satisfied with the training received by 
intelligence officers on U.S. naval combat capabilities? Can Navy 
intelligence officers give commanders sophisticated threat assessments 
without a strong foundational knowledge of U.S. military capabilities, 
particularly naval ones? Should a robust section on U.S. naval combat 
platforms and weapons be included in an information warfare officer's 
personnel qualification standard? Should more intelligence officers be 
rotated to independent deployments of destroyers and cruisers? Should a 
longer mid-career intelligence milestone course (weeks if not months) 
be created with rigorous testing, student ranking, and a discussion of 
U.S. Navy combat capabilities coupled with Chinese, Russian, North 
Korean, and Iranian threats?
    Admiral Gilday. Are you satisfied with the training received by 
intelligence officers on U.S. naval combat capabilities? Training is 
consistently evolving with our capabilities and technology, and is 
frequently evaluated for mission relevance and progress. We are fully 
committed to recruiting, training, educating and being optimized for 
maximum effectiveness. A Training Requirements Review (TRR) for Naval 
Intelligence Officers Basic Course is scheduled in May 2020.
    Can Navy intelligence officers give commanders sophisticated threat 
assessments without a strong foundational knowledge of U.S. military 
capabilities, particularly naval ones? Intelligence officers should 
strive to be proficient in all aspects of the threat presented and are 
consistently expanding their knowledge of Great Power Adversaries. This 
should include not only the adversaries' disposition, but also the 
expertise brought into the environment by those professionals, both 
U.S. and our Coalition counterparts, who hold the foundational 
knowledge of naval combat capabilities. This team-of-teams approach 
ensures the commander receives the most educated, timely assessment as 
possible. The combination of a naval intelligence officer, coupled with 
a career surface warfare officer is crucial to information dominance.
    Should a robust section on U.S. naval combat platforms and weapons 
be included in an information warfare officer's personnel qualification 
standard? A PQS review is scheduled for May 2020. This has been 
submitted for discussion by fleet subject matter experts.
    Should more intelligence officers be rotated to independent 
deployments of destroyers and cruisers? A Zero Based Billet review has 
been requested for all Officer and Enlisted intelligence billets across 
the Fleet. This review will identify if there are any requirements 
currently not being met and to ensure distribution of intelligence 
cadre to succeed in the GPC. The current rotation of intelligence 
officers to Destroyer Squadrons (DESRON) has proven professionally 
beneficial, increasing the knowledge and experience of the junior 
officers assigned to those units. Historically, these units have been 
assigned an enlisted Independent Duty Intelligence Specialist (IDIS).
    Should a longer mid-career intelligence milestone course (weeks if 
not months) be created with rigorous testing, student ranking, and a 
discussion of U.S. Navy combat capabilities coupled with Chinese, 
Russian, North Korean, and Iranian threats? Training Requirements 
Review (TRR) for Naval Intelligence Afloat Senior Milestone Course 
(NIASMC) is scheduled in July 2020. Training is consistently evolving 
with our capabilities and technology, and is frequently evaluated for 
mission relevance and progress. We are fully committed to recruiting, 
training, educating and being optimized for maximum effectiveness.
    Mr. Scott. Should the Navy implement more stringent damage control 
training and make available more tools and programs to reduce 
casualties and improving their damage control skills? Are a couple of 
basic firefighting schools enough experience for sailors to save a 
ship? One light-off assessment or a ten-minute drill a duty day?
    Admiral Gilday. The Navy has implemented stringent damage control 
training processes, tools, and programs to reduce casualties and 
improve their damage control skills. The Surface Ship Readiness 
Strategy, codified in the Surface Forces Training and Readiness Manual, 
follows a process that educates, trains, assesses, and certifies a 
ship's crew to conduct either integrated or independent operations. 
This approach to readiness supports standardization of training and 
ensures ships are prepared to accomplish their assigned mission by 
building proficiency through repetition of fundamentals, exercised in a 
variety of training scenarios that build in complexity. Once watch 
teams demonstrate sufficient proficiency, they proceed to the mission 
area certification event. Damage Control (DC) mission area 
certification requires the completion of not less than 11 discrete 
events, both knowledge and tasked based. Post-Basic Phase training, 
Sailors are required to conduct 14 DC training events with various 
degrees of frequency to ensure skills do not atrophy. These 
Certification Exercises (CE) and Recurring Exercises (RE) are contained 
in the Surface Force Training and Readiness Exercise Manual. Damage 
control mission certification includes an assessment of the ship's 
ability to self-train. Commanding officers are responsible and 
accountable with ensuring their units remain fully ready and may 
institute additional proficiency training including duty day drills as 
required. It is common practice for commanding officers to conduct 
damage control drills daily, whether in port with the duty section or 
underway, which may include full ship participation, i.e. General 
Quarters.
    Mr. Scott. Dr. Milan Vego defined operational art as the ``theory 
and practice of planning, preparing, and executing major naval 
operations aimed at accomplishing operational objectives.'' Are Navy 
officers introduced to operational art too late in their careers?
    Admiral Gilday. Officers are exposed to Operational Art at the 
appropriate point in their career progression, after leveraging 
cumulative experiential and training opportunities to mature 
foundational concepts. An officer's ability to embrace, understand, and 
effectively employ Operational Art is underpinned by a well formed 
understanding of their primary warfare specialty and associated 
tactical operations. This is the main focus of the early part of an 
officer's career and is the product of both experiential learning and 
the primary level of Professional Military Education (PME) as outlined 
in the Officer PME Policy (CJCSI 1800.01). Once firmly grounded in 
their Service role at the tactical level (skill, knowledge, 
experience), officers transition to the operational level of warfare 
and embrace Operational Art in increasing depth. Intermediate PME/JPME, 
which occurs at the O-4 (or senior O-3 level in rare cases), builds on 
officers' cumulative experiential and training opportunities to provide 
them the foundational understanding of Operational Art necessary to 
successfully serve on warfighting staffs and progress onto the 
strategic level of warfare.
    Mr. Scott. What steps are being undertaken to enhance the career 
path development and management, mentoring, and education of strategic 
sealift officers?
    Admiral Gilday. DOD is taking deliberate steps to review and update 
the training and development path for Strategic Sealift Officers (SSO), 
including designating a Captain (O-6) as the SSO Commodore in October 
2019 at Military Sealift Command HQ to lead this effort. For more 
effective management, the SSO community is implementing a new Command 
and Control (C2) structure that provides more-defined career 
opportunities. A robust mentoring program is in place and aligned with 
the C2 structure to ensure all members have access to a senior mentor 
for career development and guidance. Current training for SSOs includes 
a two-week Post Commission Indoctrination (PCI) course for Ensigns (O-
1) and a two-week Middle Level Officer Course (MLOC) for Lieutenants 
(O-3) is scheduled to start in June 2020. A two-week Commander's Senior 
Level Course is also planned to begin in 2021. These courses are 
designed as career milestone check-points, augmented by job-specific 
training courses, and include the necessary building blocks for SSO 
career development. Further recommendations from the SSO Commodore will 
be reviewed and implemented, where appropriate.
    Mr. Scott. Prompt pre-hospital intervention is the most important 
element in wounded combatant survival. Are you satisfied with the 
critical care received by injured/wounded sailors and Marines in far-
forward environments? Does the Navy need a Resuscitation Transportation 
Team (RTT) to bring together critical-care doctors and national 
registry paramedics?
    Admiral Gilday. My priority is to ensure that our warfighters have 
access to lifesaving combat casualty care wherever the fight takes us--
at sea or ashore--and we remain committed to enhancing our capabilities 
and skills in this vital area. Throughout the past 19 years of war in 
Iraq and Afghanistan, Navy and Marine combat casualties had rapid 
access to forward resuscitative care resulting in unprecedented combat 
survivability. Due to time and distance challenges of Distributed 
Maritime Operations (DMO) and Littoral Operations in the Contested 
Environment (LOCE) expected in the next fight, the ``Golden Hour'' will 
not be guaranteed. Therefore, the Navy is actively studying how all 
Roles of Care need to be optimized for maximal survivability in DMO/
LOCE. Currently, the Navy does not have a requirement for a 
Resuscitation Transportation Teams (RTT) capability. We are however, 
constantly working to decrease combat casualty mortality and morbidity 
by implementing advanced trauma capabilities leveraged from both 
battlefield lessons learned and our civilian counterparts. Navy 
conducted a Requirements Evaluation Team analysis of Navy Expeditionary 
Health Services in support of Distributed Maritime Operations. As a 
result, Navy Medicine is creating Role 2 Enhanced (R2E) Containerized 
and Role 2 Light Maneuver systems that provide modular, scalable, and 
mobile forward resuscitation in DMO and LOCE. Navy Medicine is also 
creating Enroute Care Systems that mirror the Marine Corps ERC 
capability for enhanced movement of patients through the roles of care. 
Combinations of these new capabilities are designed to stabilize 
patients at or near the point of injury and optimize patient 
survivability during transport. Lastly, the Navy is developing a R2E 
system payload that converts Expeditionary Fast Transport vessels into 
``ambulances'' to transport larger numbers of patients around the 
battle space. This platform will act as a connector between Roles of 
Care while simultaneously providing damage control resuscitation, 
damage control surgery, critical care, and patient holding for extended 
periods of time.
    Mr. Scott. Should the Navy decommission Fleet Forces Command and 
recommission the U.S. Atlantic Fleet?
    Admiral Gilday. While disestablishing United States Fleet Forces 
Command and establishing an Atlantic Fleet could yield some benefits, 
ultimately the effort to do so would be costly and would create 
inefficiencies that would not justify the effort. Establishing an 
Atlantic Fleet that is aligned in a manner which is similar to the 
missions and tasks carried out by United States Pacific Fleet could 
simplify the lexicon across the world. However, a reorganization of 
this scope ignores the functions that Fleet Forces carries out as a 
force generator and provider for the entire U.S. Navy, such as Global 
Force Management. If this was not executed by USFF, it would require it 
to be performed either by an entirely new staff, or growth in several 
staffs at both Pacific and Atlantic fleets to carry out, which is 
inefficient and would result in increases in the Navy's top line budget 
during a fiscally constrained environment.
    Mr. Scott. Prompt pre-hospital intervention is the most important 
element in wounded combatant survival. Are you satisfied with the 
critical care received by injured/wounded sailors and Marines in far-
forward environments? Does the Navy need a Resuscitation Transportation 
Team (RTT) to bring together critical-care doctors and national 
registry paramedics?
    General Berger. We provide our wounded and injured Marines and 
Sailors with excellent critical care in forward deployed environments. 
At the same time, we recognize that future operating environments will 
be less forgiving, and as a consequence, are seeking ways to enhance 
our critical care capabilities. Two decades of joint symposia and 
research conclude that Field Medical Service Technicians (FMT) and 
flight surgeons assigned to casualty evacuation (CASEVAC) platforms 
lack the training required to manage critically injured, wounded or ill 
service members in the aviation environment. Analysis of CASEVAC 
operations from Operation Iraqi Freedom and Operation Enduring Freedom 
indicate that 83.3% of combat deaths occurred prior to arrival at a 
military treatment facility, with 24.3% of those fatalities considered 
``preventable''. These challenges will be even more acute on future 
battlefields, which will be characterized by greater dispersion of 
forces and longer flight times to military treatment facilities. In 
close partnership with Navy, we are working to ensure that appropriate 
Marine Corps units are staffed with medical personnel in the right 
number, and with the right training, to provide a Resuscitation 
Transportation Team (RTT)-like capability. Getting this right will be 
essential to providing forward-deployed Marines and Sailors with 
critical care capabilities, especially as we prepare for operations 
that are more distributed than in past conflicts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. During a full scale mobilization, over 90% of the Army 
surge will be carried on Navy surge sealift vessels. Unfortunately, the 
average age of these vessels is 45 years. In March 2018, Army indicated 
``Without proactive recapitalization of the Organic Surge Sealift 
Fleet, the Army will face unacceptable risk in force projection 
capability beginning in 2024.'' TRANSCOM recently completed a test of 
these vessels and the fleet responded with a 40% mission capable rate 
when the requirement is 85%. Is Navy responsible for the surge sealift 
fleet? Is a 40% mission capable rate sufficient to meet combatant 
commander requirements? What is the impact if Navy does not change the 
trajectory of surge sealift accelerating decline? Does Navy have a 
comprehensive plan to recapitalize the surge sealift vessels?
    Admiral Gilday. Yes, Navy is responsible for the resource 
sponsorship of the surge sealift fleet and values the importance of a 
credible and ready inter-theater sealift fleet capable of delivering 
U.S. fighting forces and equipment in support of COCOM requirements. 
Recognizing the current mission capability rate was below the required 
85% when tested during the recent Turbo Activation exercise, Navy 
included deliberate funding in the President's FY21 Budget submission 
for which includes an additional $130.6M for sealift readiness, funding 
to purchase two used-ships and the research and development money 
necessary to start building a new sealift ship in 2023. Navy's 
comprehensive plan to recapitalize the surge sealift fleet is reflected 
in the March 2018 Sealift that the Nation Needs report to Congress, to 
which we are committed. This report describes Navy's plan to address 
low mission-capable rates and reverse the readiness decline.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BYRNE
    Mr. Byrne. The President's FY2021 budget request represents a 
significant step back from the President's pledge to build a strong 
Navy to counter the growing threat from China and Russia. This request 
for only seven ships represents a significant blow to the already 
fragile defense maritime industrial base. To make the matter more 
urgent, the recent reprogramming of ships appropriated in FY2020 puts 
even greater stress on the Nation's industrial base and puts at risk 
the jobs of thousands of skilled tradesman and thousands of suppliers, 
many of them small businesses, located throughout the country. What 
consideration of the defense industrial base entered into the 
development of the FY2021 shipbuilding budget? What are the likely 
impacts of this budget on the shipbuilding industry, particularly the 
mid-tier yards and their supplier base?
    Mr. Modly. Given the budget topline constraints, the FY 2021 budget 
prioritizes a more capable and lethal force over a larger force that 
would be less capable, less ready, and less lethal. The FY 2021 
submission remains mindful of the need to keep the shipbuilding 
industrial base loaded at an effective level that encourages industry 
investment in capital improvements and expansion and a properly sized 
world-class workforce. The Department is committed to at least 355 
ships. To get there, the composition of the fleet needs to change so 
that we have fewer large platforms and more small platforms that are 
lightly-manned, eventually moving to optionally-manned. The fleet needs 
to have certain compositional characteristics, including distributed 
awareness, lethality, survivability, and sustainability, and we need to 
be much more aggressive in terms of experimenting and prototyping and 
then quickly moving to production once we feel confident. A healthy 
industrial base, including shipyards and the associated workforce, is 
absolutely critical to this effort. With adequate resources, and with 
budget predictability and stability, the industrial base has the 
capacity and capability to support getting to 355 ships in 10 years.
    Mr. Byrne. EPFs are an important component of the Navy's Combat 
Logistics Force. These versatile platforms are traditionally used for 
troop transport, but their variety of missions are ever increasing. In 
the FY20 NDAA, Congress authorized and appropriated money for the Navy 
to outfit EPF-14 as a medical variant to supplement our two aging 
hospital ships. It is my understanding that the Navy and Marine Corps 
are considering other missions for these ships. What other 
opportunities are potentially available for EPFs?
    Admiral Gilday. Mission requests received from the Navy's numbered 
fleet commanders fall into six specific areas: SOF support, SPMAGTF 
support, maritime security operations, personnel recovery, theater 
security cooperation, and humanitarian assistance/disaster response. No 
final configuration decisions have been made.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. The capability of the Navy is in high demand around the 
world. With threats like China, Russia, and Iran, the Navy's forward 
presence is vital to our National Security. In your Stem to Stern memo, 
one of the areas you are looking at cutting is the Navy's ``Global 
Force Management offerings.'' Does that mean you're going to have the 
Navy do less is a world where our ships are critically needed? Do you 
have certain capabilities you are looking to cut back on?
    Mr. Modly. Reductions to Global Force Management offerings is one 
of several areas that the Stem-to-Stern (S2S) review will take a hard 
look at, but that work is ongoing and the conclusions are pending 
Acting Secretary of the Navy review. The S2S review will also look at 
enabling capabilities that can be outsourced and enabling capabilities 
that can be consolidated to support an integrated naval force. The 
ultimate goal of the S2S is to identify low priority, redundant, or 
legacy capabilities, programs, processes, or headquarters functions 
that can be realigned, eliminated, or reduced to free up resources for 
other strategic and political imperatives, including building a bigger 
Navy. This ongoing review is looking across FY 2022-2026 and the 
results will be included in the FY 2022 President's Budget.
    Mr. Vela. The DOD reprogrammed nearly $1 billion from Ship 
Construction to build additional miles of border wall. Last year, 
Assistant Secretary Geurts testified to the Senate that these funds 
were needed in FY20 to maintain a stable workforce in our industrial 
base. What impact will this reprogramming have to our shipbuilding 
industry, to include the small businesses that are critical to it?
    Mr. Modly. A healthy industrial base, including shipyards and the 
associated workforce, is absolutely critical to achieving our goal of a 
355-plus ship Navy. With adequate resources, and with budget 
predictability and stability, the industrial base has the capacity and 
capability to support getting to 355 ships in 10 years. The Navy will 
continue our efforts to best support workload stability and the 
shipyard's workforce, within our overall budget constraints. In 
determining the sources for the reprogramming, the Department of 
Defense used a deliberate and objective approach to select sources for 
the reprogramming. The funds were sourced from FY 2020 dollars that 
were considered to be either early or excess to need, particularly if 
not requested in the FY 2020 President's Budget.
    Mr. Vela. The T-45 Goshawk has been in service since the early 
1990s as a trainer for future jet pilots. It has been brought to my 
attention that the Rolls Royce engines have a risk of catastrophic 
failure and have been limited in their operating hours. With a new 
training jet years away, what is the Navy's plan to address this 
problem, and what can Congress do to help you?
    Admiral Gilday. In response to the T-45 Rolls-Royce Low Pressure 
Turbine (LPT) engine blade failures in October and November 2019, the 
Navy has limited the operating hours on the blades to 800 flight hours. 
The Navy and Rolls-Royce are aggressively increasing depot capacity to 
provide and sustain at least 100 engines by the end of April 2020, 
which will meet training needs. The Navy and Rolls-Royce are conducting 
an investigation, scheduled to complete this spring, to determine the 
root cause of the LPT engine blade failures. The Navy is assessing 
alternatives if the investigation determines the LPT blade operating 
life must remain at 800 flight hours.
    Mr. Vela. You have said that LCS 1-4 can no longer have a purpose 
in our Navy. Why decommission LCS 3 and 4, when they were not R&D 
ships? A month ago Admiral Faller testified to the Senate about the 
enormous value that LCS platforms played in Southern Command. Couldn't 
these four ships, while not having the anti-submarine or air defense 
capabilities still play a vital role in maritime security operations in 
the region?
    Admiral Gilday. While LCS 3 and 4 are not R&D ships, they were 
transition to production ships that still differ significantly from the 
Block Buy configured ships (LCS 5/6 and follow) that are the true 
beginning of the class. Decommissioning them makes resources available 
for prioritized Navy investments in a Great Power Competition 
environment. LCS that deployed to the Southern Command area of 
operations in 2019 were Block Buy, deployment-configured ships, and 
future LCS deployments to the region by similarly-configured ships are 
already being planned. Even without a mission package assigned, LCS 1-4 
would still require significant modernization and modifications to 
deploy to that region.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. Secretary Modly, you recently argued that future 
ships should include quality of life improvements for our sailors. I 
completely agree. What actions are you taking to ensure we improve our 
habitability requirements for all future ships?
    Mr. Modly. CNIC Morale, Welfare, and Recreation (MWR) Deployed 
Fitness System (DFS) relies heavily on the guidance provided in each 
class of ship's ``Habitability Manual.'' These manuals drive the amount 
of space each ship/submarine has for fitness equipment, recreation 
equipment, and storage for shipboard MWR Afloat Recreation Programs. 
There are currently 14 classes of fitness and recreation ``Afloat 
Standards'' that CNIC MWR DFS uses to fund and outfit ships/submarines 
with equipment. CNIC HQ centrally funds this equipment with 
distribution occurring at the ship's/submarine's homeport. In addition, 
CNIC instructs shipboard active duty recreation services officers, 
recreation fund custodians, and the HQ civilian employees, CNIC Afloat 
Specialists, who are assigned to 20 ships as a Fun Boss or Fit Boss, in 
the proper administration of their afloat recreation programs and 
funds. Some vessels have ship's stores whose earnings support crew 
recreation. For ships/submarines without ship's stores or whose stores 
are closed because the vessel is in the yard, CNIC MWR DFS issues 
nonappropriated fund grants to support crew recreation. Actions being 
taken include continual review of the latest in fitness equipment 
trends and expanded training in Navy Fitness courses to Fit Bosses and 
shipboard Command Fitness Leaders, primarily through the Navy 
Operational Fitness and Fueling System program. Fitness equipment 
includes cardio-bikes, treadmills, rowers, versa climbers, elliptical 
trainers, and most recently a new fast attack submarine treadmill under 
contract. Strength equipment includes adjustable weight stack machines, 
plate loaded machines, free weights, dumbbells, kettle bells, and more. 
In addition, CNIC MWR DFS continues to recruit the best possible 
candidates to become a Fun/Fit Boss.
    Mr. Gallagher. Admiral Gilday, over the past few years, the Navy 
has dedicated considerable resources to improving the operational 
availability of the fleet. Yet despite these efforts, we still face 
considerable readiness challenges, especially when it comes to day in, 
day out readiness.
    I believe we must start to do things differently. We need to ensure 
that new ships are designed to improve maintainability, including 
through their equipment layout, density of equipment, removal routes, 
and more. At the same time, we must provide sailors the tools they need 
to effectively accomplish needed maintenance when it is required.
    How is the Navy ensuring these desired capabilities are receiving 
due consideration in its evaluation of future ships, starting with 
FFG(X)?
    Admiral Gilday. In a direct effort to increase operational 
availability, the FFG(X) program directed the use of mature and proven 
Government Furnished Equipment (GFE) elements in the combat and C4I 
systems as well as in key Hull, Mechanical, & Electrical equipment 
(HM&E) components. The use of GFE equipment incorporates proven designs 
with reliability and performance improvements, existing logistics and 
maintenance infrastructure and current fleet knowledge and training 
support--this directly contributes to increasing readiness and reducing 
fleet maintenance burden. The FFG(X) Program has also ensured that 
equipment reliability and maintainability are considered during source 
selection evaluation of the FFG(X) design. In accordance with the 
FFG(X) solicitation, Offerors are required to describe how reliability 
was considered in the design of major systems and component selection 
which could lead to lower maintenance burden on sailors. In addition, 
the Offerors are required to describe optimization and balancing of 
design elements such as maintenance considerations and incorporation of 
Integrated Logistics Support. The FFG(X) program specified Reliability 
and Maintainability values for critical systems within the technical 
requirements, which are then verified during source selection 
evaluation. Moreover, as a means to assess total platform readiness, 
the FFG(X) program has undertaken a robust modeling and simulation 
program. This program creates a ship-level reliability, 
maintainability, availability, and life cycle cost model that includes 
combat systems, C4I systems, aviation, HM&E systems, and navigation 
systems to enable total platform performance assessments. Future uses 
for such a model would be to increase readiness through targeted 
investments, such as different equipment, additional spares, design 
modifications, better training, higher manning, or increased 
infrastructure.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. Admiral Gilday and General Berger, what is current 
trend of the suicide rate in your respective services and how are you 
addressing them?
    Admiral Gilday. To address suicide and other destructive behaviors, 
the Chief of Naval Operations established the Culture of Excellence, a 
Navy-wide framework designed to promote signature healthy behaviors and 
enhance warfighting excellence by instilling toughness, trust, and 
connectedness in Sailors. Navy is using evidence-based primary 
prevention strategies to reduce destructive behaviors through decreased 
risk factors, and to promote signature healthy behavior by increasing 
protective factors. Preliminary counts of 2019 suicide deaths do not 
show an increase from 2018, but in-depth analysis is underway to 
determine the rate as compared to previous years in order to track the 
Navy's trend across time. Rates are important since counts do not take 
into consideration changes in the overall population. Our adjudicated 
counts and rates will be published as part of the Department of Defense 
Annual Suicide Report in September 2020. Relationships, legal 
complications, financial problems, transition periods, and mental 
health issues continue to be common stressors in most suicides. As part 
of the Culture of Excellence, suicide prevention measures include 
increasing embedded mental health providers who deliver direct support 
to our warfighters as far forward as possible for early intervention. 
We have also placed deployed resiliency counselors, who are civilian 
social workers, onboard aircraft carriers and large amphibious ships. 
An Expanded Operational Stress Control program was developed in 
conjunction with Command Resilience Teams to assist leaders in the use 
of chaplains, medical personnel, counselors, and community resources to 
build a culture that is supportive of help-seeking behaviors. The 
program's goal is to assist Navy leaders to build resilience within 
commands and individual Sailors by increasing awareness and 
understanding of stress and providing strategies to mitigate 
detrimental effects. Navy's vision is to develop an environment in 
which all Sailors are trained and motivated to navigate stress, to 
assist their shipmates, and, most importantly, to seek help early from 
available resources.
    Mr. Cisneros. As we've heard from the questions posed by my 
colleagues on this committee and your own testimony, now more than 
ever, every warship in the inventory counts. We can not afford the cost 
in terms of service members' lives, capability and monetary value. 
Therefore we must minimize the likelihood of preventable mistakes. A 
few weeks ago, the Seapower and Projection Forces and Readiness 
Subcommittee heard testimony from VADM Brown regarding the 2017 surface 
ship mishaps in the Pacific. As a Navy veteran, I'm concerned about the 
Surface Warfare community's status as professional mariners and the 
steps the Navy is taking to include Navigation, Seamanship and 
Shiphandling (NSS) assessments at all milestone levels to ensure 
proficiency.
    Admiral Gilday, how exactly are these assessments performed? Are 
they completed virtually on simulators or are any performed at sea? Who 
are the assessors and how can we assure their impartiality?
    Admiral Gilday. As codified within the Surface Warfare Career 
Manual (COMNAVSURFORINST 1412.7, 16DEC19), the Surface Warfare Officer 
(SWO) training and assessment continuum involves a series of 10 
Navigation, Seamanship, and Shiphandling (NSS) assessments spanning all 
milestones across the SWO career path. Such ensures the development, 
assessment, and sustainment of NSS proficiency. These assessments span 
Ensign to Captain ranks and Division to Major Command career 
milestones, and ensure SWOs bear the requisite skills to safely and 
effectively handle their ships and manage watch teams in a variety of 
environments. The 10 assessments involve 3 Competency Checks conducted 
by the Surface Warfare Schools Command (SWSC), 3 evaluations conducted 
by Commanding Officers and ISICs, and 4 x Go/No Go Assessments 
conducted by the SWSC. Both the Assessments and Competency Checks 
conducted by SWSC are executed by senior post-command assessors 
(military Captains/Commanders and licensed civilian Master Mariners) in 
high fidelity ship-handling simulators. Evaluations conducted by 
Commanding Officers and ISICs are executed at sea and in high-fidelity 
ship handling simulators across the Fleet Concentration Areas. SWSC has 
a formal process for training and qualifying assessors. SWSC personnel 
use standardized checklists in the execution of Competency Checks and/
or assessments at all milestone levels. In the case of Go/No Go 
Assessments for Prospective Commanding Officers and Prospective Major 
Commanders, at least two assessments are conducted, and two different 
assessors are utilized.
    Mr. Cisneros. Admiral Gilday, can you provide an update on the 
sailors that were aboard the Fitzgerald and the McCain? How are they 
being monitored?
    Admiral Gilday. The Navy is committed to ensuring that all Sailors 
have access to local mental health facilities and frequent 
opportunities to request additional support, as desired. The Navy 
Personnel Command has a formal process to monitor the status and career 
progression, for the USS FITZGERALD (FTZ) & JOHN S. McCAIN (JSM) 
Service Members (SVM), who were onboard during the 2017 incidents. This 
process is overseen by the Personnel Management Department (Pers-4), 
and for enlisted personnel, utilizes a unique Navy Enlisted Code (NEC) 
to identify and track these sailors. FTZ/JSM officers comprise a much 
smaller cohort, and bear individual tracking by the Surface Warfare 
Officer Assignments Branch (Pers-41). The Bureau of Medicine (BUMED) 
uses the enlisted NEC and PERS-41 officer data to ensure mental health 
services are available to these Sailors. The Organizational Incident 
Operational Nexus Trauma Tracker (ORION) program, Periodic Health 
Assessment (PHA) Survey, and Post-Deployment Health Assessment (PDHA) 
are independent mechanisms, that each allow for intrusive engagement 
from mental health providers to assess, monitor and facilitate their 
mental health status and care. Created after the 2017 incidents, ORION 
provides targeted mental health outreach and caring contacts to 
affected SVMs. Sailors were initially contacted via phone and email 
regarding their need for care and the accessibility thereof. 100% were 
contacted and 62% responded. Of that percentage, 20% sought mental 
health care. The PHA includes a Mental Health Assessment. Such provides 
an annual inquiry regarding mental health symptoms and the need for 
care. If the SVM answers affirmatively to having difficulty, care is 
coordinated immediately. SVMs returning from deployment, are required 
to complete a PDHA within 30 days of returning from deployment, and 
Post Deployment Health Reassessment (PDHRA) within 90-180 days from 
deployment. Both assess mental health or any psychological issues. In 
addition to PHA/PDHA, all SVMs who self-refer receive immediate mental 
health specialty services. Options include: Primary Care Mental Health 
provider (Integrated Behavioral Health Consultant), the Mental Health 
Department, the Fleet and Family Support Center, Military One Source 
and Military Family Life Counselors. In summary, 100% of the affected 
FTZ/JSM SVMs were evaluated by a psychologist and provided the 
necessary mental health services. Significant oversight of the SVMs' 
mental and physical health, was conducted immediately following and 
throughout the first year following the collisions. The annual PHA and 
the PDHA processes are enduring tools by which Navy can monitor these 
SVMs, and ensure their access to all required/desired mental health 
services.
    Mr. Cisneros. Admiral Gilday and General Berger, what is current 
trend of the suicide rate in your respective services and how are you 
addressing them?
    General Berger. The number of Marines that have died by suicide in 
Calendar Year (CY) 2020 year-to-date is 8 for the Active component and 
2 for the Reserve Component. The Marine Corps saw the highest rates of 
suicide in CY2018. Although the suicide rate for CY2019 has not been 
released by the Defense Suicide Prevention Office, we anticipate the 
rate for CY2019 will be notably lower than in CY2018. While no one 
intervention can be credited with a reduction in deaths by suicide, the 
Marine Corps approaches suicide prevention by using every resource 
available to promote and apply the leadership functions of Strengthen, 
Mitigate, Identify, Treat, and Reintegrate, which allow Commanders to 
increase individual and unit readiness.
    Strengthen: No matter the level of resilience a young man or woman 
has when he or she becomes a Marine, it is our intent to enhance 
individual resilience by strengthening the ability to respond to stress 
in a healthy manner.
    Mitigate: While being a Marine is inherently dangerous, our 
commanders are trained to mitigate unnecessary stressors by enhancing 
the tools a Marine has to deal with the stressors of life.
    Identify and Treat: All Marines are trained annually to identify 
fellow Marines who might be having difficulties handling stress. 
Marines learn to ask the tough questions and, if needed, refer one 
another to higher levels of support. This support may be in the form of 
mental health treatment or other resources provided to our commanders 
at the unit and installation levels.
    Reintegrate: Commanders have the tools and training to care for a 
Marine throughout the spectrum of mental health response to include 
reintegration. As is the case with medical or physical injury, care is 
taken to get each Marine back in the fight as soon as appropriate, 
thereby increasing the readiness of our Marine Corps.
    The Marine Corps' current suicide prevention initiatives include:
    Unit Marine Awareness and Prevention Integrated Training (UMAPIT): 
updated for CY20, UMAPIT (pronounced YOU-MAP-IT) teaches every Marine 
the basics of suicide prevention, normalizes life changes, and 
emphasizes seeking help early in hopes of decreasing stigma. Research 
on social media and suicide is also included, as well as suicide 
safeguards. Survey results indicate this training is effective at 
increasing overall behavioral health knowledge, knowledge of where to 
refer Marines, likelihood of making Behavioral Health referrals, belief 
that it is socially acceptable to discuss suicide, and belief that 
suicide can be prevented.
    Combat And Operational Stress Control (COSC): COSC initiatives 
promote prevention, intervention, protection and crisis response for 
stress reactions at the unit level. Operational Stress Control and 
Readiness (OSCAR) team training is one such COSC initiative and was 
updated for CY20. This training builds teams of selected Marines and 
unit leaders as well as medical and religious personnel who work 
together to act as sensors for the commanders by noticing small changes 
in behavior and taking action early. OSCAR teams support the commander 
in building unit strength, resilience, and readiness. The Marine-led 
training teaches team members to help Marines face everyday stressors 
before they become overwhelming. OSCAR team members use their 
leadership skills and knowledge of the full spectrum of stress 
reactions to break stigma and intervene when Marines show signs of 
stress, including suicidal ideations.
    Behavioral Health Non-Medical Counseling: Non-medical counseling 
services are available to Marines to augment a Commander's efforts to 
teach and strengthen coping skills, mitigate stressors, and identify 
Marines in crisis, and/or at risk for suicide.
    Marine Intercept Program (MIP): MIP is a targeted intervention that 
expands follow-on care for Marines who have attempted suicide or have 
had a suicide ideation. MIP provides follow-up contacts by telephone or 
in person, safety planning, and suicide risk assessment as well as 
coordination with the Marine's commander.
    Death by Suicide Review Board (DSRB): DSRB analyzes all deaths by 
suicide to provide strategic and operational recommendations that 
address multiple Marine Corps suicide prevention goals. Recommendations 
from DSRB help commanders at all levels to understand the risks of 
suicide and improve prevention initiatives.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. SHERRILL
    Ms. Sherrill. Secretary Modly and Admiral Gilday, I'd like to echo 
my colleague Ranking Member Thornberry's concerns about the 
Department's recent reprogramming action. I agree with you that 
reprogramming is ``unhelpful,'' especially in contrast to the 
Department's stated priorities of modernization and readiness.
    I'd like to focus in on the P-8 program. The validated warfighter 
requirement is 138 P-8s. In Fiscal Year 2020, the Navy requested only 
six aircraft, which would have brought the total to 117. Congress, in 
response to the Navy's unfunded priority list, allocated nine P-8s, 
which would have brought the total number of aircraft to 120, still far 
below the warfighter's requirement.
    This year, the Navy requested zero new P-8s after the Department 
reprogrammed one aircraft, leaving the Navy with a P-8 fleet of only 
119 aircraft.
    How does this request and reprogramming action reflect the 
validated warfighter requirement of 138 aircraft? Why did the Navy 
decline to request enough aircraft to meet the warfighter's need?
    I have particular concerns about this program because of a 
projected ``drop-dead'' date for the production line of December 1, 
2020. Are you aware that the P-8 is produced on an older 737 production 
line that will not be restarted once it shuts down? Has the risk of a 
production line shutdown factored into your budgeting decisions for 
this fiscal year?
    Admiral Gilday, Secretary Modly, as you know, the P-8 is a premier 
anti-submarine aircraft. We are seeing the highest levels of Russian 
submarine activity since the Cold War and indications that China is 
investing heavily in its submarine force. How does requesting P-8 
procurement below the level required by the warfighter and 
reprogramming further aircraft support the great power competition 
priorities of the National Defense Strategy?
    Mr. Modly and Admiral Gilday. With the additional P-8As added by 
the Congress in the FY 2020 appropriations law, the Navy plans to begin 
transition of reserve personnel, located at Naval Air Station (NAS) 
Jacksonville, FL, into the P-8A starting in FY 2023. VP-62 will retire 
their legacy P-3C aircraft and begin training at the Fleet Replacement 
Squadron collocated at NAS Jacksonville. The co-location of the FRS 
(VP-30) with its simulators, operational flight trainers/labs, support 
equipment, embedded logistics, supply chains, and adequate ramp space, 
makes VP-62 the ideal choice to transition to the P-8A first. This 
transition would occur via the same classroom and simulator-training 
syllabi completed by the active duty squadrons. Due to higher budgetary 
priorities, the Navy was unable to fund P-8As in the President's FY 
2021 request. A full Reserve squadron transition of both VP-62 and VP-
69 from the P-3C to the P-8A would require additional aircraft. The two 
reserve P-8A aircraft currently apportioned are insufficient to 
transition a single squadron. With ten additional P-8A aircraft, the 
Navy Reserve could fully transition VP-62 in FY 2023 and VP-69 in FY 
2024.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BERGMAN
    Mr. Bergman. Naval and Marine Corps rotary aircraft must be 
sufficiently manned and adequately equipped to defeat enemy threats. 
How confident are you in the safety of the rotary fleet? Are these 
aircraft adequately equipped with infrared countermeasure capability to 
detect and defeat heat seeking missiles? Is further investment needed 
to ensure the readiness of the rotary fleet?
    General Berger. Protection against today's infrared heat seeking 
missiles requires continuous upgrades within our aircraft survivability 
equipment (ASE) programs, coupled with an aggressive fielding approach. 
The AAQ-24 DON LAIRCM (Large Aircraft Infrared Countermeasure) is 
installed on 82 CH-53Es, 48 MV-22s and 10 KC-130J. The AAQ-45 DAIRCM 
(Distributed Aperture Infrared Countermeasure) will be installed on 16 
UH-1Ys and 20 AH-1Zs. Such systems are significantly better at 
detecting all threat types in complex environments and at longer 
ranges. . The majority of information about ASE and the threats it 
defeats is classified. We will be happy to provide a classified 
briefing at your convenience.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. One of the only U.S. Navy aircraft dedicated to anti-
submarine warfare is the P-8A Poseidon. In Florida, one of our Reserve 
squadrons at Naval Air Station Jacksonville is dedicated to the anti-
submarine warfare mission, but its legacy P-3 aircraft are so old that 
the Chief of Navy Reserve has testified that it will decommission 
without new P-8 Poseidon aircraft.
    How can Congress help you recapitalize the Reserve squadrons with 
P-8s--particularly the one at NAS Jacksonville, FL--so that we don't 
lose that critical mission?
    Mr. Modly and Admiral Gilday. With the additional P-8As added by 
the Congress in the FY 2020 appropriations law, the Navy plans to begin 
transition of reserve personnel, located at Naval Air Station (NAS) 
Jacksonville, FL, into the P-8A starting in FY 2023. VP-62 will retire 
their legacy P-3C aircraft and begin training at the Fleet Replacement 
Squadron collocated at NAS Jacksonville. The co-location of the FRS 
(VP-30) with its simulators, operational flight trainers/labs, support 
equipment, embedded logistics, supply chains, and adequate ramp space, 
makes VP-62 the ideal choice to transition to the P-8A first. This 
transition would occur via the same classroom and simulator-training 
syllabi completed by the active duty squadrons. Due to higher budgetary 
priorities, the Navy was unable to fund P-8As in the President's FY 
2021 request. A full Reserve squadron transition of both VP-62 and VP-
69 from the P-3C to the P-8A would require additional aircraft. The two 
reserve P-8A aircraft currently apportioned are insufficient to 
transition a single squadron. With ten additional P-8A aircraft, the 
Navy Reserve could fully transition VP-62 in FY 2023 and VP-69 in FY 
2024.
    Mr. Waltz. I support the Navy's need for sonobuoys and want to 
assure we authorize exactly what's needed. It's my understanding that 
the Navy is using large numbers of all types of sonobuoys in dealing 
with the out of area deployers.
    In the Navy's unfunded priorities list, you request $49.1 million 
to recapitalize the SSQ-125A sonobuoys. Can you explain why you are 
seeking to recapitalize a sonobuoy that is not in production versus 
replenishing?
    Admiral Gilday. The SSQ-125A sonobuoy is currently in production. 
Navy awarded a five-year production contract for the procurement of 
SSQ-125A sonobuoy in July 2019. The Navy continues to use all types of 
sonobuoys in dealing with Out-of-Area deployers. PMA-264 annually 
optimizes the required inventory of sonobuoys across all types, driven 
by Fleet utilization and cost per unit to drive best value to the 
Government. The PB21 UPL requests funding to build inventory of the 
SSQ-125A and to give more flexibility to how we apply the remaining 
base budget to procure the other sonobuoy types. Additionally, the 
program office closely manages the inventory of SSQ-125 sonobuoys to 
ensure no break in capability to the Fleet until the SSQ-125A inventory 
and associated platform operational software update is in place.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr. Golden. In written testimony as part of his Senate confirmation 
hearing, General Berger stated:
    Question: In February 2018, the Secretary of Defense established 
the Close Combat Lethality Task Force (CCLTF)--a cross-functional task 
force charged to ``strengthen the . . . lethality, survivability, 
resiliency, and readiness'' of U.S. squad-level infantry formations to 
``ensure close combat overmatch against pacing threats.'' Will you 
commit that, if you are confirmed, the Marine Corps will continue to 
support the CCLTF, ensuring that it is properly resourced for mission 
accomplishment?
    If confirmed, I would continue the Corps' support for the CCLTF. 
The Marine Corps remains fully committed to increasing the lethality 
and readiness of our close combat formations. I will ensure the Marine 
Corps continues to work closely with the CCLTF as they implement the 
Secretary of Defense's intent. The increased resources provided over 
the last two years helped us improve readiness at the squad level.
    Recently, the Secretary of Defense remarked, ``What we're going to 
do, probably, is transition it [CCLTF] to the Army because something 
like that needs a strong foundation of backbone upon which its ideas 
can then filter out.''
    Does the Marine Corps need to continue to work closely with the 
CCLTF and should the Marine Corps continue to be a part of the CCLTF?
    General Berger. The Marine Corps does need to continue to work 
closely with the CCLTF and will continue to do so. The Marine Corps 
continues to support CCLTF and Army planners as they mature plans to 
transition the task force to the Department of the Army. The Marine 
Corps' exact role and relationship with the CCLTF, once it is fully 
incorporated into the Department of the Army, will be determined as 
details of the transition are solidified. The Marine Corps fully 
intends to support the efforts of this critical task force and will 
continue to evaluate the best means to do so. The readiness and 
lethality of Marine close combat units remains an institutional 
priority.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TRAHAN
    Ms. Trahan. Hearing loss is a major concern for the Navy and the 
Marine Corps. Sailors often work on vessels or in shipyards with 
constant high-level noise and marines operate loud artillery. According 
to the 2018-2019 disability claims data, the top two most common VA 
disability claims are tinnitus and hearing loss, respectively.
    What kind of hearing protection measures is the Navy adopting to 
protect sailors during combat and training?
    Admiral Gilday. The preferred methodology for mitigating hazardous 
occupational noise in combat and training environments is to eliminate 
the need for hearing protection by reducing the magnitude of the noise 
source. The Navy is currently conducting pilot programs with the goal 
of reducing source noise in certain generational systems of record by 3 
decibels. This target is significant in that achieving such a goal 
would double the amount of time a service member could safely work in a 
specific environment. Hearing protection devices are the second option 
to reduce hazardous noise exposure. A robust inventory, with new 
products routinely introduced, of passive, active, and noise mitigating 
devices are routinely used in the Department of Navy. Studies are 
underway for test protocols for fit-testing and effectiveness, which 
will be used at basic training for all recruits and for personnel with 
a decrease in hearing identified during annual testing. This effort 
will ensure our Sailors are adequately fit with proper hearing 
protection and fully trained on how to use the devices effectively.
    Ms. Trahan. Hearing loss is a major concern for the Navy and the 
Marine Corps. Sailors often work on vessels or in shipyards with 
constant high-level noise and marines operate loud artillery. According 
to the 2018-2019 disability claims data, the top two most common VA 
disability claims are tinnitus and hearing loss, respectively.
    What kind of hearing protection measures is the Marine Corps 
adopting to protect marines during combat and training?
    General Berger. For the majority of Marines, local commanders 
across the Marine Corps use operation and maintenance funds to procure 
various types of hearing safety devices for both combat and training. 
For those Marines that require additional equipment, the Marine Corps 
Systems Command, which is the acquisition command of the Marine Corps, 
procures additional hearing devices for protection and increased 
lethality. Following a congressional increase of $5 million for fiscal 
year (FY) 2019, Marine Corps Systems Command procured approximately 
5,500 Hearing Enhancement Devices in the fourth quarter of FY 2019. The 
devices were fielded to artillery and reconnaissance Marines in the 
first quarter of FY 2020. Hearing Enhancement Devices offer a 
combination of enhanced hearing capability to increase detectability of 
soft sounds through the use of volume control, as well as hearing 
protection from excessive noise through electronic compression of sound 
to a non-hazardous level. For FY 2020, Marine Corps Systems Command 
received a $10 million congressional increase for hearing devices. 
Marine Corps Systems Command intends to conduct a full and open 
competition and award a contract in the fourth quarter of FY 2020 for 
approximately 11,000 Hearing Enhancement Devices. The challenge for 
operational Marine Corps units remain that we must balance noise 
cancellation with the need for Marines to hear commands. An artillery 
Marine, for example, must hear commands from their team chief in order 
to be effective and safe. We will continue to seek solutions, which 
bridge this difficult challenge.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BRINDISI
    Mr. Brindisi. Admiral Gilday, I note with disappointment that the 
Navy did not include any funding in the FY21 budget for another HELIOS-
Integrated High Energy Laser weapons system shipset. However, I am 
pleased that you did include funding for it in your unfunded priorities 
list. Can you tell me, where does directed energy stand in your overall 
priorities and if it is high on that list, why was there no funding in 
the budget or in the FYDP?
    Admiral Gilday. Navy is all in on Directed Energy. We must have 
directed energy as part of our layered defenses for surface platforms. 
All of our investments are focused on delivering area and self-defense 
against anti-ship cruise missiles and lesser threats as part of the 
Surface Navy Laser Weapon System Increment 2 (SNLWS Inc 2) in the mid-
2020s. SNLWS Inc 1 (also known as HELIOS) is the first high energy 
laser installed on a DDG and integrated into the Aegis Combat System. 
It will inform development of future SNLWS requirements and grow Navy 
laser operational concepts and tactics. However, SNLWS Inc 1 is not the 
desired end state. Navy made the decision to field a limited number of 
operational lasers to learn what we can at that power level, while 
simultaneously investing in the development of underlying technologies 
that are required for Increment 2, namely OSD's High Energy Laser 
Scaling Initiative (HELSI) and ONR's High Energy Laser C-ASCM Project 
(HELCAP). Those two high-leverage projects are funded in PB21 and will 
develop technologies and the industrial base required to build a 300-
500kW laser in the mid-2020s.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRAVES
    Mr. Graves. With the ``group of systems'' approach for the MUX/
Advanced Tactical Unmanned Aircraft System, is the 22.5M$ budget 
request actually sufficient to provide for the testing and development 
required, particularly as it relates to MQ-9 and near-term 
capabilities? Would it be beneficial to increase funding beyond the 
unfunded request for $6 million in order to fully test and develop the 
new MQ-9B as a prototype for the MUX family of systems?
    Mr. Modly. The Marine Corps will focus on a medium-altitude, long-
endurance solution as the first capability for the Marine Air/Ground 
Task Force, Expeditionary (MUX) family of unmanned airborne systems. 
Development of a competitive acquisition is being pursued to allow 
industry to provide the best value at an acceptable cost to the 
taxpayer. Additional funding above the budgeted $22.5 million would 
allow for acceleration of the system's development once a capability 
has been selected. The $6 million unfunded request mentioned is a 
separate request for a training system to complement the ongoing Marine 
Corps MQ-9A procurement.
    Mr. Graves. With the ``group of systems'' approach for the MUX/
Advanced Tactical Unmanned Aircraft System, is the 22.5M$ budget 
request actually sufficient to provide for the testing and development 
required, particularly as it relates to MQ-9 and near-term 
capabilities? Would it be beneficial to increase funding beyond the 
unfunded request for $6 million in order to fully test and develop the 
new MQ-9B as a prototype for the MUX family of systems?
    General Berger. The Marine Corps will focus on a medium altitude, 
long endurance (MALE) solution as the first capability for the Marine 
Air/Ground Task Force, Expeditionary (MUX) family of unmanned airborne 
systems (FoUAS). Development of a competition will allow industry to 
provide the best value at an acceptable cost to the tax payer. 
Additional funding above the budgeted $22.5M would allow for 
acceleration of the system's development once a capability has been 
selected this summer. The USMC desires to field a capability in CY23/
FY24. The referenced $6M request is a separate unfunded request for a 
simulator training system to complement the ongoing procurement of 2 x 
MQ-9A aircraft currently deployed.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. Admiral Gilday and General Berger--shortfalls 
associated with procurement of the Naval Strike Missile were prominent 
on the FY21 Unfunded Priorities Lists released last week. Do you agree 
that these unfunded requests would significantly enhance the lethality 
of the fleet, and support the deployment of the first Marine Corps 
Ground-based Anti-Ship battery?
    Admiral Gilday. Yes, additional Naval Strike Missiles (NSM) would 
enhance the lethality of the fleet. The NSM funding on the Navy's FY21 
Unfunded Priorities List supports shipfill requirements for seven 
Littoral Combat Ships equipped with NSM systems. Additional missiles 
prevent the need for in-theater ordnance offload and transfers.
    Mr. Bishop. Admiral Gilday, I welcome the significant investment in 
the Tomahawk program in this year's budget request. However, I am 
concerned about the lack of certainty beyond this year for continued 
procurement, even as Congress has supported investments to modernize 
the production lines for the program. Understanding that the Navy is 
now completing analysis to determine what the future-year production 
profile looks like, can you please advise the committee on what factors 
are being considered and when the service will be able to advise on 
recommendations for future production?
    Admiral Gilday. Navy and the Office of the Secretary of Defense for 
Cost Analysis and Program Evaluation (OSD(CAPE)) are conducting a 
weapon inventory analysis, to include the evaluation of potential 
future Tomahawk procurements. This analysis will help inform, among 
other things, the proper mix of defensive and offensive weapons from 
both surface and sub-surface platforms. Initial study findings are 
estimated to be complete in the mid-summer 2020 timeframe. This study 
schedule will enable Navy to inform the pending POM-22 budget submit. 
Study results will also inform the annual update to the Naval Munitions 
Requirements Process (NMRP) which determines Navy's overall Total 
Munitions Requirements (TMR). NMRP takes into account Department-wide 
priorities and fiscal constraints that enables Navy to prioritize and 
balance the overarching weapons procurement plan to minimize TMR 
shortfalls across the Navy's entire weapons portfolio. The key TMR 
factors we take into account include: Fleet OPLAN munitions 
requirements, peacetime ship fill requirements, training requirements 
and post-engagement reload requirements. When making these decisions, 
Navy is also informed by defense industrial base production 
capabilities, capacity and sustainability.
    Mr. Bishop. Admiral Gilday and General Berger--shortfalls 
associated with procurement of the Naval Strike Missile were prominent 
on the FY21 Unfunded Priorities Lists released last week. Do you agree 
that these unfunded requests would significantly enhance the lethality 
of the fleet, and support the deployment of the first Marine Corps 
Ground-based Anti-Ship battery?
    General Berger. Yes, the Marine Corps' unfunded request for 36 
Naval Strike Missiles will allow the Marine Corps to build required 
capacity for the Ground-Based Anti-Ship Missile (GBASM) capability one 
year earlier than planned, moving this capability from FY23 to FY22. 
The Marine Corps' highest ground modernization priority, the GBASM 
capability, will provide anti-ship fires from land as part of an 
integrated Naval Anti-Surface Warfare campaign. This forward-deployed 
and survivable capability will enhance the lethality of our naval 
forces and will help to deny our adversaries the use of key maritime 
terrain. The Marine Corps' GBASM solution is the Navy Marine 
Expeditionary Ship Interdiction System (NMESIS), consisting of an 
unmanned Joint Light Tactical Vehicle-based mobile launch platform, 
called the Remotely Operated Ground Unit for Expeditionary Fires, and 
Naval Strike Missiles. The Naval Strike Missile is identical to the 
Navy's Over the Horizon Weapon System deployed on the Littoral Combat 
Ship and will provide the Marine Corps with a missile capable of sea-
skimming, high-g maneuverability, and the ability to engage targets 
from the side, rather than top-down. This maximizes lethality and 
missile survivability. The first test of NMESIS took place in December 
2019 and successfully fired an inert round. A second live-fire 
demonstration with a guided Naval Strike Missile is planned for June 
2020.
    Mr. Bishop. General Berger--In the House Report accompanying of the 
FY20 NDAA the committee designated the rifle accessory control unit 
(RACU) as an item of special interest. The committee stated that it 
expects the Marine Corps to complete the phase 2 evaluation and, 
subject to a successful evaluation, expects the capability to result in 
a validated requirement. The Marines began testing and evaluation of 
this technology in FY2016. Because of the funding lags that threaten 
the viability of small technology companies, I am concerned about the 
inordinate amount of time it has taken to get to this point and equally 
concerned about the potential for continued delay. What is the USMC 
doing to assure that this item of special interest moves forward onto a 
rapid acquisition strategy?
    General Berger. The Marine Corps is not pursuing a rapid 
acquisition strategy for the Rifle Accessory Control Unit (RACU), as 
the Marine Corps does not have a requirement for the RACU. The majority 
of close-combat Marines are not equipped with a radio and have only one 
weapon accessory to be controlled; an additional accessory adds 
unnecessary weight and does not increase lethality. There are no 
current plans to create a new requirement specific to this item.
    Moreover, the environmental testing and report for the RACU is 
complete. Twelve environmental tests were conducted on three RACU 
variants. All three RACU variants failed Immersion testing and either 
failed or sustained damage in the Operational Drop test. A copy of the 
environmental test plan and final report are being provided to KORD 
Defense.

                                  [all]
</pre></body></html>
